<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:02 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (chairman) 
presiding.
    Present: Senators Murkowski, Cochran, Blunt, Daines, 
Cassidy, Udall, Feinstein, Leahy, Reed, Tester, and Merkley.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. SALLY JEWELL, SECRETARY
ACCOMPANIED BY:
        MICHAEL CONNOR, DEPUTY SECRETARY
        KRISTEN SARRI, PRINCIPAL DEPUTY ASSISTANT SECRETARY


              opening statement of senator lisa murkowski


    Senator Murkowski. Good morning. I would like to welcome 
everyone to our first hearing of the Interior Appropriations 
Subcommittee for fiscal year 2017. We are here to review the 
budget request for the Department of the Interior.
    I would like to welcome our witnesses this morning. We have 
the Honorable Secretary Sally Jewell, who is accompanied by 
Deputy Secretary Mike Connor as well as Principal Deputy 
Assistant Secretary Kris Sarri. Welcome to all of you.
    Since this is our first hearing this year, I will just 
remind colleagues that we will follow past practices and adhere 
to the early bird rule for recognizing members for questions. I 
will call on members in the order they arrive, going back and 
forth between majority and the minority. We will do 6-minute 
rounds of questions.
    My expectation this morning is that we will likely do two 
to three rounds of questions, depending on votes and schedules 
of the members and the witnesses. I will try to accommodate 
everyone so that they have an opportunity to address the issues 
that they wish to raise.
    I also want to thank and welcome my ranking member, Senator 
Udall. We managed to mark up this bill for the first time in 6 
years in fiscal year 2016. While we didn't agree on everything 
that was in the bill, things were never disagreeable. I really 
appreciate that. I think that my friend from New Mexico has an 
overall good nature and a passion for the issues that are 
important to this subcommittee and I greatly respect it. So I 
am looking forward to another productive year for the 
subcommittee, working with both you and all the members of the 
subcommittee.
    Turning to the budget request for the Department of the 
Interior, it is $12.25 billion for programs within this 
subcommittee's jurisdiction. This includes $290 million for a 
proposal similar to last year, which allows certain 
firefighting costs to be appropriated as disaster funds. This 
total is 2 percent above the enacted level.
    But I should note for my colleagues that the department's 
request does not include funds for the Payments in Lieu of 
Taxes program (PILT) as part of the discretionary budget.
    Funding for PILT was provided within our bill last year at 
the fully authorized level of $452 million. So when you look at 
an apples-to-apples comparison to fiscal year 2016, my 
assessment is that the President's request is roughly 5.8 
percent above current levels.
    Secretary, as I noted when you appeared before the Energy 
Committee last week, there are a number of aspects of the 
President's budget proposal that I do find troubling. It 
includes a number of mandatory spending proposals without 
providing any offsets.
    Mandatory spending for the Land and Water Conservation Fund 
(LWCF) is at $425 million without an offset. Similarly, for the 
National Park Service, the budget proposes mandatory spending 
of $1.5 billion over a 3-year window, again with no offsets.
    This administration has engaged in this somewhat 
questionable practice of proposing mandatory funding for 
popular programs with no offsets during the last several budget 
cycles. This approach raises expectations that funding will 
materialize when we all know that finding payfors--even for the 
most popular programs--is extremely difficult in this budget 
environment.
    If the authorizing committees are unable to find offsets in 
their jurisdiction to pay for these proposals, it puts more 
pressure on this subcommittee to find funds out of our limited 
resources.
    The budget also prioritizes certain programs within this 
subcommittee's jurisdiction over others, and essentially places 
them on autopilot at the expense of other dire needs. Some of 
those needs, and I am sure we will hear about them this 
morning, are the needs in Indian country, where our schools are 
failing and suicide rates are so far above the national average 
that it is just heartbreaking.
    I know, Secretary, that you share concerns about what is 
headed in Indian Country with me.
    The healthcare system is strained to its limits, often 
providing services in facilities that are over 100 years old.
    So you have a situation where funding increases, as 
proposed for LWCF and the National Park Service, are elevated 
and prioritized each year among all the programs over which 
this subcommittee has oversight. This budget appears to have 
done just that.
    I don't want to send the wrong impression here. I will work 
with the administration and my colleagues on a responsible, 
bipartisan National Park Service centennial bill. I think that 
is important. But I do think the $1.5 billion proposal put 
forward is not realistic. I hope we can be creative in the use 
of public/private partnerships and other means to stretch our 
Federal funding further and to reach consensus on a bill that 
appropriately celebrates the 100th anniversary of our national 
parks.
    I am also concerned that, yet again, when oil prices have 
fallen dramatically and many companies are on the verge of 
bankruptcy, the department indicates in its budget request that 
it will propose a host of new fees and royalty rate increases 
on energy producers that will exceed $1.7 billion. There are 
also new fees on grazing and hard-rock mining.
    I just don't see how making it more expensive to do 
business on public lands is sound policy or good for the United 
States Treasury.
    I am pleased that this budget fully funds contract support 
costs and adopts the approach that I put forward in the Senate 
mark for fiscal year 2016, which establishes a separate, 
indefinite appropriation for these costs to ensure that these 
legal obligations are met and other programs will not be 
affected.
    We have come a long way since a couple years ago when the 
administration proposed circumventing the tribes' victory in 
the Ramah decision and sought to cap these costs. I thank all 
my colleagues both here in the Senate and in the House for 
their support in this effort.
    Finally, Madam Secretary, there remains King Cove, which is 
still totally unresolved. We once again discussed this issue 
last week in your testimony before the Energy Committee. But, 
again, I don't see anything in this budget request to help 
those whose lives are in needless danger. You did agree last 
week, Secretary, to publicly release the nonroad, nonsolutions 
study that Interior commissioned for King Cove during the 
budget hearing. When we get to the questions time, I do plan to 
ask you about the timing on this report.
    I have talked to virtually all of my colleagues about the 
need for a lifesaving road to King Cove. I mention it again 
here, particularly for the information of members who are not 
on the Energy Committee, so that they remain aware that I 
remain committed to do everything in my power as the chairman 
of that committee and as chairman of the Interior Subcommittee 
to fight for the construction of this critical road.
    With that, I want to thank, again, the Secretary and the 
Deputy Secretaries, and my colleagues for their appearance here 
this morning.
    And I will now turn to Ranking Member Udall for any 
comments that he would like to make.


                     statement of senator tom udall


    Senator Udall. Good morning. Thank you, Madam Chair, for 
those very kind comments at the beginning. I will reciprocate 
here in a minute with some also.
    Good morning, also, Secretary Jewell. We are very pleased 
to have you appear before the subcommittee to discuss the 
Department of the Interior's fiscal year 2017 budget request. I 
am also pleased to welcome Deputy Secretary Mike Connor and 
Deputy Assistant Secretary Kris Sarri before the subcommittee.
    Before we turn to the budget, I want to thank Chairman 
Murkowski for working with me to produce what I think is a very 
good budget for the department in 2016. Madam Chairman, we have 
had some challenging policy issues to work through, so I am 
very pleased that we were able to pass a bill that included 
critical increases for national parks, tribal programs, Land 
and Water Conservation Fund, and many of the programs that we 
will discuss this morning.
    I also want to recognize, Madam Chair, your hard work and 
your leadership of this subcommittee. I know it will be a 
pleasure to work with you again this year, and to work with 
your very fine staff to support our common interests in this 
bill.
    That said, this subcommittee's job is not going to be easy. 
Under the Budget Control Act, discretionary spending for 
nondefense programs is essentially flat in 2017. At the same 
time, we have to fund certain must-do increases across the 
Government, including firefighting and tribal contract support 
costs for this subcommittee. So that flat funding level 
effectively means a cut.
    On paper, the department's discretionary request also looks 
flat compared to fiscal year 2016, in keeping with the budget 
caps. But if you dig a little deeper, it is clear that the 
President used savings from a number of proposals to create 
room for some significant increases. These proposals include 
funding part of the firefighting budget with a new disaster cap 
authorization and providing mandatory funding for the Payment 
in Lieu of Taxes program.
    In fact, when you factor in all the sources of funding, 
this budget is really a 2 percent increase overall for the 
department. I like many of the increases that this budget 
proposes. It provides a 9 percent increase for our national 
parks and a 5 percent increase for the Bureau of Indian Affairs 
to support tribal education and social service needs.
    I could not agree, Chairman Murkowski, with you more, in 
talking about the dire state and dire situation in Indian 
country, in terms of education.
    This budget also expands on the increases that we provided 
in the 2016 omnibus to the Land and Water Conservation Fund 
(LWCF). It proposes $475 million for LWCF programs funded by 
this bill, and proposes to transition the program to its full 
authorized level of $900 million in future years.
    There are many important increases as well for wildlife 
refuges, energy development, science and climate change 
programs--all very important investments. But let's be clear. 
Since funding is tight, our ability to fund many of these 
increases depends on getting agreement to reform the wildland 
firefighting budget and enacting a long-term mandatory funding 
source for the Payment in Lieu of Taxes program.
    Until we are successful in enacting those changes, we will 
have to prioritize what we fund very carefully, and that means 
very tough trade-offs.
    The budget also includes some important legislative 
proposals that I expect we will discuss today. In particular, I 
want to applaud the administration's leadership to reform 
energy and mining activities on public lands and make sure that 
taxpayers are getting a fair return from the development of 
those lands. I am pleased to see that your budget addresses 
hard-rock mining reforms, including setting a fair royalty for 
mining operations on public lands and proposing a hard-rock 
abandoned mine fee to address legacy cleanup issues.
    I have also sponsored legislation to take on this issue. We 
need real mining reform, and we have needed it for a long time. 
It makes no sense that we still rely on an antiquated law that 
is nearly 150 years old as the framework for mining in this 
country.
    Events like the Gold King Mine disaster should serve as a 
wake-up call for all of us. We have to get serious about 
cleaning up abandoned mines. There are abandoned toxic mine 
sites throughout the West. These mines are ticking time bombs. 
They are releasing a slow-motion stream of lead, arsenic, 
cadmium, and toxins into water supplies, water we need for 
drinking, irrigation, and recreation.
    The cleanup costs are absolutely astronomical. I have seen 
estimates between $9 billion and $21 billion. In New Mexico 
alone, the cost is estimated between $385 million and $840 
million.
    Today's mining industry has much better standards, but this 
toxic legacy cannot be left unaddressed. The damage has been 
done, and taxpayers should not be left holding the bag for the 
mess as well as for future cleanup costs. The cost of inaction 
on mining reform has been too great already. We cannot afford 
to wait, and it is time that we act.
    You are doing the right thing, Secretary Jewell, and I want 
to work with you to enact common-sense reforms.
    Thank you again for appearing before us. I look forward to 
hearing your testimony and having a good discussion and 
dialogue.
    Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator Udall.
    We have the chairman of the full Appropriations Committee 
with us this morning.
    Mr. Chairman, would you care to make any comments or 
statements before we hear from the Secretary?


                   statement of senator thad cochran


    Senator Cochran. Madam Chair, I appreciate the recognition. 
I am delighted to be able to announce that, this year, the City 
of Natchez, Mississippi, is celebrating its tricentennial 
anniversary, a very rich history. A historically significant 
area of the Lower Mississippi River Valley will be brought 
together with local municipalities and counties in helping make 
sure that tourists know of this destination site where you will 
learn a lot and meet a lot of fine people. So come to Natchez 
and help us celebrate. Thank you.
    Senator Murkowski. Thank you, Mr. Chair.
    I just had to think, tricentennial. As a State, we are 
about 58 years old in Alaska. So boy, if that does not remind 
you----
    Senator Cochran. To be 58 again. [Laughter]
    Senator Murkowski. To be 58 again, yes. America is a 
beautiful place.
    With that, let us go to the Secretary of the Interior. 
Welcome this morning. We appreciate you being here and look 
forward to your comments and the questions that will follow.


                 summary statement of hon. sally jewell


    Secretary Jewell. Thank you. And congratulations on the 
tricentennial. It would be fun to be there.
    Chairman Murkowski, Ranking Member Udall, Chairman Cochran, 
and members of the subcommittee, thank you so much for the 
opportunity to discuss the fiscal year 2017 budget request for 
the Department of the Interior. This is the administration's 
final budget, and I want to take the opportunity to thank all 
of you and your capable staffs for working with me over the 
last 3 years to help the Department meet its mission for the 
American people.
    I would like also to take a moment to mention the incident 
at the Malheur National Wildlife Refuge in Harney County, 
Oregon. Through tremendous patience and professionalism, the 
FBI, with support from State and local law enforcement, ended 
the occupation on February 11 as quickly and safely as possible 
after more than 40 days.
    It was an incredibly disruptive and distressing time for 
our employees, their families, and the Harney County community. 
I am proud of our Department of the Interior law enforcement 
personnel who supported the response and helped keep our 
employees safe.
    We continue to cooperate with DOJ, the FBI, and others, as 
the investigations move forward. And we remain committed to 
working with local communities on the management of public 
lands.
    Interior's overall fiscal year 2017 budget request is $13.4 
billion, a lion's share within this subcommittee. Specifically 
for programs within this subcommittee's jurisdiction, as 
mentioned, is $12.3 billion.
    It builds on the successes we are achieving through 
partnerships, the application of science and innovation, and 
balanced stewardship. It gives us the tools to help communities 
strengthen resilience in the face of climate change, conserve 
natural and cultural resources, secure clean and sustainable 
water, engage the next generation with the great outdoors, 
promote a balanced approach to safe and responsible energy 
development, and expand opportunities for Native American 
communities.
    These areas are core to our mission and play a vital rule 
in job creation and economic growth.
    The budget invests in our public lands, providing $5 
billion to support operations of our national parks, historical 
and cultural sites, wildlife refuges and habitats, and managing 
multiple use and sustained yield on our Nation's public lands.
    It focuses investment on important working landscapes like 
the western Sage-Steppe, and the Arctic, and proposes a 10-
year, $2 billion coastal climate resilience program to support 
at-risk coastal States and local governments, including funding 
for communities in Alaska to prepare for and adapt to climate 
change.
    As the National Park Service begins its second century, the 
budget provides $3 billion and includes a proposal to dedicate 
significant funding to reduce the deferred maintenance backlog. 
It calls for full and permanent funding of the Land and Water 
Conservation Fund and extends the expired authority for the 
Historic Preservation Fund.
    It reflects the administration's strategy to more 
effectively budget for catastrophic wildfires, as you pointed 
out. And in response to drought challenges across the West, it 
continues to safeguard sustainable and secure water supplies.
    We continue to engage the next generation of Americans to 
play, learn, serve, and work outdoors with $103 million for 
youth engagement. This includes mentoring and research 
opportunities at the U.S. Geological Survey; urban community 
partnerships; scholarships and job corps training for tribal, 
rural, and urban youth; and work opportunities within our 
bureaus. There is $20 million for the Every Kid in a Park 
initiative, which introduces America's fourth graders to their 
public lands, providing education programs across the country 
and transportation support for low-income students.
    We continue to promote a balanced approach to safe and 
responsible energy development that maximizes a fair return for 
taxpayers with $800 million for renewable and conventional 
energy development, a $42 million increase. We are on track to 
meet the President's goals of permitting 20,000 megawatts of 
renewable energy capacity on public lands by 2020, with nearly 
$100 million for renewable energy development and 
infrastructure.
    Offshore, this budget supports the Bureau of Ocean Energy 
Management and the Bureau of Safety and Environmental 
Enforcement with funding to reform and strengthen 
responsiveness, oversight, and safety for oil and gas 
development.
    Onshore, an increase of $21 million supports the Bureau of 
Land Management's (BLM's) efforts to develop a landscape-level 
approach to oil and gas development, modernize and streamline 
permitting, and strengthen inspection capacity.
    We are expanding educational and job opportunities for 
Native American communities with $3 billion for Indian Affairs, 
a 5 percent increase, to support native youth education, 
American Indian and Alaskan Native families, public safety, and 
building resilience to climate change. The President's budget 
calls for a $1 billion investment in Indian education as part 
of Generation Indigenous, and $278 million to fully fund 
contract support costs, a cornerstone of tribal self 
determination.
    The budget supports our commitment to resolve Indian water 
right settlements and supports sustainable water management in 
Indian country with $215 million, a $5 million increase.
    The budget includes funding to strengthen cybersecurity 
controls across all agencies. It also invests in science and 
innovation with $150 million for natural hazards at the USGS, 
an $11 million increase. Funding will continue development of 
Landsat 9, a critical new satellite expected to launch in 2021.
    This is a smart budget that builds on our previous 
successes and strengthens partnerships to ensure we balance the 
needs of today with opportunity for future generations. So 
thank you, members of the subcommittee. I look forward to any 
questions you may have.
    [The statement follows:]
                Prepared Statement of Hon. Sally Jewell
    Madame Chairman, Ranking Member Udall, and members of the 
subcommittee, I am pleased to present the 2017 President's budget for 
the Department of the Interior providing $13.4 billion for the 
Department's programs with $290 million available in the event of 
catastrophic fires. Of this amount, $12.3 billion is within the 
jurisdiction of this subcommittee, an increase of $224.4 million with 
the fire cap adjustment.
    This is a strong budget that builds on our accomplishments. Our 
request enables us to carry out our important missions--maintain our 
core capabilities, meet commitments, and invest in key priorities. The 
investments in this request show the administration remains focused on 
meeting the Nation's greatest challenges looking forward and ensuring 
our economy works for all.
    Our budget is part of the President's broader strategy to make 
critical investments in domestic and national security priorities while 
adhering to the bipartisan budget agreement signed into law last fall, 
and lifts sequestration in future years to continue investment in the 
future. This budget recognizes the importance of Interior's programs to 
the overall strength of the Nation's economy. To put this into 
perspective, in 2014, Interior-managed lands and activities contributed 
about $360 billion in national economic output, supporting an estimated 
2 million jobs. Of this, energy and mineral development on Interior-
managed lands and offshore areas generated more than $241 billion in 
economic activity and supported nearly 1.1 million jobs.
    At the same time, our 2017 proposed investments lay the groundwork 
for promoting renewable energy development, managing the Nation's lands 
responsibly, helping to protect communities in the face of climate 
change, and investing in science to inform natural resource management. 
Our budget features investments to launch the second century of the 
national parks and expand public accessibility to and enjoyment of 
America's public lands. It supports tribal priorities in Indian 
Country, including a $1.1 billion investment to transform Indian 
schools and education, and provides full funding for tribal contract 
support costs. This request addresses significant resource challenges 
for the Nation, including water availability, particularly in the arid 
West, and makes important investments in America's water 
infrastructure.
    The 2017 budget includes $1.0 billion for research and development 
activities throughout the Department, an increase of $84.5 million from 
the 2016 enacted level. Activities supported include scientific 
analysis of natural systems and applied field research to address 
specific problems, such as thawing permafrost, invasive species, and 
flooding. With multiple science programs across the Department's 
bureaus and offices, science coordination remains a critical component 
in the process of effective science application. Interior is well 
served by the deployment of science advisors in each bureau. These 
advisors serve critical roles within the organizations and across the 
Department by sharing information concerning new research efforts, 
identifying and evaluating emerging science needs, and ensuring 
effective science delivery and application. The Interior 2017 budget 
reflects high priority needs identified for scientific research across 
the Department.
            the 2017 budget advances a record of achievement
    This budget builds on a record of achievement across Interior's 
diverse mission. For the past several years, the Department led an 
unprecedented proactive strategy to develop land use plans with 
Federal, State, and local partners to address the deteriorating health 
of America's sagebrush landscapes and the declining population of the 
Greater sage-grouse. This landscape scale conservation effort is an 
extraordinary collaboration to significantly address threats to the 
Greater sage-grouse across 90 percent of the species' breeding habitat. 
These efforts enabled the U.S. Fish and Wildlife Service to conclude 
the charismatic rangeland bird does not warrant protection under the 
Endangered Species Act. This collaborative, science-based strategy is 
the largest land conservation effort in U.S. history, and helps to 
protect the species and its habitat while also providing certainty 
needed for sustainable economic development across millions of acres of 
Federal and private lands throughout the western United States. The 
2017 budget includes $89.7 million for Sage Steppe conservation, an 
increase of $22.9 million over 2016 enacted.
    This budget continues to advance development of renewable energy. 
Over the summer of 2015, Interior's offshore wind energy leasing 
efforts led to beginning construction of the first offshore wind farm. 
This first of its kind project will provide a model for future 
development of offshore wind energy. Since 2009, Interior has approved 
56 wind, solar, and geothermal utility scale projects on public or 
tribal lands. When built, these projects could provide about 14,600 
megawatts--enough energy to power nearly 4.9 million homes and support 
more than 24,000 construction jobs. The 2017 budget includes $97.3 
million for clean energy programs, an increase of $3.1 million over 
2016 enacted.
    The 2017 budget sustains President Obama's strong commitment to 
tribal self-determination, strengthening tribal nations, and investing 
in the future of Native youth. Interior established the Land Buy Back 
Program which, in only 2 years of active land purchases, invested more 
than $730 million in Indian Country to restore nearly 1.5 million acres 
of land to Indian tribes. The effort to improve and transform the 
Bureau of Indian Education to better serve American Indian and Alaska 
Native youth is building the foundation for improved student outcomes 
and enduring traditions and native cultures. In 2016, work will begin 
to replace the final 2 of 14 Bureau of Indian Education schools 
identified in 2004 as requiring the greatest need for replacement 
construction. Also, in 2016, Interior will finalize the next list of 
replacement schools determined through a negotiated rulemaking process. 
This budget includes $138.3 million for education construction and 
maintains a commitment to continue to invest in improving educational 
opportunities and quality from the earliest years through college.
    Interior continues to engage in innovative efforts to leverage 
youth engagement and partnerships to advance the Department's 
extraordinary mission. Interior set the goal to provide 40,000 work and 
training opportunities during 2014 and 2015 for young adults, toward a 
goal of 100,000 by 2017. Interior met its priority goal--providing 
52,596 work and training opportunities over the past two fiscal years 
by collaborating across all levels of government and mobilizing the 
21st Century Conservation Corps. From Denali to the Everglades, members 
of the youth conservation corps are gaining work experience, helping 
improve the visitor experience, and mobilizing entire communities in 
the stewardship of our parks, refuges, waters and heritage. The 2017 
budget includes a total of $102.5 million, an increase of $37.6 million 
over 2016 enacted, for programs to advance youth engagement.
    Partnerships are critical to enhancing our public lands and 
providing additional recreational opportunities to the public. An 
example of the significant impact of these efforts is the CityArchRiver 
project is a public-private partnership building connections that 
enhance downtown St. Louis, the Gateway Arch grounds at the Jefferson 
National Expansion Memorial, and the Mississippi riverfront. This 
partnership includes the National Park Service, Missouri Department of 
Transportation, Great Rivers Greenway District, City of St. Louis, Bi-
State Development Agency, CityArchRiver Foundation, and others. In 
January, the Foundation completed a $250 million capital campaign which 
means the Foundation has raised $221 million in private funding for 
construction of the $380 million CityArchRiver project and an 
additional $29 million to seed an endowment that will help maintain and 
operate the park moving forward.
   promotes the conservation and protection of america's natural and 
                           cultural resources
    This year, the National Park Service celebrates 100 years of 
preserving and sharing America's natural, cultural, and historic 
treasures. Interior's 2017 budget makes investments to connect a new 
generation to ``America's Best Idea,'' and to care for and maintain our 
national parks for the next 100 years. Last year, the National Park 
Service's 410 units welcomed 307 million visitors--setting a new 
visitation record. Every tax dollar invested in a park returns more 
than $10 to the U.S. economy.
    The budget includes a discretionary increase of $190.5 million to 
invest in the next century of the National Park Service. This includes 
a $20.0 million increase for the Every Kid in a Park initiative, a 
$20.0 million increase to the Centennial Challenge program providing a 
Federal match to leverage partner donations for projects and programs 
at national parks, and a $150.5 million increase to address high 
priority deferred maintenance needs across the national park system.
    This current funding is complemented by a legislative proposal to 
provide new mandatory funding, The National Park Service Centennial Act 
includes $100.0 million a year, for 3 years, for Centennial Challenge 
projects to provide the Federal match in support of signature projects 
at park units; $100.0 million a year for 3 years for the Public Lands 
Centennial Fund, a competitive opportunity for public lands agencies to 
support conservation and maintenance projects; and $300.0 million a 
year, for 3 years, for Second Century Infrastructure Investment 
projects to make a meaningful and lasting impact on the NPS deferred 
maintenance backlog. The Act also provides authority to collect and 
retain additional camping or lodging fees and funds collected from 
purchases of the lifetime pass for citizens 62 years of age or older. 
Receipts for this Second Century Fund will be matched by donations to 
fund visitor enhancement projects.
    Together, the discretionary and mandatory funding proposals will 
allow the National Park Service to make targeted, measurable upgrades 
over the next 10 years to all of its highest priority, non-
transportation assets, restoring and maintaining them in good 
condition.
    America's public lands and waters offer space to get outside and 
get active, and provide living classrooms with hands-on opportunities 
to build skills. The administration launched the Every Kid in a Park 
Initiative to inspire the next generation to discover all America's 
public lands and waters have to offer. Starting with the 2015-2016 
school year, all fourth grade students and their families are able to 
receive free admission to all national parks and other Federal lands 
for a full year. The National Park Service budget for 2017 includes 
$20.0 million for Every Kid in a Park to introduce at least one million 
fourth grade students from elementary schools serving disadvantaged 
students in urban areas to nearby national parks and provide park 
programs tailored for young people and their families, especially at 
high visitation and urban parks.
    Investments in America's great outdoors create and sustain millions 
of jobs and spur billions of dollars in national economic activity 
through outdoor recreation and tourism. An estimated 423 million 
recreational visits to Interior lands contributed $42 billion to the 
economy and supported about 375,000 jobs nationwide. The 2017 budget 
proposes full funding for Land and Water Conservation Fund (LWCF) 
programs at Interior and the Department of Agriculture. This 
innovative, highly successful program reinvests royalties from offshore 
oil and gas activities into public lands across the Nation. Starting in 
2017, the budget will invest $900.0 million annually into conservation 
and recreation projects, equal to the amount of receipts authorized for 
deposit into the LWCF each year, through a combination of $475.0 
million in current discretionary funding and $425.0 million in 
mandatory funding. These investments will conserve public lands in or 
near national parks, refuges, forests and other public lands, and 
provide grants to States for close-to-home recreation and conservation 
projects on non-Federal lands.
    The budget continues efforts to manage and promote the health and 
resilience of ecosystems on a landscape scale, including a continued 
focus in priority landscapes such as the California Bay-Delta, the 
Everglades, the Great Lakes, Chesapeake Bay, and the Gulf Coast. The 
request includes a total of $79.2 million for Bureau of Land Management 
efforts, to protect and restore America's vast sage steppe landscape 
supporting abundant wildlife and significant economic activity, 
including recreation, ranching and energy development. This investment 
reflects Interior's continued support of the unprecedented Federal and 
State collaboration to conserve the imperiled sage steppe landscape in 
the face of threats from fire, invasive species, expanding development, 
and habitat fragmentation. The budget also invests $160.6 million in 
landscape scale efforts to address the complex natural resource issues 
facing the Arctic.
             implements the president's climate action plan
    As manager of roughly 20 percent of the land area of the United 
States and a partner with tribal, Federal, State, local, and 
territorial government land managers, the Interior Department works to 
address the challenges of natural hazards brought on by a changing 
climate as an integral part of its mission. The budget includes funding 
to improve the resilience of communities and ecosystems to changing 
stressors, including flooding, severe storm events, and drought as part 
of the administration's effort to better understand and prepare for the 
impacts of a changing climate.
    The budget proposes $2.0 billion in mandatory funding for a new 
Coastal Climate Resilience program, to provide resources over 10 years 
for at-risk coastal States, local governments, and their communities to 
prepare for and adapt to climate change. This program would be paid for 
by redirecting roughly half of the savings that result from the repeal 
of offshore oil and gas revenue sharing payments that are set to be 
paid to only four States under current law. A portion of these program 
funds would be set aside to cover the unique impacts of climate change 
in Alaska where rising seas, coastal erosion, and storm surges are 
threatening Native Villages that must prepare for potential 
relocations.
    Population growth near forests and rangelands and a changing 
climate are increasing wildfire risk and resulting costs. The budget 
calls for a new funding framework for wildland fire suppression, 
similar to how other natural disasters are addressed. The budget 
includes base level funding of 70 percent of the 10-year average for 
suppression costs and an additional $290.0 million through a cap 
adjustment, available in the event of the most severe fire activity, 
which comprises only 2 percent of the fires but 30 percent of the 
costs. This framework allows for a balanced suppression and fuels 
management and restoration program, with flexibility to accommodate 
peak fire seasons, but not at the cost of other Interior and U.S. 
Department of Agriculture missions.
    Healthy communities require secure, sustainable water supplies. 
This is particularly challenging with record drought conditions and 
increasing demand taxing watersheds throughout the country, especially 
in the arid West. To help increase the security and sustainability of 
Western watersheds, the budget continues investment in the Department's 
WaterSMART program to promote water reuse, recycling, and conservation, 
in partnership with States, tribes, and other partners. Funding is also 
included for research, development, and challenge competitions to find 
longer term solutions through new water technologies. The budget 
invests in the Nation's water infrastructure to ensure millions of 
customers receive the water and power that are the foundation of a 
healthy economy.
         powers the future through balanced energy development
    To enhance national energy security and create jobs in new 
industries, the budget invests in renewable energy development programs 
to review and permit renewable energy projects on public lands and in 
offshore waters. Under the President's Climate Action Plan, these funds 
will allow Interior to continue progress toward its goal of increasing 
approved capacity authorized for renewable--solar, wind, geothermal, 
and hydropower--energy resources affecting Interior managed lands, 
while ensuring full environmental review, to at least 16,600 Megawatts 
(since the end of fiscal year 2009). The budget includes an increase of 
$2.0 million for the Office of Insular Affairs to provide assistance to 
implement energy projects identified by the territories in their 
comprehensive sustainable energy strategies.
    To address the continuing legacy of abandoned mine lands on the 
health, safety, environment, and economic opportunity of communities, 
the budget proposes $1.0 billion to States and tribes over 5 years from 
the unappropriated balance of the AML Trust Fund, administered by the 
Office of Surface Mining Reclamation and Enforcement. As part of the 
President's POWER+ Plan, the AML funding will be used to target the 
reclamation of mine land sites and associated polluted waters in a 
manner that promotes sustainable redevelopment in economically 
distressed coalfield communities. The budget includes legislative 
reforms to strengthen the healthcare and pension plans that provide for 
the health and retirement security of coal miners and their families.
    The budget provides support for onshore energy permitting and 
oversight on Federal lands, with the Bureau of Land Management's 
discretionary and permanent oil and gas program receiving a 17 percent 
increase in funding compared to the 2016 enacted level. The funding 
increase will enhance BLM's capacity to oversee safe, environmentally-
sound development and ensure a fair return to taxpayers, with increases 
targeted to improve leasing processes, implementation of new 
regulations and rules, and a modernized automated permitting process. 
The BLM's costs would be partially offset through new inspection fees 
totaling $48 million in 2017, requiring the onshore oil and gas 
industry to share in the cost of managing the program from which it 
benefits, just as the offshore industry currently does.
    The budget also supports reforms to strengthen oversight of 
offshore industry operations following the 2010 Deepwater Horizon oil 
spill, with an additional emphasis on risk management. The budget 
includes $175.1 million for the Bureau of Ocean Energy Management and 
$204.9 million for the Bureau of Safety and Environmental Enforcement, 
which share responsibility for overseeing development of oil and gas 
resources on the Outer Continental Shelf.
                      strengthening tribal nations
    The President's budget maintains the administration's strong 
support for the principle of tribal self-determination and 
strengthening tribal communities across Indian Country. This commitment 
is reflected in a nearly 5 percent increase for the Bureau of Indian 
Affairs over the 2016 enacted level. The budget calls for full funding 
for contract support costs that Tribes incur from managing Federal 
programs, complemented by a proposal to secure mandatory funding in 
future years. The budget provides significant increases across a wide 
range of Federal programs that serve tribes; proposes a ``one-stop'' 
approach to improve and coordinate access to Federal programs and 
resources; seeks to improve the quality of data by partnering with the 
Census Bureau; supports sustainable stewardship of land, water, and 
other natural resources; provides funds for communities to plan, 
prepare, and respond to the impacts of climate change; and expands 
resources to promote tribally based solutions and capacity building to 
strengthen tribal communities as a whole. The budget continues to 
address Indian water rights settlement commitments and programs to 
support tribes in resolving water rights claims, developing water 
sharing agreements, and supporting sustainable water management.
    The budget includes key investments to support Generation 
Indigenous, an initiative addressing barriers to success for American 
Indian and Alaska Native children and teenagers. In addition to 
Interior, multiple agencies--including the Departments of Education, 
Housing and Urban Development, Health and Human Services, Agriculture, 
and Justice--are working collaboratively with tribes on new and 
increased investments to implement education reforms and address issues 
facing Native youth. The budget provides over $1 billion for Interior 
investments in Indian education.
             improves oversight and use of federal dollars
    Interior has several multi-year efforts underway to reduce its 
nationwide facilities footprint, and improve the efficiency and 
effectiveness of its information technology infrastructure and 
financial reporting capabilities. The budget includes $6.4 million to 
consolidate building space and reduce costs to the taxpayer for 
privately leased space. Interior achieved a 4.6 percent reduction--2.1 
million square feet--in office and warehouse space between fiscal year 
2012 and fiscal year 2015. This represents a net annual cost avoidance 
of approximately $8 million. In 2016, the modernization of the sixth 
and final wing of the Main Interior Building will be completed, 
including infrastructure upgrades that improve energy efficiency and 
sustainability and reconfigured space to support higher occupancy.
    The budget includes $3.0 million for Interior's Digital Services 
team to increase the efficiency and effectiveness of the agency's 
highest impact digital services. The budget continues to optimize the 
Department-wide Financial and Business Management System with targeted 
investments to improve reporting and increase data quality and 
transparency, as envisioned in the DATA Act.
    The budget includes an increase of $2.6 million to support 
implementation of Federal Information Technology Acquisition Reform 
Act, to improve standardization of information technology investments 
by strengthening the role of the Department's Chief Information Officer 
in strategic planning, budget formulation and execution, and 
acquisition of information management and technology activities. The 
budget includes $34.7 million in the appropriated working capital fund 
to continue the Department's remediation of its cybersecurity systems 
and processes, an increase of $24.7 million above the 2016 enacted 
level. The additional funding will allow the Department to secure its 
valuable information on behalf of our employees, customers, partners 
and the American public.
    The United States Treasury received $7.2 billion in 2015 from fees, 
royalties and other payments related to oil and gas development on 
public lands and waters. A number of studies by the Government 
Accountability Office and Interior's Office of Inspector General found 
taxpayers could earn a better return through policy changes and more 
rigorous oversight. The budget proposes a package of legislative 
reforms to bolster administrative actions focused on advancing royalty 
reforms, encouraging diligent development of oil and gas leases, and 
improving revenue collection processes. The administration is committed 
to ensuring American taxpayers receive a fair return from the sale of 
public resources and benefit from the development of energy resources 
owned by all Americans.
    The budget includes legislative proposals related to Reforms of 
Hardrock Mining. To increase safety and minimize environmental impacts, 
the budget proposes a fee on hardrock mining, with receipts to be used 
by States, tribes and Federal agencies to restore the most hazardous 
sites--similar to how coal Abandoned Mine Lands funds are used. In 
addition, to ensure taxpayers receive a fair return from mineral 
development on public lands, the budget proposes a royalty on select 
hardrock minerals--such as silver, gold and copper--and terminating 
unwarranted payments to coal producing States and tribes that no longer 
need funds to clean up abandoned coal mines.
                           bureau highlights
    Bureau of Land Management.--The 2017 request is $1.3 billion, $7.1 
million above 2016. This includes $1.2 billion for BLM operations, an 
increase of $2.1 million above the 2016 enacted level, with $1.1 
billion for Management of Lands and Resources and $107.0 million for 
Oregon and California Grant Lands programs. The change in total program 
resources from 2016 and 2017 is larger, as the budget proposes 
offsetting user fees in the Rangeland Management and Oil and Gas 
Management programs which reduce the total request by $64.5 million.
    The budget also includes $44.0 million in current appropriations 
for LWCF land acquisition, including $8.0 million to improve access to 
public lands for hunting, fishing, and other recreation. BLM's LWCF 
land acquisition investments promote the conservation of natural 
landscapes and resources by consolidating public lands through 
purchase, exchange and donation to increase management efficiency and 
preserve areas of natural, cultural, and recreational importance. The 
BLM estimates 23 million acres (or nine percent) of BLM-managed public 
lands lack public access or have inadequate public access, primarily 
due to checkerboard land ownership patterns. The BLM's proposed land 
acquisition project within the Rio Grande del Norte National Monument 
in New Mexico illustrates the many benefits of land acquisition to 
BLM's mission. An investment of $1.3 million would allow BLM to acquire 
1,186 acres of private inholdings within the monument to preserve 
traditional uses, secure connectivity to the Rio Grande Wild & Scenic 
Corridor, preserver avian and wildlife habitat, protect prehistoric 
human habitation sites, and improve recreation and tourism.
    Complementing the second century of the parks, the BLM budget 
includes investments in the National Conservation Lands, which recently 
celebrated their 15th anniversary. Thirteen new National Conservation 
Lands units were designated during the current administration and 
visitation and visitor expectations and demands have consistently 
increased for the whole National Conservation Lands system during this 
period. The 2017 budget features a $13.7 million increase to meet basic 
operating requirements and support critical and overdue investments to 
effectively safeguard the cultural, ecological, and scientific values 
for which they were designated and provide the quality of recreational 
opportunities intended with the National Conservation Lands 
designation. A program increase of $1.1 million in Cultural Resources 
Management will enhance BLM's capacity to preserve and protect the vast 
treasure of heritage resources on public lands and a program increase 
of $2.0 million in Recreation Resources Management will further 
implement a National Recreation Strategy to facilitate access to public 
lands.
    The BLM continues to support the President's broad energy strategy, 
with significant increases requested in 2017 to strengthen its ability 
to effectively manage onshore oil and gas development on Federal lands. 
The 2017 budget for oil and gas management activities, including the 
request for direct and fee funded appropriations and estimated 
permanent appropriations totals $186.6 million, an increase of $27.6 
million in total program resources over the 2016 enacted level.
    For direct appropriations, the oil and gas request is a net program 
increase of $19.9 million. Within this net total, $13.1 million will 
support implementation of rules and regulations to ensure oil and gas 
operations are safe, environmentally responsible, and ensure a fair 
return to the taxpayer. These include new oil and gas measurement and 
site security regulations, hydraulic fracturing regulations, and 
venting and flaring regulations. A $2.1 million increase will complete 
modernization of the Automated Fluid Minerals Support System. The 
development work associated with Phase II of AFMSS modernization 
includes new functionality supporting new proposed rules and those 
currently expected to be finalized in 2016. Overall, the AFMSS 
modernization project also will support greater efficiencies in oil and 
gas permitting and inspection activities.
    The Oil and Gas Management request also includes a program increase 
of $2.6 million for oil and gas special pay costs to improve BLM's 
ability to recruit and retain high caliber oil and gas program staff to 
provide effective oversight and meet workload and industry demand. 
Finally, the BLM budget request includes a program increase of $2.8 
million to enhance BLM's capability to address high priority legacy 
wells in the National Petroleum Reserve-Alaska to supplement permanent 
funds provided in the Helium Security Act of 2013. The 2017 budget 
continues to request authority to charge inspection fees similar to 
those in place for offshore oil and gas inspections. Such authority 
will reduce the net costs to taxpayers of operating BLM's oil and gas 
program and allow BLM to be more responsive to industry demand and 
increased inspection workload in the future. A $48.0 million decrease 
in requested appropriations reflects shifting the cost of inspection 
activities to fees.
    In 2017, BLM will continue to invest heavily in the Greater Sage 
Grouse Conservation Strategy and the budget includes a program increase 
of $14.2 million to protect, improve, or restore sage steppe habitat. 
Funds will also assist States in implementing GSG conservation plans. 
The BLM's efforts to implement the Greater Sage Grouse Conservation 
Strategy are also reliant upon successful execution of the National 
Seed Strategy, which is also integral to the administration's wildland 
fire rehabilitation efforts and the success of the Secretary's 
Integrated Rangeland Fire Management Strategy. The budget includes a 
$5.0 million program increase within Wildlife Management to more 
aggressively implement the National Seed Strategy.
    Other budget highlights include program increases totaling $16.9 
million in the Resource Management Planning, Assessment, and Monitoring 
subactivity. This includes $4.3 million to expand the BLM Assessment, 
Inventory, and Monitoring program for increased data collection and 
monitoring central to the success of high priority landscape management 
efforts such as the Western Solar Energy Plan, as well as 
implementation of the Department's plan for the National Petroleum 
Reserve-Alaska, the Greater Sage Grouse Conservation Strategy, and the 
broader landscape mitigation strategy. The request also includes an 
increase of $6.9 million to accelerate implementation of the BLM 
enterprise geographic information system, which aggregates data across 
boundaries to capture ecological conditions and trends; natural and 
human influences; and opportunities for resource conservation, 
restoration, development, and partnering. The remaining $5.7 million 
increase will support high priority planning efforts that could include 
the initiation of new plan revisions in 2017, as well as plan 
evaluations and implementation strategies.
    Bureau of Ocean Energy Management.--The 2017 President's budget for 
BOEM is $175.1 million, including $80.2 million in current 
appropriations and $94.9 million in offsetting collections. This is a 
net increase of $4.3 million in current appropriations above the 2016 
enacted level.
    The total 2017 estimate of $94.9 million for offsetting collections 
is a net decrease of $1.7 million, including reductions in rental 
receipts partially offset by a new $2.9 million cost recovery fee for 
the Risk Management Program. An increase in direct appropriations of 
$6.0 million makes up for the projected decrease in rental receipts.
    The budget provides $23.9 million for offshore renewable energy 
activities. To date, BOEM has issued 11 commercial wind energy leases 
offshore; conducted 5 competitive wind energy lease sales for areas 
offshore Maryland, Massachusetts, New Jersey, Rhode Island, and 
Virginia; and approved the Construction and Operations Plan for the 
Cape Wind project offshore Massachusetts. Additionally, BOEM is in the 
planning stages for wind leasing offshore New York, North Carolina, and 
South Carolina. In 2015, BOEM executed the first wind energy research 
lease in U.S. Federal waters with the Commonwealth of Virginia's 
Department of Mines, Minerals, and Energy.
    The 2017 budget provides $64.2 million for conventional energy 
development, a programmatic increase of $4.2 million above 2016. These 
funds support high priority offshore oil and gas development 
activities, including lease sales outlined in BOEM's Five Year OCS Oil 
and Gas Leasing Program for 2012-2017. Under this program, BOEM's eight 
sales generated over $2.97 billion in high bids. Five lease sales 
remain on the lease sale schedule through mid-2017. The next lease 
sales are Eastern Gulf of Mexico Lease Sale 226, Central Gulf of Mexico 
Lease Sale 241, and Western Gulf of Mexico Lease Sale 248, all 
scheduled to be held during 2016.
    The 2017 provides $68.4 million for BOEM's Environmental Programs. 
These funds support world class scientific research to provide critical 
information informing policy decisions regarding energy and mineral 
development on the OCS.
    Bureau of Safety and Environmental Enforcement.--The 2017 
President's budget for the Bureau of Safety and Environmental 
Enforcement is $204.9 million, including $96.3 million in current 
appropriations and $108.5 million in offsetting collections. The 2017 
budget is a net $196,000 increase above the 2016 enacted level, 
reflecting an increase of $7.9 million in current appropriations and a 
$7.7 million decrease in offsetting collections. The total 2017 
estimate of $108.5 million in offsetting collections assumes decreases 
from 2016 of $11.5 million for rental receipts, $2.2 million for cost 
recoveries, and a $6.0 million increase for inspection fee collections. 
Funding for Oil Spill Research is maintained at the 2016 enacted level 
of $14.9 million. The 2017 budget supports continued safe and 
responsible offshore energy development.
    Office of Surface Mining Reclamation and Enforcement.--The 2017 
budget request is $157.9 million, $82.6 million below the 2016 enacted 
level.
    The 2017 budget for Regulation and Technology is $127.6 million, 
$4.3 million above 2016. The request includes $10.5 million, $1.8 
million above 2016, to improve implementation of existing laws and 
support State and tribal programs. The 2017 budget includes $65.5 
million for State and tribal regulatory grants, this level of funding 
supports State requirements.
    The budget includes program increases of $2.5 million to advance 
the Bureau's GeoMine Project; $1.2 million for applied science to 
conduct studies to advance technologies and practices specific to coal 
mined sites for more comprehensive ecosystem restoration; $1.0 million 
to expand the use of reforestation techniques in coal mine reclamation 
and provide opportunities for youth and community engagement; $2.3 
million to support Technical Assistance; and $1.6 million for National 
Environment Policy Act compliance document preparation, legal review, 
and program monitoring.
    The 2017 budget for the Abandoned Mine Reclamation Fund is $30.4 
million, $86.9 million below 2016. The 2016 enacted level included a 
$90.0 million increase for grants to three States for the reclamation 
of abandoned mine lands in conjunction with economic and community 
development activities. The 2017 budget proposes a broader legislative 
effort to support reclamation and economic and community development as 
part of the administration's POWER+ Plan. POWER+ would provide $200 
million per year to target the cleanup and redevelopment of AML sites 
and AML coal mine polluted waters in a manner that facilitates 
sustainable revitalization in economically depressed coalfield 
communities. The budget includes a $1.5 million program increase for 
technical assistance to States, tribes, and communities to address AML 
technological advances and issues for AML site reclamation. The budget 
also includes program increases of $525,000 for applied science studies 
pertaining to abandoned mines, $799,000 to enhance and expedite current 
OSMRE efforts in digitizing underground mine maps, and $287,000 for 
support within the Office of the Solicitor.
    U.S. Geological Survey.--The 2017 budget is $1.2 billion, $106.8 
million above 2016, to advance our national commitment to research and 
development that supports economic growth, balances priorities on 
resource use, addresses climate change, and ensures the security and 
well- being of the Nation. The budget improves response to and warning 
of natural disasters, responds to drought and other water challenges, 
supports sustainable domestic energy and minerals development, and 
advances scientific understanding of land use, land change, and the 
effects of resource decisions to assist communities and land managers 
in making choices informed by sound science.
    The 2017 budget invests in the USGS's capabilities for science and 
innovation to monitor and respond to natural disasters with increases 
for priority science to help stabilize and rehabilitate ecosystems 
after fires and provide geospatial information, monitoring strategies, 
and other relevant scientific information faster for real-time fire 
response. Related increases build USGS' capability to respond to 
landslide crises, and expand the use of flood inundation mapping and 
rapidly deployable streamgages to meet urgent needs of flood-threatened 
communities lacking a permanent streamgage.
    The budget continues $8.2 million to develop the West Coast 
Earthquake Early Warning system to complete a production prototype 
system, expand coverage, and beta-test alerts. The budget continues 
funding of $3.0 million to repair and upgrade monitoring stations on 
high-threat volcanoes. The budget includes funding to assume long-term 
operations of the Central and Eastern United States Seismic Network 
from the National Science Foundation and allows USGS to continue a 5-
year effort to deploy, install and improve the Global Seismic Network, 
ensuring that the Network continues to provide global earthquake and 
tsunami monitoring, nuclear treaty research and verification, and earth 
science research.
    The budget provides an increase of $18.4 million for science to 
support sustainable water management, nearly doubling the investment 
made in 2016. As climate models forecast increasingly frequent and more 
intense droughts, improving water management science is a paramount 
concern for land and water management agencies, States, local 
governments, and tribes. The budget would improve water use information 
and research, provide grants to State water resource agencies, and 
create hydrologic models and databases for better decision support. The 
budget also includes $3.9 million for drought science and $4.0 million 
to develop methods to assess regional and national water use trends 
during drought. Innovation is critical to address the severe threats to 
water supply posed by drought and climate change.
    The budget provides increases across several programs to advance 
understanding of conventional and unconventional energy, critical 
minerals such as rare earth elements, and the environmental health 
effects of resource development. These investments include $3.6 million 
to provide decision ready information to support safe and prudent 
unconventional oil and gas development, $2.0 million to study the 
environmental impacts of uranium mining in the Grand Canyon, and $1.0 
million to identify and evaluate new sources of critical minerals and 
continue criticality analysis for mineral commodities.
    The USGS budget increases science investments for changing 
landscapes, including $9.8 million in the Arctic, $3.0 million for the 
vulnerable sagebrush habitats of the Intermountain West, and $3.9 to 
improve coastal science that will help communities build resilient 
coastal landscapes and improve post-storm contaminant monitoring 
network along the Atlantic coast. The budget also establishes a Great 
Lakes Climate Science Center to focus on the many natural resource 
challenges in the distinct bio-geographic Great Lakes region. As with 
the eight existing Climate Science Centers, the Great Lakes CSC will 
help address regional concerns associated with climate change, 
providing a pathway to resilience and supporting local community 
priorities.
    The budget includes increases of $2.1 million to address research 
on pollinator health and expand the small group of USGS researchers 
working on this critical component of agricultural and ecosystem 
health, $1.4 million for tribal climate science partnerships, and $2.5 
million for better tools to detect and control invasive species, 
particularly new and emerging invasive species. The budget continues a 
commitment to priority ecosystems including the Chesapeake Bay, the 
Everglades, Puget Sound, the Upper Mississippi River, the California 
Bay-Delta, and the Gulf Coast.
    The USGS plays a pivotal role in providing research, analysis, and 
decision support tools. The budget supports these efforts and includes 
investments to extend the four-decade long Landsat satellite program 
with the development of Landsat 9, and provide information to better 
understand and respond to changes in the environment. The 2017 budget 
provides an increase of $17.6 million for satellite operations, funding 
the development of Landsat 9 ground systems and satellite operations 
and an investment to retrieve and disseminate data from the European 
Space Agency's Sentinel-2 earth observation satellite. The budget 
provides an increase of $4.9 million to expand the three-dimensional 
elevation program and leverage partnerships across the Nation, 
accelerate Alaskan map modernization, and provide coastal imaging to 
help communities make infrastructure resilience investments. The budget 
also provides $3.0 million to develop the computing resources necessary 
to produce and disseminate Landsat-based information products.
    High-quality science depends on a strong science infrastructure. 
The budget makes necessary investments to continue the USGS legacy of 
reliable, valuable scientific information and monitoring. These 
investments fund science support, facilities and equipment, including 
laboratories, and the administrative support that is the backbone of 
science production and delivery. The 2017 budget also includes program 
increases to enhance the Mendenhall post-doctoral program, support 
tribal science coordination, enhance science education, and engage 
youth in underserved communities in earth and biological sciences 
through outreach activities and science camps.
    Fish and Wildlife Service.--The 2017 budget for FWS includes 
current appropriations of $1.6 billion, an increase of $54.5 million 
compared to the 2016 enacted level.
    The 2017 request for FWS includes $1.3 billion for FWS operations, 
of which $506.6 million supports National Wildlife Refuge System 
operations and maintenance. A feature of the 2017 FWS budget is support 
to expand opportunities for all Americans to access public lands and 
experience the great outdoors, regardless of where they live. With 80 
percent of the U.S. population currently residing in urban communities 
near more than 260 wildlife refuges, Interior is leveraging the 
National Wildlife Refuge System to encourage urbanites to rediscover 
the outdoors. The request includes $10.0 million for the Refuge 
System's Urban Wildlife Conservation Partnerships to expand 
opportunities for urban populations including an increase of $2.0 
million for additional Refuge System law enforcement officers to ensure 
the safety of visitors, natural and cultural resources, and Federal 
employees and facilities. The budget includes $40.7 million for general 
Refuge Law Enforcement operations.
    The request also includes funding within Law Enforcement and 
International Affairs to combat wildlife trafficking. The budget 
provides $75.1 million for the law enforcement program to investigate 
wildlife crimes, enforce the laws governing the Nation's wildlife 
trade, and continue cooperative international efforts to prevent 
poaching and trade in illegal wildlife products. The request includes 
$15.8 million for the International Affairs Program, an increase of 
$1.1 million above 2016. This includes increases of $500,000 to provide 
technical support for international efforts to reduce illegal wildlife 
trafficking and develop innovative conservation activities. Also within 
International Affairs, is $550,000 to support the U.S. Chairmanship of 
the Arctic Council.
    The budget invests in resources for the Refuge System which has 
lost more than 400 staff positions since 2010. The request for the 
Refuge System is $506.6 million, an increase of $25.2 million above 
2016. This includes increases of $1.0 million for pollinator 
conservation, $3.7 million for wildlife and habitat inventory and 
monitoring, $2.0 million to establish management capability across 418 
million acres of submerged land and water within the Pacific Marine 
National Monuments, and $4.4 million to begin rebuilding capacity 
within the Refuge System to improve the condition of refuge system 
facilities and resources, improve the visitor experience and manage 
natural resources.
    The budget emphasizes improving the resilience of communities and 
wild landscapes, enabling them to better adapt to a rapidly changing 
environment, and uses smart investments in conservation and landscape-
level planning to improve the Service's ability to facilitate economic 
growth, while avoiding and mitigating the impacts on wildlife and 
habitat.
    Within the FWS main operating account, the request provides $252.3 
million for Ecological Services to conserve, protect, and enhance 
listed and at-risk species and their habitat, an increase of $18.3 
million. Since 2008, FWS has downlisted or delisted 15 species, more 
than in any other administration. The increases within Ecological 
Services include $5.7 million to support conservation, restoration and 
economic development across the Gulf Coast region and other parts of 
the Country.
    The budget includes $152.8 million for Fish and Aquatic 
Conservation, a program increase of $4.6 million. Within this request 
is $53.8 million for operation of the National Fish Hatchery System and 
$7.9 million to combat the spread of Asian carp in the Missouri, Ohio, 
upper Mississippi Rivers, and other high priority watersheds. The 
request also includes an increase of $1.5 million to support fish 
passage while improving the resilience of communities to withstand 
flooding.
    The budget funds Cooperative Landscape Conservation at $17.8 
million, an increase of $4.8 million above 2016. The approach employed 
by Landscape Conservation Cooperatives to identify landscape scale 
conservation solutions fosters collaboration across a wide variety of 
partners and builds capabilities beyond the scale any single State, 
tribe, Federal agency, or community could achieve alone. The requested 
increase will support landscape planning and design, and partner 
cooperation that will improve the condition of wildlife habitat and 
enhance the resilience of communities.
    The 2017 budget for Science Support is $20.6 million, an increase 
of $3.6 million above 2016. The request includes an additional $1.0 
million to expand application of Strategic Habitat Conservation, an 
approach to conservation that, in cooperation with stakeholders, 
identifies priority species and habitat, desired biological outcomes, 
and develops conservation strategies to achieve these outcomes. This 
approach supports the design of successful management strategies that 
deliver measureable improvements to wildlife populations and habitats. 
The FWS will use a program increase of $2.6 million to obtain high 
priority data and scientific tools needed by on-the-ground resource 
managers.
    The FWS budget includes $137.6 million for LWCF Federal land 
acquisition, composed of $58.7 million in current funding and $79.0 
million in permanent funding. Within the request for current funding, 
is $19.9 million for high priority acquisition projects focused on FWS 
specific needs, including $16.0 million for collaborative projects in 
coordination with partners and other Federal agencies, and $2.5 million 
to support increased access to FWS lands for sportsmen and 
recreationists. The FWS requests $2.5 million in discretionary funding 
for the Everglades Headwaters National Wildlife Refuge and Conservation 
Area, one of the great grassland and savanna landscapes of eastern 
North America, to acquire nearly 1,000 acres to help protect high-
quality habitat for 278 Federal and State listed species. Acquisition 
of this property would protect the headwaters, groundwater recharge, 
and watershed of the Kissimmee Chain of Lakes, Kissimmee River, and 
Lake Okeechobee region, and improve water quantity and quality in the 
Everglades watershed, supporting the Comprehensive Everglades 
Restoration Plan goals and protecting the water supply for millions of 
people.
    Supporting the administration's America's Great Outdoors initiative 
objectives is $106.0 million for grant programs administered by FWS. 
The 2017 budget maintains 2016 funding levels for grants through the 
Cooperative Endangered Species Conservation Fund, North American 
Wetlands Conservation Fund, Multinational Species Conservation Fund, 
and the Neotropical Migratory Bird Conservation Fund. Funding for the 
State and Tribal Wildlife grant program on which many States and tribes 
rely to fund non-game animal conservation, is an increase of $6.4 
million.
    National Park Service.--The 2017 President's current budget request 
for NPS of $3.1 billion is $250.2 million above the 2016 enacted level. 
Highlights of the 2017 budget include $190.5 million in increases for 
the NPS Centennial, as well as a focus on the stewardship of natural 
and cultural resources, including a $20.0 million increase for the 
Historic Preservation Fund grant programs to document and preserve 
stories and sites related to the Civil Rights Movement.
    The NPS budget request for operations is $2.5 billion, an increase 
of $154.8 million from 2016. A $2.2 million programmatic reduction to 
refocus operations funding partially offsets the following increases: 
$49.2 million for additional repair and rehabilitation projects, $46.6 
million for additional cyclic maintenance projects, $20.0 million for 
the Every Kid in a Park initiative, $10.7 million for new parks and 
responsibilities, $8.1 million for healthcare insurance for seasonal 
employees, $3.0 million for climate change adaptation projects, $2.6 
million for increased communications bandwidth at parks, $2.0 million 
for the Vanishing Treasures program, $1.2 million to address energy 
development near parks, $1.1 million for Arctic science and monitoring, 
and $1.0 million for uranium mining studies in the Grand Canyon.
    The 2017 budget provides a total of $35.0 million for the 
Centennial Challenge matching program, an increase of $20.0 million. 
These funds will provide a Federal match to leverage partner donations 
for signature projects and programs at national parks into the NPS' 
second century. All Federal funds must be matched on at least a 50:50 
basis. In 2016, Congress appropriated $15 million for projects which 
will be matched by almost $33 million from more than 90 park partners. 
This program is bolstered by the administration's legislative proposal 
to fund an additional $100.0 million a year for 3 years for this 
program as a permanent appropriation.
    The 2017 request for the Historic Preservation Fund is $87.4 
million, an increase of $22.0 million from 2016. Of this total, $46.9 
million is requested for grants-in-aid to States and Territories, which 
is level with 2016. A total of $12.0 million is requested for grants-
in-aid to tribes, an increase of $2.0 million. The remaining $20.0 
million increase is for grants to document and preserve the sites and 
stories of the Civil Rights Movement; of which $17.0 million is for 
competitive grants, and $3.0 million is for grants to Historically 
Black Colleges and Universities.
    The 2017 budget includes $54.4 million for National Recreation and 
Preservation programs that support local community efforts to preserve 
natural and cultural resources. This is a decrease of $8.2 million 
compared to 2016. These changes consist of a program reduction of $10.4 
million to Heritage Partnership Programs; and programmatic increases of 
$0.9 million for modernization and digitization in the National 
Register program, $0.8 million for the Preservation Technology and 
Training grants program, $0.3 million for the Federal Lands to Parks 
program, and fixed costs increases.
    Construction funding totals $252.0 million, $59.1 million above 
2016. This request provides funding critical to the implementation of 
the Centennial initiative to make a meaningful impact on the NPS 
deferred maintenance backlog. The budget includes $153.3 million for 
line-item construction projects, a $37.1 million increase, which will 
fund projects such as the $13.2 million rehabilitation of the Paradise 
Inn Annex and snow bridge connection at Mount Rainier National Park in 
Washington, and $13.9 million for the final phase of the rehabilitation 
of the El Portal sanitary sewer to prevent raw sewage spills at 
Yosemite National Park in California.
    The 2017 current funding request for LWCF Land Acquisition and 
State Assistance is $178.2 million, an increase of $4.6 million from 
2016. This includes $110.0 million for State Assistance grants, 
maintaining the increase provided in 2016. The budget requests $68.2 
million for Federal Land Acquisition, an increase of $4.6 million. This 
provides $26.6 for projects addressing NPS specific needs, $10.8 
million for collaborative acquisition projects, $2.0 million for 
projects to improve recreation access, and $10.0 million for American 
Battlefield Protection Program acquisition grants. A high priority for 
NPS, the Hawaii Volcanoes National Park is also part of the Island 
Forests at Risk collaborative landscape proposal. An investment of $6.0 
million would allow NPS to begin acquisition of a parcel which protects 
the hawksbill and Green turtles, and island monk seal habitat, and 
contains anchialine pond communities and coastal strands of endangered 
plants. Significant archaeological sites, cultural landscapes, 
petroglyphs and ancient trails are also present. Time is a concern as 
the area faces potential rezoning from conservation to medium density 
urban and resort development.
    Indian Affairs.--The 2017 President's budget for Indian Affairs is 
$2.9 billion in current appropriations, $137.6 million above the 2016 
level. Funding for the main operating account for Indian Affairs, 
Operation of Indian Programs is $2.4 billion, $127.9 million above 
2016. The 2017 request for Construction is $197.0 million, $3.0 million 
above 2016.
    The 2017 budget supports continuing efforts to advance self-
governance and self-determination, improve educational outcomes for 
American Indian children, support human services activities, prudently 
manage tribal natural resources, build stronger economies and self-
sufficiency, and maintain safer Indian communities.
    Key to self-governance and self-determination is full funding for 
Contract Support Costs. The 2017 request includes $278.0 million for 
Contract Support Costs, $1.0 million above 2016, which will fully fund 
these costs based on the most recent analysis. As in the 2016 enacted 
bill, the budget requests funding for Contract Support Costs in a 
separate dedicated current account. To further stabilize long-term 
funding, the 2017 budget includes a legislative proposal to reclassify 
these costs as permanent funding beginning in fiscal year 2018.
    The Interior budget proposes a $1.1 billion investment in Indian 
education and construction to continue to support the transformation of 
the BIE to support tribes in educating their youth, and deliver an 
improved and culturally appropriate education across Indian Country. 
The budget includes $49.3 million in increases across a number of 
programmatic areas in BIE related to the transformation.
    The budget includes $138.3 million for Education Construction, 
maintaining the $63.7 million increase provided in 2016. The request 
will provide the funding stability necessary to develop an orderly 
education construction pipeline and properly pace projects. The 2016 
enacted appropriation will replace two remaining BIE school campuses on 
the 2004 priority list--Little Singer Community School and Cove Day 
School, both in Arizona--and support planning for the schools 
identified on the new school replacement construction list nearing 
finalization. The 2017 funding will be applied to construction costs 
for projects chosen from the new list.
    To further higher education, the budget includes increases of $9.4 
million for scholarships, adult education and tribal colleges and 
universities; and $3.6 million for Johnson O'Malley education grants to 
provide additional resources to tribes and organizations to meet the 
unique and specialized educational needs of American Indian and Alaska 
Native students.
    To foster public-private partnerships to improve the student 
experience at BIE-funded schools, the 2017 budget again proposes 
appropriations language enabling the Secretary to reactivate the 
National Foundation for American Indian Education. The proposed bill 
language will initiate a foundation focused on fundraising to create 
opportunities for Indian students in and out of the classroom.
    As part of the President's commitment to protect and promote the 
development of prosperous tribal communities, Indian Affairs proposes 
to expand the Tiwahe ``family'' initiative. This effort takes an 
integrated approach to address the inter-related challenges impacting 
the lives of youth, families, and communities in Indian Country--
including poverty, violence, and substance abuse. The Tiwahe approach 
seeks to empower individuals and families through health promotion, 
family stability, and strengthening communities as a whole.
    The 2017 budget expands the Tiwahe initiative with increases 
totaling $21.0 million for programs in social services, Indian Child 
Welfare Act, housing, tribal courts, and job placement and training. To 
better focus funding and evaluate outcomes in meeting social service 
needs in Indian Country, the Department will evaluate social service 
and community development needs in Indian Country in 2016. The 
evaluation will inform programmatic design, assessments, management, 
and budgeting.
    The budget contains a number of increases to support tribal nation-
building and economic development. The budget includes $4.0 million for 
a Native One-Stop Support Center to make it easier for tribes to find 
and access hundreds of services available to tribes across the Federal 
Government. The 2017 budget includes $1.0 million to help tribes adopt 
uniform commercial codes which help build the legal infrastructure on 
reservations to promote credit and other capital transactions. The 
budget provides $12.0 million to enable Interior to work with American 
Indian/Alaskan Native communities to improve Federal data quality and 
availability, to create a reimbursable agreement with the Census Bureau 
to address data gaps in Indian Country, and to create an Office of 
Indian Affairs Policy, Program Evaluation, and Data to support 
effective, data-driven, tribal policy making and program 
implementation. The budget also proposes $1.3 million increase for the 
Small and Needy Tribes program to assist eligible tribes in expanding 
and sustaining tribal governance.
    The 2017 budget strongly supports sustainable stewardship of trust 
lands, natural resources, and the environment in Indian Country. These 
priorities include the protection and restoration of ecosystems and 
important landscapes; stewardship of land, water, ocean, and energy 
resources; resilience in the face of a changing climate; and clean and 
sustainable energy development.
    The budget provides a $15.1 million program increase over 2016 
across eight natural resource programs to support tribes in developing 
science, tools, training, planning, and implementation of actions to 
build resilience into resource management, infrastructure, and 
community development activities. Funding will be set-aside to support 
Alaska Native Villages in the Arctic and other critically vulnerable 
communities to evaluate options for the long-term resilience of their 
communities. The budget also includes $2.0 million to address 
subsistence management in Alaska to better prepare for the impacts of 
climate change, as part of an ongoing commitment to improve the 
Nation's resilience. In addition, the budget includes a total increase 
of $8.7 million for trust real estate service activities to reinforce 
the stewardship of trust resources. The expanded capacity will address 
the probate backlog, land title and records processing, geospatial 
support needs, and database management in addition to providing 
expanded technical and legal support for authorized settlements 
involving tribal water rights.
    The 2017 budget request for Indian Land and Water Claim Settlements 
is $55.2 million, a $5.7 million increase over the 2016 enacted level 
for payments on enacted settlements. The budget includes $25.0 million 
for the final payment to the Aamodt settlement and $10.0 million in 
one-time funding to provide the Yurok Tribe, located in Northern 
California, funds to acquire lands as authorized in the Hoopa-Yurok 
Settlement Act. This acquisition supports efforts by the Yurok Tribe, 
State of California, private foundations and individual donors to 
conserve over 47,000 acres of the Klamath-Siskiyou ecoregion to ensure 
the long-term health of temperate forests, rare wildlife, and 
extraordinary runs of wild salmon. The land, to be conserved as a 
salmon sanctuary and sustainable community forest, will restore the 
Yurok Tribe's historic connection to the land, support the Yurok 
economy through jobs in forestry and restoration, and provide revenue 
to the tribe through sustainable timber and salmon harvests and the 
sale of carbon credits. The budget also includes increases totaling 
$12.9 million in the Operation of Indian Programs account to provide 
expanded technical and legal support for tribal water rights settlement 
negotiations and implementation. A reduction of $29.2 million in the 
settlement account reflects completion of the Taos Pueblos water 
settlement in 2016.
    The 2017 budget request for the Indian Guaranteed Loan Program is 
$7.8 million, the same as 2016, which will provide loan guarantee and 
insurance authority for $106.0 million in loan principal to support 
Indian economic development.
    Departmental Offices.--The 2017 budget request for Departmental 
Operations is $278.4 million, a decrease of $443.4 million below the 
2016 enacted level. The decrease reflects a reduction of $452.0 million 
associated with the Payments in Lieu of Taxes program. In 2017, the 
budget proposes to fund PILT as permanent funding not subject to 
appropriation. State and local governments depend on PILT funding to 
finance such vital services as firefighting and police protection, 
construction of public schools and roads, and search and rescue 
operations. Providing a mandatory source of funding will create greater 
certainty that PILT investments will be available in future years. The 
budget proposes mandatory PILT funding for 1 year, while a sustainable 
long-term funding solution is developed for the program.
    The budget proposes program increases of $1.5 million for work with 
the National Invasive Species Council to develop an Early Detection 
Rapid Response framework. Early detection and rapid response (EDRR) has 
the potential to result in significant cost savings, as compared to 
battling invasive species such as Asian carp, cheatgrass, and emerald 
ash borer once established. The EDRR request support multiple pilot 
projects to demonstrate early detection and rapid response approaches, 
as well as conducting assessments to identify current capacities and 
gaps in capacities to implement EDRR.
    The budget includes $1.0 million for Native Hawaiian community 
development through capacity building and technical assistance. This 
request will allow the Department to provide support to Native 
Hawaiians similar to the capacity building and technical assistance the 
Department provides to other Native Americans, and the Insular areas 
consistent with the Hawaiian Homes Commission Act and Hawaiian Homes 
Land Recovery Act. The Department will work with the Native Hawaiian 
community on a variety of economic, social, and cultural projects.
    The 2017 Budget includes critical investments to ensure 
effectiveness and compliance of Interior information technology 
investments. The request includes $3.0 million to develop a Digital 
Service Team responsible for driving the efficiency and effectiveness 
of the Department's highest-impact digital services. Additional 
information technology investments are proposed under the Working 
Capital Fund appropriated account.
    Within the request for Departmental Operations is $129.3 million 
for Office of Natural Resources Revenue's receipts management programs, 
$3.8 million above 2016. The increase includes $968,000 to fully fund 
Osage Trust Accounting responsibilities in compliance with the Osage 
settlement agreement; $1.0 million to expand Geospatial Information 
Systems; and $1.2 million to strengthen ONRR's audit and compliance 
mission activities.
    The 2017 request for the Office of Insular Affairs is $102.7 
million, $12.4 million above the 2016 level excluding Palau Compact 
Extension funding of $13.1 million. The 2017 budget proposes $149.0 
million in permanent funding to support enactment of a new Compact with 
Palau. The appropriated funding request includes increases of $4.0 
million for community, landscape and infrastructure adaptation and 
resilience initiatives; $3.9 million to improve health and safety 
conditions in insular school facilities; $2.0 million to implement 
energy projects; $2.0 million for Coral Reef Initiative and Natural 
Resources; $1.6 million for direct technical assistance grants; and 
$1.0 million to support invasive species eradication efforts, including 
the coconut rhinoceros beetle and little fire ant. Brown Treesnake 
Control is funded at $3.0 million, a program decrease of $500,000, 
reflecting completion of an automated aerial bait system in 2015. The 
budget requests $3.3 million for Compact of Free Association, level 
with 2016, excluding $13.1 million provided for Palau Compact Extension 
in 2016.
    The budget includes $69.4 million for the Office of the Solicitor, 
$3.6 million above 2016 to support additional personnel and necessary 
legal services for delivering the Department's mission. The Office of 
the Solicitor's ability to provide early and continuous legal counsel 
in new priority areas to ensure that developing programs are grounded 
in established legal principles and precedents is absolutely vital. The 
requested increase will allow the Office of the Solicitor to provide 
the much needed preventive assistance that is lost to the demands of 
non-discretionary litigation. The additional funding will also be used 
to restart the Honors Program, where recent law graduates are hired at 
the entry level and trained to assume senior positions. This program 
will ensure DOI has experienced lawyers as many senior staff becomes 
eligible for retirement.
    The request for the Office of the Inspector General is $55.9 
million, $5.9 million above 2016 to support audits concerning Offshore 
Energy Oversight, Indian Country, and Cybersecurity, and Offshore 
Energy Investigations.
    The Office of the Special Trustee request is $140.4 million, $1.4 
million above 2016. The budget includes increases of $1.5 million to 
provide additional estate planning opportunities to Indian Trust 
beneficiaries; $1.3 million for an appraiser training program to 
address the shortage of qualified appraisers and the resulting delays 
in completing appraisal evaluations; $1.5 million to enhance talent 
management capabilities and systems automation; and less than $400,000 
to modernize and improve business processes and enhance the Trust Funds 
Accounting System. These increases are partially offset by a $3.4 
million reduction in funding for Historical Trust Accounting based on 
anticipated workload levels.
    Department-wide Programs.--The 2017 request for the Department's 
Wildland Fire Management program is $824.6 million without the proposed 
fire cap adjustment, and $1.1 billion including the adjustment. The 
base budget includes $276.3 million for fire suppression, which is 70 
percent of the 10 year suppression average spending. The cap adjustment 
of $290.0 million covers the remaining 30 percent of the 10-year 
average and provides a contingency. The cap adjustment would only be 
used for the most severe fires, since it is 2 percent of the fires that 
cause 30 percent of the costs. The new budget framework for Wildland 
Fire Management eliminates the need for additional funds through the 
FLAME Act.
    The 2017 budget includes $179.1 million for Fuels Management and 
Resilient Landscapes subactivities, $9.1 million above 2016 enacted. Of 
this, $30.0 million is proposed in a new Resilient Landscapes 
subactivity to build on resilient landscapes activities supported by 
Congress in 2015 and 2016. This equates to a $20.0 million increase for 
the program to take better advantage of the shared goals of bureau 
resource management programs to treat large landscapes to achieve and 
maintain fire-adapted ecosystems that both reduce the threat of 
catastrophic wildfire and achieve restoration and other ecological 
objectives. The increase for Resilient Landscapes is partially offset 
with a program realignment of $21.7 million in the Fuels Management 
program from 2016.
    Other highlights in the Wildland Fire Management budget include an 
increase of $6.9 million in Preparedness to maintain or strengthen 
initial and extended attack capacity. Specific increases include $2.8 
million to enhance the initial attack capability of rural fire 
departments and rural fire protection associations. The budget includes 
program increases of $1.6 million to purchase replacement vehicles for 
the BIA fire program and $1.5 million to cover utility costs for the 
Alaska Fire Service's leased space. The budget includes $20.4 million 
for Burned Area Rehabilitation, a $1.5 million increase to address 
greater post-fire rehabilitation needs caused by the 2015 and 2016 fire 
seasons; and $10.0 million for Facilities Construction and Deferred 
Maintenance, a $3.6 million increase to address the deferred 
maintenance backlog.
    The 2017 budget request for the Central Hazardous Materials Fund is 
$13.5 million, $3.5 million above 2016, to fund the remedial design for 
the Red Devil Mine cleanup in Alaska. The 2017 request for Natural 
Resource Damage Assessment and Restoration is $9.2 million, $1.5 
million above 2016 to increase restoration activities.
    The 2017 budget proposes $111.5 million for the appropriated 
portion of the Department's Working Capital Fund, $44.4 million above 
2016. The majority of the increase, $24.7 million, continues 
cybersecurity remediation in the wake of the serious cyber intrusions 
experienced during 2015. Other increases include: $10.2 million to 
support the Department's multi-year effort to implement requirements 
identified under the Digital Accountability and Transparency Act, known 
as the DATA Act, and monitor compliance; $5.2 million for the 
Department's Office Consolidation Strategy; $2.6 million to fund 
Federal Information Technology Acquisition Reform Act coordination and 
reporting activities for the Department; $1.0 million for Cultural and 
Scientific Collections; and $702,000 for Service First activities.
                         legislative proposals
    The 2017 President's budget includes a suite of legislative and 
offsetting collection proposals affecting spending, revenues, and 
available budget authority that require action by the congressional 
authorizing committees. These mandatory proposals address a range of 
administration priorities, from investing in high-priority conservation 
and recreation programs to achieving a fair return to the American 
taxpayer from the sale of Federal resources and reducing unnecessary 
spending. The 2017 budget includes seven spending proposals with an 
estimated $18.0 billion in outlays over the next decade. This spending 
is partially offset by revenue and savings proposals to reduce outlays 
from the Treasury by an estimated $4.5 billion over the next decade.
    Gulf of Mexico Energy Security Act and the Coastal Climate 
Resilience Program.--The administration is committed to ensuring 
American taxpayers receive a fair return from the sale of public 
resources and taxpayers throughout the Country benefit from the 
development of offshore energy resources owned by all Americans. The 
Gulf of Mexico Energy Security Act of 2006 opened some additional areas 
in the Gulf of Mexico for offshore oil and gas leasing, while 
maintaining moratoria on activities east of the Military Mission Line 
and within certain distances from the coastline of Florida. The Act 
provides that 37.5 percent of Outer Continental Shelf revenues from 
certain leases be distributed to just four coastal States--Alabama, 
Louisiana, Mississippi, and Texas--and their local governments based on 
a complex allocation formula. The administration proposes to repeal 
GOMESA revenue-sharing payments to these select States from Gulf of 
Mexico oil and gas leases, which are set to expand substantially 
starting in 2018.
    More than half of the savings, $2.0 billion, from the repeal of 
GOMESA revenue sharing payments to States will be redirected to a new 
Coastal Climate Resilience Program to provide resources for at-risk 
coastal States, local governments, and their communities to prepare for 
and adapt to climate change. A portion of these program funds would be 
set aside to cover the unique impacts of climate change in Alaska where 
some native villages are so threatened by rising seas, coastal erosion, 
and storm surges, that they must prepare for potential relocation.
    Historic Preservation Fund.--The budget includes a legislative 
proposal to extend the authority to deposit $150.0 million in receipts 
from offshore oil and gas revenues annually into the Historic 
Preservation Fund.
    Bureau of Indian Affairs Contract Support Costs.--The budget 
includes a legislative proposal to reclassify funding for the existing 
Contract Support Costs program from discretionary to mandatory 
beginning in fiscal year 2018. The budget proposes to adjust the 
discretionary budget caps to reflect the reclassification to mandatory 
funding. New contract support cost estimates will be provided on a 3-
year cycle as part of the reauthorization process.
    POWER+ Accelerate AML Distribution for Mine Cleanup and Economic 
Recovery.--The budget proposes to allocate a portion of the remaining 
unappropriated balance of the Abandoned Mine Lands Fund to target the 
cleanup and redevelopment of AML sites and AML coal mine polluted 
waters in a manner that facilitates sustainable revitalization in 
economically depressed coalfield communities. The proposal will provide 
$1.0 billion over 5 years to States based on AML program and economic 
eligibility factors--such as the unemployment rate of coal mining 
regions--and remaining priority coal problems, including abandoned mine 
drainage, where reclamation linked to job creating economic development 
strategies will help revitalize impacted communities.
    United Mineworkers of America Pension Reform.--The budget proposes 
to better provide for retired coal miners and their families by 
revising the formula for general fund payments to the 1993 UMWA Health 
Benefit Plan. The new formula will consider all beneficiaries enrolled 
in the plan as of enactment, as well as those retirees whose health 
benefits were denied or reduced as the result of a bituminous coal 
industry bankruptcy proceeding commenced in 2012. Additionally, the 
proposal will transfer funds through the Pension Benefit Guaranty 
Corporation to the trustees of the 1974 UMWA Pension Plan to ensure the 
plan's long-term solvency. The plan, which covers more than 100,000 
mineworkers, is underfunded and approaching insolvency. The new formula 
will provide an additional $375.0 million to the UMWA in 2017 and $4.2 
billion over 10 years.
    Land and Water Conservation Fund.--The budget proposes $900.0 
million in combined current and mandatory funding in 2017, and starting 
in 2018, the budget proposes permanent authorization of $900.0 million 
in mandatory funding for LWCF programs in the Departments of the 
Interior and Agriculture. During a transition to mandatory funding in 
2017, the budget proposes $425.0 million for mandatory funding and 
$475.0 million for current funding, to be shared by Interior and 
Agriculture.
    National Parks Centennial Act.--The budget proposes enactment of 
legislation, the National Park Service Centennial Act, to honor the 
Park Service's 100th anniversary. The Act specifically authorizes the 
following: $100.0 million a year for 3 years for the Centennial 
Challenge to leverage private donations; $300.0 million a year for 3 
years for NPS deferred maintenance; and $100.0 million a year for 3 
years for a Public Lands Centennial Fund, which will competitively 
allocate funds for projects on public lands to enhance visitor services 
and outdoor recreation opportunities, restore lands, repair facilities, 
and increase energy and water efficiency. The availability of mandatory 
funding to address deferred maintenance and other conservation projects 
will allow NPS to plan ahead more efficiently to achieve significant 
results. Stable and predictable funding streams will allow projects to 
be appropriately scheduled and phased for more effective project 
delivery and completion. The proposal includes the authority to collect 
additional camping or lodging fees, and funds from purchases of the 
lifetime pass for citizens 62 years of age or older. Receipts for this 
Second Century Fund will be matched by donations in order to fund 
visitor enhancement projects. The impact of this new revenue source is 
estimated at $40.4 million in 2017. Also included is a proposal to 
establish a program to allow a Visitor Services Management Authority to 
award and manage contracts for the operation of commercial visitor 
services programs and activities.
    Federal Land Transaction Facilitation Act.--The budget proposes to 
reauthorize this Act which expired on July 25, 2011, to allow lands 
identified as suitable for disposal in recent land use plans to be sold 
using this authority. The sales revenue will be used to fund the 
acquisition of environmentally sensitive lands and administrative costs 
associated with conducting the sales.
    Recreation Fee Program.--The budget proposes legislation to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
authorized through September 30, 2017. The program currently brings in 
an estimated $335 million in recreation fees annually under this 
authority that are used to enhance the visitor experience on Federal 
land recreation sites.
    Federal Oil and Gas Reforms.--The budget includes a package of 
legislative reforms to bolster administrative actions to reform 
management of Interior's onshore and offshore oil and gas programs, 
with a key focus on improving the return to taxpayers from the sale of 
these Federal resources and on improving transparency and oversight. 
Proposed statutory and administrative changes fall into three general 
categories: advancing royalty reforms, encouraging diligent development 
of oil and gas leases, and improving revenue collection processes. 
Collectively, these reforms will generate roughly $1.7 billion in 
revenue to the Treasury over 10 years, of which $1.2 billion will 
result from statutory changes. Many States also will benefit from 
higher Federal revenue sharing payments as a result of these reforms.
    Palau Compact.--On September 3, 2010, the U.S. and the Republic of 
Palau successfully concluded the review of the Compact of Free 
Association and signed a 15-year agreement that includes a package of 
assistance. The budget assumes authorization of mandatory funding for 
the Compact in 2017 to strengthen the foundations for economic 
development in Palau by developing public infrastructure and improving 
healthcare and education. The cost for this proposal for 2017-2024 is 
$149.0 million.
    Payments in Lieu of Taxes.--The budget proposes to extend PILT 
mandatory funding for an additional year with the current PILT payment 
formula based on the amount of Federal land within an eligible unit of 
local government, its population, and certain other Federal payments 
the local government may receive. The cost of a 1 year extension of the 
PILT program is estimated to be $480.0 million in 2017.
    Reclamation of Abandoned Hardrock Mines.--The budget proposes to 
create an Abandoned Mine Lands Program for abandoned hardrock sites 
financed through a new AML fee on hardrock production on both public 
and private lands. The fee is estimated to generate $1.8 billion 
through 2026 to reclaim the highest priority hardrock abandoned sites 
on Federal, State, tribal, and private lands.
    Reform Hardrock Mining on Federal Lands.--The budget proposes to 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals, including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. Half of the receipts will be distributed to the States in which 
the leases are located and the remaining half will be deposited in the 
U.S. Treasury. The proposal is projected to generate revenues to the 
U.S. Treasury of $80.0 million over 10 years, with larger revenues 
estimated in following years.
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels.--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the AML Fund. The proposal would 
return the current fee of 28 cents per ton of surface mined coal to 35 
cents a ton, the same level companies paid prior to the 2006 fee 
reduction. The additional revenue, estimated at $258 million over 10 
years, will be used to reclaim high priority abandoned coal mines and 
reduce a portion of the estimated $6.0 billion needed to address 
remaining dangerous coal AML sites nationwide.
    Termination of AML Payments to Certified States.--The 2017 budget 
proposes to discontinue unrestricted payments to States and tribes 
certified for completing their coal reclamation work. This proposal 
terminates all such payments with estimated savings of $520.0 million 
over the next 10 years.
    Termination of EPAct Geothermal Payments to Counties.--The 2017 
budget proposes to repeal Section 224(b) of the Energy Policy Act of 
2005 to permanently discontinue payments to counties and restore the 
disposition of Federal geothermal leasing revenues to the historical 
formula of 50 percent to the States and 50 percent to the Treasury. 
This results in estimated savings of $41.0 million over 10 years.
    Bureau of Land Management Foundation.--The budget proposes to 
establish a congressionally chartered National BLM Foundation to 
leverage private funding to support public lands, achieve shared 
outcomes, and focus public support on the BLM mission.
    National Foundation for American Indian Education.--The budget 
proposes appropriations language enabling the Secretary to reactivate a 
foundation created by Congress in 2000 to generate private donations in 
support of the mission of the Bureau of Indian Education. The proposal 
will allow the foundation to start anew to obtain nonprofit tax exempt 
status, with a new Board of Directors focused on making the foundation 
a successful fund raising entity.
    Migratory Bird Hunting and Conservation Stamp Act--Duck Stamp.--The 
budget includes a legislative proposal to provide limited authority to 
increase the price of a Duck Stamp, with the approval of the Migratory 
Bird Conservation Commission, to keep pace with inflation.
    Wildland Fire Suppression Disaster Cap Adjustment.--The budget 
proposes to amend the Balanced Budget and Emergency Deficit Control Act 
to establish a new framework for funding Fire Suppression Operations to 
provide stable funding, while minimizing the adverse impacts of fire 
transfers on the budgets of other programs. Under this new framework, 
the 2017 budget request covers 70 percent of the 10-year suppression 
average within the domestic discretionary cap or $276.3 million for the 
Department of the Interior. This base level ensures the cap adjustment 
will only be used for the most severe fire activity as 2 percent of the 
fires incur 30 percent of the costs. Only extreme fires that require 
emergency response or are near urban areas or activities during 
abnormally active fire seasons--which rightly should be considered 
disasters--will be permitted to be funded through the adjustment to the 
discretionary spending limits. For 2017, the request for the budget cap 
adjustment for the Department is $290.0 million. The cap adjustment 
does not increase overall spending, as the ceiling for the existing 
disaster relief cap will be reduced by the same amount as the increase 
required for fire suppression.
                    offsetting collections and fees
    Bureau of Ocean Energy Management Risk Management Fee.--The budget 
proposes appropriations language for a new cost recovery fee to recoup 
funds for services rendered by the Risk Management Program. The program 
is critical to protecting the American taxpayer from becoming 
financially responsible for liabilities associated with oil and gas and 
renewable energy operations on the Outer Continental Shelf. This 
proposed fee will generate an estimated $2.9 million annually, fully 
offsetting the requested risk management programmatic increase in 2017.
    Bureau of Safety and Environmental Enforcement Inspection Fee.--The 
budget includes appropriations language modifying and expanding the 
enacted inspection fee language to clarify that facilities subject to 
multiple inspections are subject to additional fees for each 
inspection. The BSEE estimates the inspection fees will generate $65.0 
million in 2017.
    Fee for Onshore Oil and Gas Inspections.--Through appropriations 
language, Interior proposes to implement inspection fees in 2017 for 
onshore oil and gas activities subject to inspection by BLM. The 
proposed inspection fees are expected to generate $48.0 million in 
2017, level with 2016. The fees are similar to those already in place 
for offshore operations and will support Federal efforts to increase 
production accountability, safety, and environmental protection.
    Grazing Administrative Fee.--The budget proposes a grazing 
administrative fee to offset costs to administer the program. The 
budget proposes to implement a fee of $2.50 per animal unit month 
through appropriations language on a pilot basis. Interior estimates 
the fee will generate $16.5 million in 2017 to support the Rangeland 
Management program at the 2016 level. During the period of the pilot, 
BLM will work to promulgate regulations to continue this cost recovery 
fee administratively, once the pilot expires.
    National Wildlife Refuge Damage Cost Recovery.--The budget includes 
appropriations language to authorize the Fish and Wildlife Service to 
retain recoveries for the cost to restore or replace damaged habitat 
from responsible parties.
                               conclusion
    Thank you for the opportunity to testify on the President's 2017 
budget request for the Department of the Interior. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance the stewardship of lands and resources, 
renewable energy, oil and gas development and reforms, water 
conservation, youth employment and engagement, and improvements in the 
quality of life in Indian communities. I thank you again for your 
continued support of the Department's mission. I look forward to 
answering questions about this budget. This concludes my written 
statement.

    Senator Murkowski. Thank you, Secretary.
    Mr. Connor or Ms. Sarri, were either of you prepared to 
provide an opening statement or should we just go to questions?
    Secretary Jewell. Just questions.
    Senator Murkowski. Okay, thank you.

                               KING COVE

    Let me start off, Madam Secretary, as I mentioned to you in 
my opening statement, and as we discussed in the Energy 
Committee hearing last week, my ongoing concern about the 
situation in King Cove, the promise that you had made to me and 
to the committee to do what you could to help the people of 
King Cove. As I noted, I do not see anything in the President's 
budget that would help to facilitate that promise.
    You have indicated that the report that you had requested 
has been completed. I asked if that would be released. You 
indicated that it would be. Can you give me an indication as to 
when we might expect that?
    Secretary Jewell. I did ask my Chief of Staff, as you know, 
an Alaskan, to follow up on that, which he is doing. One 
complication I did not realize last week is it is actually the 
Army Corps' report, so we will need to work with them on 
posting it. But Tommy is working through it, and we will make 
sure we get it to your office as soon as we are able to do 
that.
    Senator Murkowski. We conveniently have a hearing with the 
Army Corps this afternoon, so perhaps I will have a chance to 
ask them that question at that point in time.
    Are you able to provide me any details of the report at 
this point in time?
    Secretary Jewell. I am happy to go through just a high-
level overview. As I expressed in the letter from July, three 
alternatives were identified in that report. As we discussed, 
and I know we differ on this point, I do not support a road 
through the refuge because of the extraordinary damage we 
believe----
    Senator Murkowski. I understand that. If what you are 
telling me is that what we will see in this report is what we 
have seen before, then I would rather not take the 
subcommittee's time to have you detail that right now, because, 
as you know, that was unacceptable not only to me before, but 
it was unacceptable to the people of King Cove.

                          WILDLIFE MANAGEMENT

    So we will continue this discussion, but let me move to 
another issue that is equally unsettling to the people of 
Alaska right now. That is the proposed regulations from the 
Park Service and Fish and Wildlife on the proposal to govern 
wildlife management and procedures to close areas that are 
currently open to hunting and fishing in the State.
    These are controversial because they call into question 
State management authority over fish and game, over resources 
within their borders. This is contrary and inconsistent with 
the Alaska National Interest Lands Conservation Act (ANILCA), a 
statute which gives the State of Alaska and the Department of 
Fish and Game management inside our preserves, our refuges, and 
our parks. Do you believe that the State of Alaska has the 
right to manage its wildlife within the borders of the State?
    Secretary Jewell. Certainly, Senator Murkowski, I believe 
the State has the right to manage its wildlife. I also, though, 
say that the Fish and Wildlife Service and the Park Service 
must operate within the congressional mandates they have. What 
they have struck in this is really around non-subsistence take 
of predators, things like----
    Senator Murkowski. Let me ask about that subsistence take, 
because I know you have said that these regs do not impact 
subsistence. But since the amount of game that is available for 
natives around the State is definitely impacted by the take of 
wildlife by predators, how can you suggest that somehow the 
subsistence rights of our native people are not impacted by 
these new predator control policies?
    A bigger question is whether you think it is proper for the 
Federal Government to effectively reverse the State Board of 
Game decisions, because that is effectively what we are seeing 
here. From Alaska's perspective, we have ANILCA that says the 
State has the right to manage. Now you have the Federal 
Government, the Park Service, the Fish and Wildlife Service, 
saying, yes, except for when we think that what we are doing is 
more appropriate.
    It is a violation of what has been set out not only within 
ANILCA but within the United States Constitution. I hope you 
appreciate the anxiety that has been created right now in the 
State because of these proposed regulations.
    I know you had a discussion with Congressman Young about 
this yesterday. You know where he is coming from, clearly. I 
think you know where myself and Senator Sullivan are coming 
from on it.
    We have a collision going on right now between your Federal 
agencies with the Park Service and with the Fish and Wildlife 
Service stepping in and telling a State that, effectively, we 
do not think that the State can manage what by Constitution and 
Federal law we have given you that authority to manage.
    That is more of a rhetorical question for you, but you need 
to understand how significant an issue this has become in the 
State of Alaska. It may be right up there with the fight on the 
Arctic National Wildlife Refuge (ANWR) and King Cove. It may 
surpass them all, because this truly does go to a State's 
rights issue.
    I am out of my 6 minutes already, so I am going to turn to 
my ranking member, but we will have time for multiple rounds 
here.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Several Senators on my side have urgent hearings to 
actually chair, so I am going to defer my questions and call on 
Senator Leahy to ask questions at this point. Thank you very 
much, Madam Chair.
    Senator Leahy. Thank you, Madam Chair.
    Thank you, Senator Udall.
    Secretary Jewell, as I mentioned to you earlier, it is 
great to see you here. I was thinking, as we were looking at 
the picture, when you were in Vermont this time for the Leahy 
Environmental Summit, I am glad you were able to enjoy a day of 
snowshoeing in Vermont's Green Mountains, something both my 
wife and I love to do at our home.
    But you know what? Last year, you had about 6 feet of snow 
in Vermont's backcountry. If you were there today, the grass 
would be sticking up through the little bit of snow on the 
ground. At our home, we have not been able to snowshoe or 
cross-country ski. It has just been strange, so let me ask you 
a couple questions.
    I understand you got an earful on the House side yesterday. 
Members blamed you and the administration for all sorts of harm 
to the States, almost suggesting you personally control the 
price of fossil fuels. Oil just went up, so I am sure they are 
all going to call you this morning and give you credit for 
that, too.
    But I want to praise you for your foresight and leadership 
in addressing this problem. We have an obligation not only to 
current taxpayers, but to future generations to see that all 
Federal programs deliver a fair return to American taxpayers. 
That can be coal mining activity, offshore oil exploration, 
logging, even our Federal grazing permits. The price to extract 
these natural resources should not be so heavily subsidized 
that it encourages damage to our Federal lands or wildlife or 
causes, as it could, permanent damage to the taxpayers of this 
country.

                      COAL LEASING PROGRAM REVIEW

    My question is, does your proposed fiscal year 2017 budget 
provide the resources to complete a full evaluation of the coal 
leasing program? Will it include a cost-benefit analysis to 
consider, among other things, carbon emissions and medium- and 
long-term impacts of climate change? Could you do a similar 
valuation on oil exploration?
    Secretary Jewell. Thank you very much, Senator Leahy. It 
was a pleasure to be in your State.
    I will say, a year ago, when I was in Senator Murkowski's 
State, the green grass was poking through, because they did not 
have snow.
    We are launching a programmatic environmental impact 
statement on the coal program. It has not been done for 30 
years. It is very evident from a Government Accountability 
Office (GAO) report and our own Inspector General report, there 
are not only questions about the adequacy of payment to the 
taxpayers, but also that it does not take into account the 
impact of climate change.
    The assessment we will launch with this programmatic 
environmental impact statement (PEIS) will take into account 
climate change and the impact broadly of the coal program, as 
well as the returns and the royalties.
    I cannot get it done within the time I am here. It is too 
complicated. It takes too long. We will have an interim report, 
which will scope out exactly what will be done, with a timeline 
through which we intend to complete that work.
    I have not, at this point, contemplated a similar program 
on the oil and gas activities. Coal has been criticized, as I 
mentioned, by our own Inspector General and the GAO, so I am 
prioritizing that.

                          WIND ENERGY AND BATS

    Senator Leahy. There are other programs that you have for 
development of renewable energy projects. You have wind energy 
on Federal land. I wrote to the department last week on Bat 
Week. I will point out that I don't talk about fictional 
Batman. I talk about real bats and what they do helping with 
our crops, keeping down pests, and other all these other 
things.
    If you have wind energy, you also have this question of bat 
and bird interaction, migrating birds, bats, and so on. If 
additional resources are available, what could your department 
do to, one, make progress on wind energy, but also in a way 
that would help with flights of birds and flights of bats, all 
of which are so important to our whole ecosystem.
    Secretary Jewell. Thank you very much for pointing out the 
importance of bats, in particular, as pollinators, and they are 
in real trouble right now because of White-Nose Syndrome, which 
you are well aware of.
    I have seen through the USGS the work we are doing with the 
wind energy industry and others on early warning systems to 
detect when there are avian species like bats and birds in the 
area, that will proactively shutdown wind turbines. It is a 
relatively modest amount, and I would say that if we had more, 
we could probably accelerate that work. Some of it is being 
paid for by industry, which is also appropriate, to reduce 
those impacts. And it is a concern of the Fish and Wildlife 
Service.
    Where we site these wind energy projects on public lands, 
it does take into account the migration patterns and the 
potential impact.
    But with more resources, we certainly could do more.
    Senator Leahy. Let me and my office help you with that, and 
also, help you with industry, because people are concerned, as 
you know. And I know you are.

                          TEMPORARY EMPLOYEES

    One last question. Your department, like others, relies on 
temporary employees for programs we have funded either through 
partnership agreements or the discretion of Congress. I worry 
sometimes these temporary employees are on permanent things.
    For example, at the risk of being at all parochial in this 
committee of all committees, we have the Lake Champlain sea 
lamprey control. The Fish and Wildlife Service has run this 
continuously now for 25 years. Some of the employees are 
classified as temporary. We always have money in there for this 
program.
    I worry these temporary--they have to be experts. If they 
are temporary, they say, I can get a job somewhere else, and 
they leave and we lose all the expertise. How do we make these 
people permanent?
    Secretary Jewell. Madam Chair, do you mind if I respond? I 
know we are over time.
    Senator Leahy. I am sure she has similar things in Alaska, 
for that matter.
    Secretary Jewell. Well, quickly, I will say our budget does 
support an increase for the wildlife refuge system. That would 
enable us to take some positions that are temporary and make 
them permanent.
    Specific to the sea lamprey, we actually have four 
positions that are supported by the State Department because of 
the cross-border issues with Canada. Those, because they are 
not funded by our department, are term positions, and, are 
therefore, temporary. We certainly would be willing to look at 
a more permanent authorization for them.
    There is a blend of the Fish and Wildlife budget being 
lower in the past, and we asked for increases, but also part of 
it is being supported by the State Department. We appreciate 
the challenge.
    Senator Leahy. Thank you.
    Thank you, Madam Chair.
    Senator Murkowski. Senator Cassidy.
    Senator Cassidy. If one of my colleagues has a hearing to 
chair, they can go ahead.
    Senator Reed. I have a hearing. Thank you. Very gracious.
    Senator Murkowski. Senator Reed.
    Senator Reed. Thank you, Madam Chairman. Let me begin by 
commending you and your colleague for your great leadership. 
Thank you very much.

                   BLACKSTONE NATIONAL HISTORIC PARK

    Madam Secretary, thank you. One of the major developments 
in Rhode Island, as you know, is the creation of the Blackstone 
National Historic Park. Thank you, because you were there with 
us kayaking along the Blackstone River. We thank you for that.
    The way it is envisioned, it is a partnership park. The 
existing Blackstone Valley Heritage Corridor, a federally 
funded entity, is going to work in partnership with the 
National Park Service to develop the plan to implement it and 
to do all those things.
    But there is a growing concern, and I would like your 
comments about how you balance these two entities, so that they 
have adequate resources to continue their jobs and one does not 
suffer at the expense of the other as we go forward and 
coordinate their operations. Could you comment on that, Madam 
Secretary?
    Secretary Jewell. I will make a quick comment. We have just 
slightly above the funding recommended for 2017 versus 2016. 
For 2017, it is $932,000. In 2016, the funding with the 
National Heritage Areas was $501,000. Once we get the 2017 
amount, the Park Service will work closely with the National 
Heritage Area to figure out what the appropriate split is.
    I certainly understand how important that funding is, and I 
will pass that along to the Park Service.
    Senator Reed. Thank you. I think both entities now have to 
continue at an appropriate pace. At some point, there might be 
a transition point where the Park Service accumulates more 
support and activities as we go forward. But at this point, I 
think it is important to keep both those entities empowered, 
resourced, and working together.
    Another issue with respect to the park, because it is such 
a major undertaking, the first one in our State, and we are all 
looking forward to its successful implementation, one of the 
first sites is likely to be Slater Mill, which is really the 
beginning of the Industrial Revolution in the United States. It 
is the first real factory in America.
    That is likely to be the first component of the park. Do 
you have any notion about how that transfer will be completed 
in this fiscal year, the resources available, and sort of 
anything else you might want to add?
    Secretary Jewell. I have been to the Slater Mill site. It 
is extraordinary, and compliments to the community on that. I 
have not spoken with the Park Service specifically about plans 
for Slater Mill, so let me get back to you on the record for 
that one.
    [The information follows:]
                              slater mill
    The National Park Service (NPS) is working closely with the Old 
Slater Mill Association to acquire the Historic Slater Mill campus. The 
board of the non-profit has agreed to the property transfer, which will 
make this property the anchor and manageable unit of the new park. The 
estimate for the transfer of the property is spring 2017. Currently, 
title work is underway.
    Once the property is owned by the NPS, it is anticipated that the 
Old Slater Mill Association will continue to offer high quality 
programming at Slater Mill and remain an active partner in the 
management of the national park property. The NPS will use its current 
budget to support that programming, as well as preserve and maintain 
the historic structures. Of the $926,000 budget this fiscal year, the 
park retained $425,000 and transferred $501,000 to the national 
heritage area. This $425,000 is the core of the resources available for 
the new park, though it is also anticipated that the NPS will fund one-
time projects such as investing in waysides and signs within the next 
year.

    Senator Reed. Thank you, Secretary, and your staff.
    And I want to thank the chairwoman again, and particularly 
thank Senator Cassidy for his graciousness. Because I have to 
get back to another hearing, I will just wish you well.
    Thank you.
    Senator Murkowski. So, theoretically, that was the 
majority's turn. We should go to this side, but Senator Cassidy 
was gracious, so I do not know, we will ask you, Senator 
Cassidy.
    Senator Reed. We all vote for Senator Cassidy.
    Senator Murkowski. Thank you.

                         OIL AND GAS RULEMAKING

    Senator Cassidy. Secretary Jewell, when you put out the 
well control rule and the Bureau of Land Management (BLM) 
venting rule, I am told that you used $80 oil and $4 natural 
gas to justify the economics. Is that correct?
    Secretary Jewell. I do not know specifically what was used 
in the economic assumptions. That probably is correct, given 
the timing that it was done, but we can get back to you and 
confirm that.
    Senator Cassidy. Is it fair to say that probably the 
economics of that are now different because of the lower 
prices?
    Secretary Jewell. To the extent the economics are dependent 
on oil prices, it would be, but oil prices, of course, are a 
commodity and they fluctuate from $100 to below $30 a barrel. 
So, I do not know how much that specifically impacts the cost 
of the well control rule. It certainly impacts the industry.
    Senator Cassidy. Now, when it impacts the economics of the 
industry, it is fair to say that a well that could be 
economically developed at $80 a barrel probably cannot be at 
$30. That just goes without saying. There is a marginal cost to 
compliance with regulation, and if that marginal cost is on $30 
as opposed to $80, it is going to make a difference in 
economics. I think that goes without saying.
    Secretary Jewell. Well, if I can just say there are a lot 
of things that will impact the economics. The cost of the rig, 
the cost to drill, the risk, and all of those things are 
factored in.
    Senator Cassidy. Absolutely.
    Secretary Jewell. I used to do this for a living, so I 
certainly understand that.
    Senator Cassidy. I get that. But, marginal cost of 
regulation is a cost.

                           WELL CONTROL RULE

    Now, according to a Wood Mackenzie report, the well control 
rule, the cost of compliance, could cause a decline of 55 
percent in exploratory wells by 2030. I just say that for the 
record. Others may fuss with that.
    But at the same time, it is fair to say that there is some 
cost associated with the well control rule.
    That said, one of the concerns that has been raised with me 
regarding the well control rule is that the Bureau of Safety 
and Environmental Enforcement (BSEE) is promulgating this, and 
they are promulgating it, but it apparently violates a 
congressional mandate that specifically is the National 
Technology Transfer and Advancement Act, the NTTAA, which bars 
the use of government unique technical standards in lieu of 
voluntary consensus standards. Again, I have a document here 
that goes through the statement of it.
    Any thoughts about that? Because it does seem, what I have 
heard about the well control rule is being given kind of ex 
cathedra as opposed to from a voluntary consensus methodology.
    Secretary Jewell. I have never heard of the Act you 
referenced, but I am confident through our solicitors that 
everything we are doing in regard to the well control rule is 
within our rights and consistent with what we believe we must 
do for the safe and responsible development of offshore 
resources, particularly in the wake of the Deepwater Horizon 
spill.
    Senator Cassidy. It isn't insofar as--believe me, I care 
about the Deepwater Horizon. It is not insofar as regulations 
are not required but rather that BSEE is supposed to show that 
voluntary consensus standards are impractical. I am not sure 
that it is clear that the voluntary consensus standards are 
impractical, and I am not sure that it has been shown.
    So, it is not so much the regulation should not be 
promulgated but rather the technique should be first the 
consensus standards, and then only, again, my term, if you 
will, is ex cathedra being prescribed without the consensus 
standards being formed.
    Obviously, that might be something a little technical, but 
if you could address that for the record, I would appreciate 
that.
    Secretary Jewell. We are happy to follow up.
    Senator Cassidy. Related to that, and again on the well 
control rule, is that, clearly, if we are going to have an 
impact upon the ability of oil wells to be drilled, that is 
going to affect the energy supply in the United States. I am 
told that under Executive Order 13211, from May 18, 2001, such 
things require a statement of energy effects.
    BSEE has denied that there is an impact upon energy supply 
from these regulations, which seems a little crazy. But 
nonetheless, if they do, it means that they have another 
reporting requirement.
    Any thoughts about that? It just seems so self-evident that 
if you are going to have an impact upon the supply of oil and 
gas that you are going to have an energy effect. That may be a 
little technical for this conversation. I do not know if you 
are prepared to comment on that.
    Secretary Jewell. I will just comment briefly that the well 
control rule really codifies many of the practices currently in 
place in the Gulf that were addressed after the Deepwater 
Horizon spill. I do not support the notion that the regulation 
itself would impact energy supply. I am happy to get back to 
you for the record.
    [The information follows:]
    impact of the nttaa on the development of the well control rule
    BSEE's promulgation of the rule is consistent with the NTTAA's 
requirement that agencies use technical standards that are developed or 
adopted by voluntary consensus standards bodies rather than government-
unique standards, except where inconsistent with law or impractical. 
BSEE expressly proposed to incorporate the following voluntary 
consensus technical standards in its rule:

  --American Petroleum Institute (API) Standard 53 (Blowout Prevention 
        Equipment Systems for Drilling Wells);
  --American National Standards Institute (ANSI)/API Specification 
        (Spec.) 11D1 (Packers and Bridge Plugs);
  --ANSI/API Spec. 16A (Drill-through Equipment);
  --API Spec. 16C (Choke and Kill Systems);
  --API Spec. 16D (Control Systems for Drilling Well Control Equipment 
        and Control Systems for Diverter Equipment);
  --ANSI/API Spec. 17D (Design and Operation of Subsea Production 
        Systems--Subsea Wellhead and Tree Equipment); and
  --ANSI/API RP 17H (Remotely Operated Vehicle Interfaces on Subsea 
        Production Systems).

    The NTTAA and the associated implementing guidance in Office of 
Management and Budget (OMB) Circular A-119 permit an agency to include 
in its regulations a voluntary consensus standard ``in whole [or] in 
part . . . .'' (OMB Circular A-119, at p. 3). Thus, the NTTAA does not 
require that BSEE incorporate every provision of each standard. For 
example, BSEE has excluded from its regulations the API Standard 53 
provision that authorizes offshore operators to ``opt-out'' of the 
requirement to use dual shear rams for BOPs on floating facilities. 
BSEE believes that a decision to ``opt out'' should be based on a risk 
assessment subject to oversight.

    In addition, OMB explains that the NTTAA:

        [D]oes not preempt or restrict agencies' authorities and 
        responsibilities to make regulatory decisions authorized by 
        statute. Such regulatory authorities and responsibilities 
        include determining the level of acceptable risk and risk-
        management, and due care; setting the level of protection; and 
        balancing risk, cost, and availability of alternative 
        approaches in establishing regulatory requirements. (OMB 
        Circular A-119, at p. 25).

    BSEE's proposed variations from the industry standard do not 
indicate that the bureau is seeking to use government-unique standards 
in its regulations. Rather, BSEE's non-incorporation of portions of 
industry standards is fully consistent with the NTTAA because OMB has 
clarified that agencies may incorporate consensus standards in whole or 
in part in their regulations. Additionally, OMB has clarified that the 
NTTAA does not preempt or restrict an agency's authority to make 
regulatory determinations about the level of acceptable risk and risk-
management, and due care, setting the level of protection, and 
balancing risk and cost. BSEE's incorporation of less than all of API 
Standard 53 is based upon these principles and is not inconsistent with 
the NTTAA.

    The potential impacts of the well control rule on oil and gas 
supplies:

    BSEE received comments that the initial Regulatory Impact Analysis 
did not account for asserted impacts of the proposed regulation on 
national energy security. These comments appear to assume that this 
rulemaking will cause a reduction in domestic oil production, thereby 
implicating the requirements of Executive Order 13211 applicable to 
agency actions that significantly affect the Nation's energy supply, 
distribution, or use. These comments suggested that the rule would 
weaken national energy security by reducing domestic oil production and 
increasing reliance on foreign oil. BSEE does not agree with this 
comment. BSEE's own analysis indicates that the net effect of the final 
rule on the oil and gas industry would be positive (i.e., the potential 
benefits exceed the potential costs). This does not support the 
assumption that the rule would precipitate a reduction in domestic oil 
production. The regulations consist of an envisioned level of safety 
derived from numerous post-Deepwater Horizon studies and existing 
industry standards. The regulations also allow for alternative methods 
to achieve the envisioned level of safety. There is no reason to 
conclude that this approach will adversely affect U.S. energy 
production. Technological advancements and variable market factors, 
such as the price of oil, which are unrelated to the requirements of 
the proposed rule, are likely to be the most important factors to 
affect future domestic oil production.

    Senator Cassidy. Please. And I will say that, speaking to 
folks, they actually feel like the initial rules that came out 
after the Macondo were actually fairly reasonable. It is those 
that were proposed that would go beyond it that are again being 
given almost, in effect, by fiat, not with consensus standards.
    According to at least one consultant, it is going to have a 
significant impact upon the drilling of exploratory wells.
    So we will fashion these for the record, and look forward 
to your reply.
    Secretary Jewell. If I could just say briefly, there was a 
lot of industry input after the draft rule. Those have been 
taken into account, and I believe you will see significant 
changes from the draft rule to the final when it is released.
    Senator Cassidy. Sounds great.

                         LAND BUY-BACK PROGRAM

    On the Land Buy-Back Program, what is the cost basis for 
the sale of the land? Does that include the mineral rights that 
might be beneath it, the grazing rights, et cetera?
    Secretary Jewell. Mike.
    Mr. Connor. We are not typically acquiring land through the 
Land Buy-Back Program with mineral rights on it. We are right 
now excluding----
    Senator Cassidy. I thought this is where the Indian tribes 
were allowed--the Native American tribes were allowed to buy 
land back from the United States. Did I misunderstand that 
program?
    Mr. Connor. This is one where resources are provided to 
acquire these fractionated interests in lands and restore to 
tribal ownership. So there are significant tracks out there 
that do not have mineral interests. We are doing appraisals of 
those lands and restoring those to tribal----
    Senator Cassidy. I see. So, those typically do not have 
mineral and grazing rights associated with them.
    Mr. Connor. That is correct.
    Secretary Jewell. Just to clarify, they are not Federal 
lands. Typically, they are in fractionated private ownership 
consolidated for the tribes.
    Senator Cassidy. Okay. I yield back. Thank you.
    Senator Murkowski. Senator Tester.
    Senator Tester. Thank you, Madam Chair.

                    LAND AND WATER CONSERVATION FUND

    I, too, want to thank Senator Cassidy for his courtesy. 
That happens seldom around here, so we thank you for that very, 
very much, even though I was not the beneficiary directly.
    Secretary Jewell, thank you for being here. I want to talk 
about the Land and Water Conservation Fund for a second. We 
have been over the numbers before. You know the impact it has 
on Montana's overall economy--$5.8 billion in consumer spending 
in a State of 1 million people. Seventy percent of Montana 
businesses list public access as a major reason they do 
business in our State.
    In 1978, this fund was funded at $900 million--1978, the 
year I graduated from college, a long time ago. Now we are 
finally back up to $900 million, $475 million discretionary, 
$425 million mandatory. I appreciate that.
    Back in 1978, it was supposed to be funded by offshore oil 
revenue. When we had this debate on the Senate floor, people 
said there was lots of money in this account, lots of money in 
this account. It was my understanding it flows into the general 
fund.
    The question for you is, do we need an offset for the Land 
and Water Conservation Fund? When it was set up in 1978, it was 
set up to be at $900 million, and somebody took that money and 
we never heard a word about offset back in those days.
    Secretary Jewell. There are people here with much more 
history on this body than I have. It was authorized at $900 
million. It has fluctuated wildly, and less than half, I 
believe, has actually been appropriated, and the rest has been 
used for other purposes.
    Senator Tester. Was it appropriated at $900 million back 
then, do you know?
    Secretary Jewell. It was.
    Senator Tester. And it has been appropriated at that level 
a few times since then.
    The reason I bring this up is because in my opinion at 
least these places are not going to be around forever. They 
might not be around in 10 or 20 years. When you are looking at 
proposals, what are you looking at when you utilize this fund 
money?
    Secretary Jewell. There is a stateside program, which is 
prioritized by States. That is very, very important. On the 
Federal programs, we really have a list that is far longer than 
what we are able to do for things like sportsman's access, 
critical parcels between pieces of public land that promote 
access, inholdings where it is costing us money to provide 
rights-of-way that would actually reduce our costs. There are a 
number of different things.
    Senator Tester. Does the $900 million bring you up to a 
point where you can address all of the requests?
    Secretary Jewell. No.
    Senator Tester. Half the requests?
    Secretary Jewell. No. It would just enable us to make 
progress. There is a much longer list of requests.
    Senator Tester. I appreciate you trying to get back to the 
$900 million figure. It actually should have been indexed so it 
would be more than that now, in my opinion. These are special 
ecosystems that are not going to be around much longer.

                      COAL LEASING PROGRAM REVIEW

    I want to talk about the Federal coal program for a second. 
I believe in transparency. I believe in a fair return to the 
taxpayer. These public lands are owned by every citizen in this 
country, contrary to what some might say.
    I think that it is critical that we get a fair return on 
those coal dollars. I think, and correct me if I am wrong, the 
last time there was an assessment done on Federal land, coal 
leasing was in the early 1980s. Is that correct?
    Secretary Jewell. It was 30 years ago. It was 1986.
    Senator Tester. Nineteen eighty-six, the year that I bought 
a brand-new Chevy pickup four-wheel drive, three-quarter ton 
for $12,000. That same pickup would cost around $38,000 now, by 
the way, because I am looking to trade it off.
    But that aside, can you tell me, I think it is a good idea 
to do the research and it is a good idea to make sure we are 
getting a fair return, but this cannot go on forever. I mean, 
it has to be a date certain.
    I have heard 3 years. Is 3 years a reasonable amount time 
to get this survey done? And, if it is, would you support 
legislation saying that?
    Secretary Jewell. I would support legislation putting a 
date certain. Three years, we believe, is as fast as we could 
do it. The program review done in the 1980s was longer than 
that. The pause on coal leasing extended longer than that, as a 
result.
    I will be putting in place a date certain timeline when I 
leave, but that could be undone by a successor and I would 
welcome a clear timeline so we can complete this in a timely 
way.

                              GRAZING FEES

    Senator Tester. Okay, Madam Chairman brought up the Federal 
grazing fee. It was raised up to $2.11 in this budget, correct 
me if I am wrong, maybe it was not. Maybe it was done before 
that.
    The point I want to make is this. There are some who want 
to transfer our Federal lands to our States. The amount of 
grazing fees that are charged by the States are much, much, 
much higher. And the private grazing fees are much higher than 
the State fees.
    Could you talk about, because I do not know that a lot of 
people are talking about this--we have more cattle in Montana 
than we have people, by the way. Can you talk about the impact 
transferring these Federal BLM or Forest Service lands to 
States would have on grazing fees?
    Secretary Jewell. The impact would be dramatic. The Federal 
Government charges $2.11, which was set by Congress many years 
ago. While our budget asks for an administrative fee of $2.50, 
right now we cannot even cover 35 percent of our costs of 
administering the program.
    Just to give you some examples, in your home State, the 
State charges $19.57 compared to the Federal Government's 
$2.11. In Colorado, it varies between $9 and $15.25. In 
Wyoming, it is $6.14. On private lands, it is $21, 10 times 
what the Federal Government rate is. That is pretty consistent.
    I would say that for the grazing interests, people are 
getting an incredibly good deal on BLM lands right now. The 
increase we are talking about still would not even fully cover 
our costs just to administer the program.
    Senator Tester. Thank you very much. I look forward to 
working with you on this budget.
    Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator Tester.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Good to see you again, Secretary Jewell.

                      COAL LEASING PROGRAM REVIEW

    Last week in the Energy Committee, I mentioned my concerns 
about the programmatic review and the pause on coal leasing. It 
is very troubling for many back home in Montana and for the 
Crow tribe. I think we need to be careful to not make producing 
Federal coal completely uneconomical.
    That is a reality that is dangerously close under the 
current administration's moratorium on coal leasing, and if not 
inevitable, if our States and I think our tribes are left out 
of the process.
    At last week's hearing, I asked about gathering input from 
the States and the tribes, and you mentioned six listening 
sessions the department has had, and that there is a very open 
process. Several tribal members and others who rely on these 
coal jobs to provide for their families for the revenues, for 
the general fund, expressed strong concern regarding potential 
administration actions at the listening session that was 
actually held in Billings, Montana. In fact, most present there 
expressed concern.
    Yet the administration is moving forward with this 
programmatic review and a coal leasing moratorium. Quite 
frankly, I think there needs to be something more formal to 
allow the States and tribes and other stakeholders a more 
predictable and impactful seat at the table, like the Royalty 
Policy Committee, which actually you allowed to lapse in 2014. 
I think Congresswoman Lummis mentioned that yesterday in a 
hearing.

                        ROYALTY POLICY COMMITTEE

    The question was, why did the agency allow the proposed 
rulemaking initiative to move forward when the Royalty Policy 
Committee, which was important--it has members from the States, 
from the tribes, from non-governmental organizations (NGOs), 
from industry, the committee lapsed in 2014, a very important 
voice in this process. Why did we go forward with rulemaking 
initiatives when you allowed that committee to lapse?

                              COAL PROGRAM

    Secretary Jewell. Let me say a couple things, if I may. 
First, I will have to look into the committee lapsing, but 
royalty rates on the Federal coal program have not changed in 
30 years, so I am not sure of the function of the committee.
    There are minimum royalty rates set, and then a lot of 
exceptions that actually reduce the royalty rates. We have seen 
a real decline in revenue coming in from the coal program, and 
the decline in production is really due to economic factors 
like the switch to natural gas and a change in the interest in 
exports of coal, which I know the Crow tribe was interested in.
    The bonuses over the last 10 years were about $.875 per 
ton. And in 2015, $.315 a ton, so the price is collapsing on 
coal due to market conditions.

                        ROYALTY POLICY COMMITTEE

    Senator Daines. Right. I understand the dynamic nature 
certainly of what is going on. I guess, it makes it in my 
opinion even more important--why wouldn't we want to have the 
States' voice, the tribes' voice, industries' voice, NGOs' 
voices there in a more formal process as far as their input 
goes, which was a key part of this Royalty Policy Committee, 
which lapsed in 2014?
    Secretary Jewell. I just had some more recent information 
handed to me.
    The Royalty Policy Committee last met in 2008. The charter 
was renewed in 2010, but did not meet because of other events--
Deepwater Horizon, after which the Minerals Management Service, 
was reorganized and created the Office of Natural Resources 
Revenue was created. The Royalty Policy Committee was set up to 
expire in 2012.
    It was renewed as a potential vehicle for the Extractive 
Industries Transparency Initiative multi-stakeholder group, but 
the most recent charter expired in 2014, and our Office of 
Natural Resources Revenue did not feel it made sense to 
reestablish it.
    But we are happy to look into that more for the record. 
That is as much information as I have right now.
    Senator Daines. The concern I hear back home is that we 
want to make sure the States' voices are heard in that process, 
that the tribes' voices are heard in that process, the industry 
voices are in that process, as well as NGOs. I think the stakes 
are perhaps much higher now than they might have been in the 
past and why it is so important.
    I believe this policy needs to be reinstated. And I am 
concerned why rulemaking is going forward here without having 
that important body functioning, given I think the dynamics and 
the stakes are a lot higher today than they might have been in 
the past.

                      COAL LEASING PROGRAM REVIEW

    Secretary Jewell. Just to adjust a little bit, rulemaking 
is not what is happening. It is a programmatic and 
environmental impact statement, which is a review of the 
overall program. We absolutely will be listening to industry. 
We will be listening to tribes. We will be listening States, 
local stakeholders, local communities. People impacted by this 
on the ground will be a very robust part of this process, I 
promise you.
    Senator Daines. I appreciate Senator Tester's concerns 
voiced a little earlier about trying to get a 3-year date 
certain, in terms of this programmatic review. I have an 
amendment that I am trying to work to get bipartisan support on 
that to, again, deliver some certainty here in what is very 
much an uncertain process in many regards.

                          TRIBAL CONSULTATION

    I want to pivot over and talk about the meaningful 
consultation with Indian tribes. The Crow tribe I do not think 
believes they have had meaningful consultation.
    What does meaningful consultation look like to you, 
Secretary Jewell, because they are saying that they do not 
really feel like they have had a meaningful consultation.
    Secretary Jewell. I have not met with the Crow for probably 
1.5 years, maybe a bit more. But, if they feel the consultation 
they had is not meaningful, please have them let us know, and 
we will make sure we are responsive.
    I would say meaningful consultation is not necessarily 
reaching an agreement on a position a tribe necessarily wants, 
but it is making sure their position is known and heard. We 
have been committed to that throughout this administration.
    Senator Daines. As you know, their unemployment rate today 
is about 40 percent. The loss of these jobs takes the 
unemployment rate to north of 80 percent. It is devastating for 
the tribe.
    Secretary Jewell. I understand, and I know you understand, 
too, that the economics of coal are changing dramatically. What 
we are looking to do is not the cause of that. There is a 
multifaceted global market for coal that is, in fact, going 
down dramatically.
    Senator Daines. I would argue that the EPA power plan is 
having a tremendous impact right now in creating uncertainty 
there as well.
    I understand the economic dynamics. The EPA power plan is 
probably the single most devastating impact right now on the 
coal business up there in Montana. Thank you.
    Senator Murkowski. Senator Daines, I appreciate you 
bringing up the issue, though, of tribal consultation. 
Secretary, I am going to turn to Senator Feinstein, but I would 
just like to put you on notice.
    I have a large delegation of Alaskan Native leaders that 
are in Washington, DC, this week. Every single one of them is 
bringing up with me the breakdown that they are seeing with 
tribal consultation with the agency. So I will put that on your 
plate as well, and I can speak with you about specifics.
    Senator Feinstein.

                                 WATER

    Senator Feinstein. Thank you very much, Madam Chairman.
    I just want to say, it is fortuitous you are also chairman 
of the Energy Committee, and the subject I want to bring up 
today is a bill that we have submitted for your consideration, 
and that is a California water bill, which would hopefully be 
part of a Western water bill.
    I cannot express too strongly how serious this drought is 
for California. A lot of people have counted on El Nino. It may 
or may not bear real fruition, but the State has really had 
dramatic problems. Let me just give you a few.
    We have 69 California communities that face significant 
water supply and water quality issues. In other words, most of 
them do not have water. We have lost $2.7 billion from the 
drought in just 2015. More than 1 million acres of California 
farmland have been fallowed in 2015. The drought has led to a 
loss of 35,000 permanent jobs in the State.
    Land subsidence in the southern Central Valley has caused 
large areas to begin to sink because of overpumping 
groundwater, and it is sinking as much as 2 inches per month. 
As a result, bridges, aqueducts, and roads have begun to crack.
    So, I would like to ask a couple questions of the Deputy 
Secretary on the subject. Deputy Secretary Connor, is it true 
that we have worked closely with Reclamation and your office in 
the drafting, redrafting, and amending of this bill?
    Mr. Connor. It is absolutely true.
    Senator Feinstein. Deputy Secretary Connor, is it true that 
every amendment or suggestion, and there have been many, made 
by Reclamation and your office has been worked through and 
incorporated into the bill?
    Mr. Connor. Senator, a great many. I would hesitate to say 
all, but I think for the most part, most of the very 
substantive ones have been addressed. I believe there may be 
some technical issues that we still are discussing. But yes, in 
general, I agree with your statement.
    Senator Feinstein. Okay, I would like to know, not now, but 
what those technical issues are.
    Do you believe that the bill, if enacted, would increase 
operational flexibility and increase water supply during this 
drought?
    Mr. Connor. I agree, yes, on both counts.
    Operational flexibility in the bill incorporates provisions 
that reflect the flexibility we have tried to maintain in our 
water operations, and that we have over the past couple years 
developed, consistent with our drought contingency plan.
    It institutionalizes those provisions. It provides greater 
resources for monitoring activities that greatly help in our 
operations. It facilitates transfer. I think in the midst of 
this drought, it does increase flexibility and has the capacity 
to provide for more water. I would say, in the long-term, it 
absolutely, unquestionably will provide for more water supply 
reliability for California.
    Senator Feinstein. Thank you very much. I appreciate that.

                    FUNDING FOR CALIFORNIA MONUMENTS

    Madam Secretary, if I may, I want to thank you for your 
efforts related to the President's designation of three new 
national monuments in the California desert. The California 
desert has been a very big deal for me. We have done two desert 
bills. As a city girl, the California desert is such a 
wonderful place to visit. At night, the shadows, the dawn, the 
flora, the fauna, the petroglyphs, it is just an incredible 
place. So I am very delighted to see these monuments.
    If I understand your budget request, it includes $6.5 
million for the BLM office in California that is responsible 
for managing the national monuments. That is an increase of 
$1.9 million when compared with last year.
    While I understand the monuments were designated after 
submission of the President's fiscal year 2017 budget, do you 
believe the additional $1.9 million will be enough for BLM to 
manage the 1.7 million acres of land it is now responsible for?
    Secretary Jewell. I am just going to do a high level 
answer, and then turn it to Kris for the direct answer.
    I want to say a profound thank you for your work on the 
drought legislation--hard, hard work--and also for your 
tireless work over many, many years on the protection of the 
California Desert.
    Senator Feinstein. You might be interested to know, Madam 
Secretary, we have done 26 drafts of that legislation and made 
41 amendments to it, as the time has gone on, and as we have 
talked and consulted with others. So, that has been 2 years of 
work, and I might say, much harder than the desert bill.
    Secretary Jewell. It was very constructive. And the 
subsidence you pointed out is something few people know about.
    We have increased money in the budget overall for the 
National Landscape Conservation System in BLM that does include 
the California deserts. There is not specific money in the 
budget for them beyond an allocation for that, because of the 
timing of the monuments. We will be doing a lot of planning 
associated with that, and future budgets will reflect that.
    But, Kris, do you want to jump in?
    Ms. Sarri. Sure.
    Senator, thank you very much for the question. As the 
Secretary mentioned, there is an increase for BLM's 
conservation lands. We are up to $50 million for the request. 
That does include the $1.9 million increase for the California 
areas. BLM thinks that will be sufficient if they get the 
budgetary increase to take care of the new monument.
    Senator Feinstein. Thank you. That is very helpful. I 
appreciate it.

                            ABANDONED MINES

    Just a quickie, one of the prior Senators mentioned the 
problem with abandoned mines. It is a serious problem in our 
State. We have some 24,422 abandoned mines. According to BLM, 
there are 1,672 known mine sites on or near BLM property. BLM 
estimates that there were an additional 22,730 sites that have 
yet to be even inventoried.
    BLM says that will require $118 million just to complete 
the inventory. That is an enormous cost just to inventory.
    My question is, would you take a look at that cost? I am 
concerned about these. I know we get $1 million, $2 million a 
year to deal with these, and some have been boarded up where 
people can fall into them. But I am very concerned that we 
could still have some kind of a catastrophic event.
    So, if you would take a look, BLM has requested $20 million 
in discretionary funding for its nationwide Abandoned Mine 
Lands program. You propose $1.8 billion in mandatory funding 
from a new fee that most people think will not go anywhere in 
Congress.
    So, if you have some suggestions, Madam Secretary, I would 
love to hear them.
    Secretary Jewell. I will just say thank you for pointing 
out this issue, as did Senator Udall. He does have some 
legislation he is proposing.
    This is an enormous problem. We will certainly look into 
the cost and get back to you on the record for that, because I 
do not have a great answer, except that I know that just to 
inventory across landscape is hundreds of millions of dollars. 
That is because these are remote sites. To inventory them, we 
have to understand what is happening, and the features within 
those sites. That is very labor-intensive work.
    But we will look into that and be happy to work with this 
subcommittee and others on bringing a long-term solution.
    Senator Feinstein. Let me ask you just quickly this 
question. To inventory them first, so much money, could there 
be another criteria for selecting abandoned mines to take care 
of? It seems to me those would be the mines where you have 
hikers, visitors, where there is the most jeopardy of an 
accident. Could it be done on that basis?
    Secretary Jewell. I will talk to the BLM and ask them. I am 
fairly confident those are the ones they have prioritized 
within the National Park Service, those that do have closed 
visitor access. But we will check into that, and I will get 
back to you on it. Thank you very much.
    [The information follows:]
                          abandoned mine lands
    The BLM confirms the estimated cost of completing an inventory of 
abandoned mine lands in the State of California is $118 million. The 
BLM also confirms for both conducting inventories and reclaiming AML 
sites, priority is given to areas and sites with high visitation or 
near population centers.

    Senator Feinstein. Thank you, Madam Chairman.
    Senator Murkowski. Senator Blunt.
    Senator Blunt. Thank you, Chairman.

                             ST. LOUIS ARCH

    Secretary Jewell, I want to thank you for mentioning the 
arch in your written testimony. It is one of the very first 
projects, and maybe in terms of private funding the largest 
project in terms of local funding that is going into that 
partnership.
    It does seem to me that we have a real opportunity there 
and in other places to really usher in what I believe is your 
vision of the second century of the Park Service. I would say 
that I hope it would not hurt his reputation in the service, 
but the new regional director, Cam Sholly, appears to fully 
understand the importance of setting this model. We are 
enjoying working with him, as, more importantly, the people 
locally are enjoying working with him.
    We were able to get some language in the omnibus 
appropriations bill. Chairman Murkowski supported that 
legislation that just would help attract private dollars.
    What that language does is direct the Treasury Department 
to invest the dollars privately raised in interest-bearing 
accounts. I know in the case of the arch the goal is to raise 
$29 million of endowment funding. I would hope the endowment 
funding and any future funding raised for that and other 
projects benefits from that new sense of direction to the Park 
Service and, more importantly, to the Treasury. I do not think 
the Park Service ever resisted the idea that private money 
should actually benefit the project it had been raised for as 
opposed to any interest going into the general treasury.
    Secretary Jewell. We share a common interest in that. I 
have to compliment the St. Louis community; $250 million of 
private money raised for the CityArchRiver project, which is 
extraordinary.
    Thank you for your efforts, so that they could use the 
interest during the interim timeframe as opposed to going to 
the Treasury. That is very helpful. We will continue to 
advocate for that, broadly.

                 STE. GENEVIEVE SPECIAL RESOURCE STUDY

    Senator Blunt. Right. There is another study going on that 
should be released any time. I will just bring it to your 
attention to be sure that you spend a little time looking at 
it. This is on Ste. Genevieve, Missouri, which is just south of 
St. Louis on the Mississippi River.
    It is a French settlement that still actually has a 
substantial number of 18th-century French buildings in that 
community, some of which have been under the direction of the 
State parks system for some time.
    But my belief is that both the State parks system and study 
that the National Park Service is about to do will reach the 
conclusion that a better place to preserve that unique part of 
our history is probably as a unit of the National Park Service. 
I would expect that to come out any day. I hope you have a 
chance to look at it.
    Like I said, these are 18th-century structures west of the 
Mississippi River. A lot of them are the vertical log structure 
that was unique to the way the French were building housing 
compared to the horizontal structure that other people were. I 
am interested in that and hope you will be, too.

                      COAL LEASING PROGRAM REVIEW

    Just to follow up a little bit on one of Senator Daines' 
comments, on the 3-year date certain on the coal study, I 
actually do not know how much there is to figure out about coal 
that we do not already know. I was going to suggest that I 
thought 3 years was an excessive amount of time for that study.
    So, you hear that point of view, as well as just promise us 
that you will get it done in 3 years.
    I really think you should look at this and determine what 
you are going to know that takes 3 years as opposed to half 
that time or 2 years or sometime that is less than 3 years. I 
think the questions on coal have already been well asked.
    I will say that, in Missouri, we are 80 percent coal-
dependent for utilities. Ninety percent of that coal comes from 
the Powder River Basin. The fact that a taxpayer should get a 
fair return there is important, but it is also important in the 
other energy resources. While oil and gas on State and private 
lands have almost doubled between 2010 and 2014, there have 
been no changes, no appreciable change, on Federal Government 
lands.
    I do think return to taxpayers for what we can minimize the 
intrusiveness of in terms of oil and gas is an important 
return.

                             SOLAR PROJECTS

    I also know that on a significant amount of Federal land, 
over 30 solar projects have been approved since 2010. I am not 
opposed to solar at all, but if you are worried about impacting 
the way the landscape should look, or it would look if people 
were not involved in the landscape, I am sure 30 solar projects 
have more impact on that topic.
    And there is no Federal return, there is no taxpayer 
return, on solar. I am not objecting to that. I am not opposed 
to solar. I am not opposed to wind. I am actually truly an all-
of-the-above person.
    But if we are interested in fair taxpayer return, it would 
seem to me that we would be looking pretty aggressively at why 
we have 89 percent more production in State and Federal lands 
and essentially no more production on Federal lands. I will let 
you respond to that.
    Secretary Jewell. Let me just clear up one point. We do 
actually charge solar energy companies when they are leasing 
Federal land for solar, and for wind. There is a charge to 
them. Just as we are doing for offshore wind in the Atlantic, 
we are doing lease sales similar to what we do in the Gulf of 
Mexico for offshore oil and gas.
    Senator Blunt. Good. Would you provide me or the 
subcommittee how that works?
    Secretary Jewell. Yes, we are happy to.
    [The information follows:]

    Solar and wind energy developments are authorized under the 
authority of the Federal Land Policy and Management Act, which requires 
that the BLM generally receive fair market value for an authorization. 
The BLM has established payment requirements for solar and wind energy 
developments based off of comparable commercial practices from non-
Federal lands. The payments to BLM consist of both an acreage rent and 
megawatt (MW) capacity fee. The acreage rent is required annually each 
year, regardless of the operational status of the development, and is 
determined based upon the location of the development on the public 
lands. A per MW capacity fee is required annually at the start of 
energy generation of the development, and is determined based upon the 
development's capacity and efficiency of the technology. The annual 
payments may differ between solar and wind energy developments based 
upon the acreage encumbered, efficiency of the technology used, and the 
generation capacity for that development.
    The BLM has received increased payments for solar and wind energy 
developments since 2010, corresponding with the increasing number of 
rights-of-way issued. In 2010, the BLM received little more than $3 
million in payments, almost all of which was from wind energy 
developments. In 2015, the BLM received over $15 million in annual 
payments for solar and wind energy developments, of which over $10.5 
million were annual payments for solar developments, compared to $4.5 
million for wind energy developments. In addition to the annual 
payments, the BLM may also hold auctions for solar developments in 
designated areas. Such auctions are held infrequently; the most recent 
was held in 2014 for lands in Nevada. The BLM received over $5.8 
million in bids for the parcels auctioned. Both the bonus bid revenues 
and the required annual rental payments are returned to the Treasury.

    Senator Blunt. If that is a one-time payment or an ongoing 
payment, as you would have from production from other 
facilities. I would like to see that.
    Secretary Jewell. Yes, we are happy to do that. It is an 
ongoing rental payment. There is a bonus paid upfront, and then 
there is an ongoing rental payment. I think it is per acre or 
per tract, but we will get back to you on that.

                      COAL LEASING PROGRAM REVIEW

    Also, just to point out, because I had not said it earlier 
today, on the programmatic EIS for coal, it actually is 
complicated. There are a lot of different interests at stake 
and a number of different States at stake. There is 
metallurgical coal. There is steam coal.
    We do believe, based on how long it takes us, for example, 
to do a programmatic EIS on an offshore leasing program, that 3 
years is a pretty expedited timeframe.
    I will be not in this job, clearly. That will change in 
about 11 months, maybe we're down to 10.5. We do have 20 years 
of supply of Powder River Basin coal, Federal coal, under lease 
to companies already. We do have emergency provisions in the 
pause that we put on the leasing program during the PEIS to 
allow companies to continue to mine and to get a permit, if 
their mine is at risk of closing because of the pause or if a 
coal-fired power plant is at risk of closing because of the 
pause. We also grandfathered projects that were nearing their 
completion.
    So we do not believe there will be disruption in the supply 
of coal or to the jobs.
    Senator Blunt. Let me make one point there before the end 
of my time, and we are at the end of my time, but I noticed 
last time was little extensive too.
    How long the study would take if the study hadn't put long-
term Government program in abeyance until the study was over, I 
think that is two different questions. Patriot Coal in St. 
Louis just went into bankruptcy. Shortly after they went into 
bankruptcy, as I understand it, I have not talked to them, but 
everything I have read about this would indicate that one of 
the things they thought would bring them out of bankruptcy was 
that they were right at the end of the permit process to get 
access to some coal mining area that they hadn't previously 
had.
    That is now postponed until the study is over. I do not 
know what impact that is going to have on the company, but I 
assume it is significant. They, as many others would have, 
would have pursued what they understood to be Government 
policy, which just suddenly stopped so the Government can 
figure out what they were doing. It does seem to me the 
Government can figure out what they are doing without 
necessarily stopping everything we have been doing for a long 
time.
    Thank you, Chairman.
    Senator Murkowski. Senator Merkley.
    Senator Merkley. Thank you, Madam Chairman.

                    MALHEUR NATIONAL WILDLIFE REFUGE

    And thank you, Madam Secretary, for being here and helping 
us understand a variety of things.
    When you started out your commentary, you mentioned Harney 
County and Malheur Refuge. That has been a traumatic experience 
for Oregon. We are hoping to work with the Department of 
Justice in terms of some compensation back to the completely 
overstrapped local system of justice that was dealing with 
that, in partnership with FBI.
    But also the Burns Paiute Tribe, and this would be more 
relevant to Interior, had to incur a lot of increased costs and 
damage to sacred sites. It is still being evaluated.
    Is it possible that the BIA could assist the tribe in some 
of these expenses that they are going to incur?
    Secretary Jewell. It is certainly something we would be 
happy to look at. I know that the FBI left recently, and we are 
just now doing an inventory of the damage. But certainly, we 
can work with the Bureau of Indian Affairs (BIA) if there are 
costs incurred by the tribes in addressing that.
    I did meet with the tribes on the phone beforehand. I did 
meet with Judge Grasty from the county recently in my office. I 
will be making a trip there when the time is right to visit. We 
will make sure we encompass the tribes and I engage with the 
BIA as well.
    Senator Merkley. Thank you. I really appreciate that. I 
know the tribe appreciates that as well.
    One of the ironies is that that particular county where the 
occupation occurred has had some terrific successes on 
collaboration, the types of successes that we all say need to 
happen through dialogue and cooperation and sharing 
perspectives and so forth, one including sage-grouse 
conservation, another being the Malheur Refuge itself, 
management of the refuge.
    Judge Grasty, who you mentioned, has thought that, given 
their successes in Federal-county collaboration, this would be 
a very good place to have a center that helped advance that 
type of collaboration, both from the local experiences, but 
bringing in the issues from throughout the West.
    So, I think it is a terrific idea. There are tensions that 
certainly are natural between a longstanding landlord, the 
Federal Government, and a longstanding ranching and grazing 
tenants, and issues over the use of the land. And having a 
center to facilitate collaboration, it seems like a pretty cool 
thing.
    Any chance we could get some support for that idea from the 
administration?
    Secretary Jewell. This is a new concept I have not really 
considered, so we would be happy to consider it.
    I will say what happened in advance of the occupation of 
the refuge and the cooperation that has happened throughout 
Oregon with not just our own agencies, but also the Natural 
Resources Conservation Service has been extraordinary. I think 
there are models there to learn from.
    I would hope it will set a model for every office--Fish and 
Wildlife Service, BLM--working cooperatively across the 
landscape. But we are happy to do give that consideration, and 
I will chat with Judge Grasty the next time we talk.
    Senator Merkley. Thank you very much. I appreciate that.

                                KLAMATH

    I also appreciate the administration's support for the 
Klamath settlement efforts. We had substantial development with 
the process of decommissioning the dams being taken offline 
and, therefore, removing some of the obstacles. There is still 
a lot of work to be done to capture through legislation the 
water certainty for the irrigators, the land for the Klamath 
Tribes, habitat restoration, and so on and so forth. You have 
been a great partner.
    Can we continue to ask you to assist us?
    Secretary Jewell. We absolutely will be there. We know 
there is a legislative fix that is needed to move this forward, 
and we are fully supportive.
    Senator Merkley. Thank you. I appreciate it.
    And there was, by the way, $3 million appropriated in 
fiscal year 2016 to support the agreements, specifically 
habitat restoration. Because the agreements were not concluded 
or the legislation was not concluded, we just want to try to 
make sure that the $3 million actually does get spent on the 
habitat restoration efforts, so it would be helpful to keep 
moving the process forward as much is possible.
    Mr. Connor. I believe that process will continue with 
additional funds that were made available from Reclamation with 
the spending plan. The upper basin agreement with the Klamath 
Tribes is still in effect, and there is some restoration 
activity that is contemplated as part of that agreement, and we 
want to carry forward with that.
    Senator Merkley. Great. Thank you. Thank you for all your 
assistance on this, Michael.

                      COAL LEASING PROGRAM REVIEW

    Turning to coal leasing, I think it flies to the top of the 
chart for questions that you have been asked. It shows how much 
different Senators care about this from substantially diverse 
perspectives.
    I certainly agreed with Senator Blunt when he was saying 
that we should be able to figure out the answer in a shorter 
period of time. To me, the answer is already obvious, but it is 
probably the opposite of what Senator Blunt might conclude.
    Currently, we have, I believe, in terms of leases, already 
granted about a 20-year supply of coal already leased out for 
extraction. Am I in the ballpark on that?
    Secretary Jewell. That is correct. It is 20 at current 
production rates, and production rates are declining, so it is 
likely more than 20.
    Senator Merkley. So we have a tremendous supply that 
already has been leased. And we also know that when you do a 
new lease, that lease might be exploited for decades 
thereafter. So if we do a new lease now--there are occasions 
where a lease has been exploited for 30, 40, even 50 years--we 
are essentially locking in a contract for many decades in the 
future. Am I still on track?
    Secretary Jewell. That is correct.
    Senator Merkley. So here is the thing, we are seeing the 
impact of burning fossil fuels all over Oregon from the growth 
of the pine beetle because winters are warmer and so damage to 
our forest.
    We have three of the worst ever droughts in the last 15 
years in Klamath Basin, a huge impact on agricultural families.
    The winter sports in the Cascades have declined as the 
snowpack has declined. The trout streams are getting smaller 
and warmer, which nobody who fishes likes to see smaller, 
warmer streams.
    Our oysters on the coast are having trouble reproducing 
because the ocean is more acidic, 30 percent more acidic than 
before the Industrial Revolution. If that is not a canary in 
the coal mine, I do not know what it is.
    So we have the knowledge, not just in some theoretical 
model in the future, but right now facts on the ground. We know 
there is extensive damage to our forestry, to our fishing, to 
our farming, to our natural resources. And therefore, why would 
we possibly do a new lease locking in more extraction and 
combustion decades into the future?
    So that is the conclusion I would come to. If the 
administration reaches the same conclusion, as you put it, 
before your time is up, I would love to see the coal leasing 
program ended.
    Secretary Jewell. All right. Thank you.
    Senator Merkley. Thank you.
    Senator Murkowski. Senator Udall.
    Senator Udall. Madam Chair, thank you very much.

                  NATIONAL PARKS DEFERRED MAINTENANCE

    Secretary Jewell, I am pleased to see that you have 
proposed a 9 percent increase for national parks, including 
major investments in construction and maintenance programs to 
address the estimated $11.9 billion maintenance backlog at 
parks nationwide. It is mind-boggling, that number.

                            CARLSBAD CAVERNS

    We have a particular issue with park maintenance in New 
Mexico I want to briefly raise. The public elevators at 
Carlsbad Caverns National Park have been out of service since 
early November, leaving visitors to hike in and out of the 
caverns if they want to visit.
    Obviously, the lack of elevator service creates a problem 
for visitors who have accessibility issues as well as a problem 
for the general public.
    I have had the chance to raise this issue with you 
personally. And you know how important it is to me for the Park 
Service to restore temporary elevator service at the park as 
possible and to come up with a plan to permanently upgrade the 
elevators. I appreciate you working with me on this to resolve 
this issue as quickly as possible and to ensure that the local 
communities know what to expect.

                    VALLES CALDERA NATIONAL PRESERVE

    I also would like to thank you for your strong support of 
the Valles Caldera National Preserve during its recent 
transition to become part of the national park system. I am 
also pleased to note that you have included $3.3 million in 
your budget request to continue funding for the preserve into 
2017.
    Now that you have visited, I know you will agree with me 
that the preserve is one of the crown jewels of the national 
park system. What makes it so special is not just a stunning 
landscape, however. There is recreation, hunting, fishing, and 
grazing at Valles Caldera. All those make it a vibrant park for 
New Mexico's community and for our local economies.
    That is why I am concerned to hear that the Park Service is 
still weighing whether to continue traditional grazing permits 
on the preserve for this upcoming season. The law that 
transferred the Valles Caldera to the National Park Service 
allows these longstanding permits to remain in place while the 
Park Service develops its long-term management policies. These 
ranchers deserve to know now that they can count on their 
grazing permits for the season.
    Can I have your commitment that you will work with me and 
other members of the congressional delegation who are also very 
concerned about this to resolve this issue quickly and avoid 
any further disruption to these traditional grazing permits?
    Secretary Jewell. Certainly, Senator, we will be happy to 
engage directly with you. The Park Service is well aware of the 
need to act fast on this.
    I will say there are some complexities, an endangered 
species, for example, that needs to be incorporated into their 
planning process, and figuring out the market rates for 
appropriate grazing fees. But we are very happy to work with 
your office to keep the priority high for the Park Service.
    Senator Udall. Thank you very much. I think on the 
endangered species issues, there are areas where there are not 
endangered species issues, and I think the park superintendent 
is very aware of those, and the local people on the ground.
    Another issue related to the transition of the Valles 
Caldera is the importance of continuing a multiyear stewardship 
contract with the Jemez Pueblo. This project supports vital 
landscape restoration work and jobs for tribal members.
    As you know, I worked to include $1.5 million in the 2016 
omnibus to support forest restoration projects at new parks 
like Valles Caldera. Could you tell me what work you expect to 
accomplish this year with the funding we provided? Is funding 
included in your fiscal year 2017 budget to continue this 
effort?
    Secretary Jewell. So the short answer is yes, funding is 
included. It is going to be used for thinning about 1,200 acres 
of forest. As we are both aware, they had devastating forest 
fires, and that is really important. So that will continue.
    Senator Udall. Great. Thank you very much for that 
response.

                          VENTING AND FLARING

    As you know, I am very supportive of the department's 
efforts to develop new rules related to methane venting and 
flaring. New Mexico's natural resources provide jobs and 
royalty payments that are an important part of our State's 
economy, but outdated requirements are resulting in over $100 
million worth of natural gas being wasted, which has cost my 
State $43 million in lost royalties since 2009.
    There is also a serious health component to this issue.
    I understand that you are now in the public comment period 
on the methane venting and flaring rule. Could you give us a 
sense of the timeline for the final rule? What are some of the 
issues you are hearing from industry that you believe will be 
addressed in the final rule?
    Secretary Jewell. At this point, the public comment period 
ends next month on April 8. So far, we have had two public 
listening sessions, one in Farmington, New Mexico, the other 
one in Oklahoma City. We will be taking input on all of those 
comments.
    I cannot tell you what all of them are because we have not 
analyzed them yet. I am sure you are aware of what some of them 
are, in terms of cost and methodology and the importance of 
doing this. But once we have all of those comments in, we will 
be happy to analyze them and factor that into the rulemaking.
    Senator Udall. Great, thank you very much.

                                  COAL

    I have a question here on coal, but that one is kind of 
like beating a dead horse. Senator Wyden and I have a piece of 
legislation on that, and I think I will submit that one for the 
record.

                     INDIAN EDUCATION CONSTRUCTION

    I am very pleased that this subcommittee was able to 
provide an 85 percent increase for Indian school construction 
and improvements in the 2016 omnibus. That amount includes 
funds to finish the schools on the 2004 school construction 
priority list. It also provides a down payment to begin work on 
new schools that the Bureau of Indian Education (BIE) is in the 
process of selecting. I am glad that you were able to include 
another $45 million for replacement school construction in your 
2017 budget.
    I know that BIE is currently considering applications for 
schools that want to be considered for the next round of 
funding. There are four schools in New Mexico that are 
currently competing for a place on the final list, and they are 
all very anxious to find out whether they will get selected.
    In addition, this subcommittee needs to know how the funds 
in your budget will be used so that we can support your efforts 
during the appropriations process.
    When do you expect to finalize your new school construction 
list? And what is your plan for providing the subcommittee with 
more detail on how year 2017 budget request will align with 
that list?
    Secretary Jewell. The Indian Affairs team is hard at work, 
and they are nearing finalizing the list. We narrowed the list 
down from many, many schools to 10 that submitted additional 
information, which has been received. It is being analyzed, and 
I would expect that sometime in the coming weeks to see the 
final version of the list for the new school construction.
    There are also replacement buildings, which would be 
considered afterwards.
    We are very happy to provide you with information on how 
the funding would be used. We are happy to work with the 
committee and provide you with an inventory of that.
    But as you pointed out, this is a much bigger issue than we 
have money in the budget to address. We can just begin to chip 
away at the list and work on stemming the increase in deferred 
maintenance.
    But we need a longer-term solution, as happened with the 
Department of Defense schools, to really address this long-term 
systemic problem, which is afflicting fully a third of our 
schools that are considered in poor condition, including a 
bunch of them in your State.
    Senator Udall. Thank you. I know you have a real passion 
for this.
    Madam Chair, I see I am well over time here. I do not know 
whether we are doing another round or not.
    Senator Murkowski. I have some more questions. We have 
given our colleagues some latitude here so they can move on to 
other things, but if we can continue for a little bit longer, 
that would be great.

                               MITIGATION

    Madam Secretary, I want to go back to some of the lands 
issues. Something that has caused a level of concern is where 
we are in this big discussion about mitigation.
    As you know, the President has issued this memorandum on 
mitigation, and then you have your Secretarial Order Number 
3330. I think these two issues are causing more questions than 
resolving any issues.
    Just a couple years ago, as we were dealing with issues 
within the National Petroleum Reserve, the concern was the 
metrics that were relied on to arrive at a $8 million cost for 
mitigation within the National Petroleum Reserve-Alaska (NPRA). 
BLM, at that time, had discussed a real rigorous understanding 
of how this impacted subsistence use. It seemed to so many who 
were observing that this was just kind of divined from 
different individuals, agencies, and that it had come to a 
point where it was, how much can we get? That is not a standard 
that anyone would suggest is reasonable.
    But the bigger question is whether or not there is 
authority to require mitigation for projects on public lands in 
the first place. When you move forward on natural resource 
development, responsible natural resource development by 
definition includes reclamation of disturbed lands and our 
Federal laws require that reclamation then occur. Laws that 
govern multiple use on public lands do not have this mitigation 
requirement.
    I led a letter that went out just about a week ago with 
about 18 other colleagues here in the Senate outlining a series 
of questions to DOI focusing on we are with developing this 
program guidance--not only for DOI but for all the relevant 
agencies that are involved.
    So a couple questions on mitigation. Can you provide a 
status update as to program guidance about the bigger point, 
which is what is the authority that the department has to 
require mitigation for projects on public lands in the first 
place? Additionally, the bigger problem and the consideration 
that we face in Alaska is that you have multiple agencies that 
have seemingly different standards or different approach to 
mitigation. As a consequence of the lack of certainty, 
operators are not even able to begin a project, because whose 
standards are we going to be looking to?
    So, a longer question that hopefully has a clear answer. We 
have not gotten the guidance that we have asked for.
    We are going to be having a hearing in the Energy and 
Natural Resources Committee on this within this month to 
hopefully gain more clarity. Can give me a little bit of 
guidance here from your perspective?
    Secretary Jewell. Let me do a high level answer and then I 
am going to turn it over to Mike Connor, who has worked on the 
details for me on this.
    First, we believe the individual, localized mitigation does 
not actually address sometimes the bigger issue that 
development has on the landscape. This is something that I 
looked at from day one.
    When you have the fragmentation of habitat, when you have 
road networks and so on, there tend to be impacts to the 
landscape, the animal migration patterns, and so on, that are 
not necessarily contained within the footprint of that area. We 
are looking at landscape-level mitigation, understanding what 
those impacts are.
    Good examples of that, I would say, in the National 
Petroleum Reserve in Alaska, understanding the caribou calving 
grounds, understanding the oil and gas development potential, 
understanding that if there is offshore development, how do you 
move that. All of those things were factored in.
    As a project gets done, there is now a greater 
understanding of what the impact will be. That is the whole 
concept of mitigation.
    Senator Murkowski. Can I interrupt on that? What you are 
describing is that it is going to be a case-by-case 
determination. How can you give some level of certainty then to 
anybody who is looking to develop a project, whether it is oil 
and gas or whether it is a new runway or whether it is a 
driveway? How can there be any level of certainty and 
understanding when everything is done on a case-by-case basis?
    Because what you described is going to depend on what is 
happening with the landscape around it. Every landscape is 
going to be different.
    Secretary Jewell. The intent is to bring certainty. Another 
example, the Desert Renewable Energy Conservation Plan, what 
are the areas that are set aside for development? What are the 
areas critical to conserve?
    So as this gets developed, the mitigation would be used on 
the area that is highest priority for conservation, not 
necessarily on that footprint. The overall intent, to bring 
greater certainty, not less.
    I am going to turn it over to Mike for the specifics on 
what he is working on.
    Mr. Connor. I think I would just continue along the lines 
with the view that the President's memo I think gets to the 
point you are trying to have us do, which is having more 
consistency across the agencies in developing our mitigation 
criteria and not doing it project-by-project, by doing these 
planning efforts, which I think have demonstrated they do 
facilitate permitting processes because they add more certainty 
as we work with companies.
    A perfect example is the Western Solar Plan and the Solar 
Energy Zones we did in Dry Lake in Nevada. We identified the 
corridors of development, and the appropriate mitigation 
standards, that should apply there. We worked with companies 
taking environmental analysis that used to take 18 to 24 months 
down to 6 months to complete those environmental analyses.
    I think the NPRA is a situation I am particularly familiar 
with having been involved in the discussions with 
ConocoPhillips. The mitigation was not pie-in-the-sky what can 
we get. It was very specifically related to the intrusion on 
the Fish Creek barrier. That was the issue we were discussing 
with ConocoPhillips. We talked about specific ways to 
compensate for that. We had a disagreement about methodology.
    Quite frankly, we all agreed there was a range of dollar 
figures we were talking about to compensate for that particular 
intrusion, and it could best be applied toward developing a 
regional mitigation plan with the affected communities, 
including the Alaskan Native communities. That is the process 
that is ongoing right now, which should add greater clarity to 
further developments in the NPRA, quite frankly.
    Senator Murkowski. I think what you established there is a 
precedent that basically says, if you want to operate within 
this area, you are going to pay, not mitigation--it is not 
being viewed as mitigation by those who are looking--a penalty. 
We would differ mightily in terms of the specific project with 
Conoco and whether or not that $8 million that was ultimately 
arrived at or settled upon was where it was started. We 
recognize that was not where the conversation started. It was 
being used more as a bargaining tool for Conoco to be able to 
move forward.
    So, again, we have a letter out there that we are looking 
for concrete answers on, and we will have an opportunity to 
have this before us in the Energy Committee to get a better 
understanding.
    This is a concern that, again, we are not talking just 
about development of oil and gas opportunities in my State or 
in others. It is the opportunity to advance any kind of a 
project, whether it might be an area for school or runway or 
what have you.
    I want to recognize that Senator Udall will have more 
questions, too, but let me follow on to a couple comments that 
were made by Senator Udall in his opening, and by Senator 
Feinstein.

                            ABANDONED WELLS

    Senator Feinstein was talking about abandoned mines, 
developing potential for an inventory. As you all know, legacy 
wells, which is horribly, horribly misnamed, are abandoned oil 
and gas wells in Alaska that were drilled by the Government and 
then just left in varying states of disrepair. We have been 
making some progress. We have identified the universe there in 
terms of the cleanup.
    To Senator Feinstein's point, when she talks about an 
inventory, I think we have established that at least in Alaska. 
You identify what it is that you have, now you have to 
prioritize how we are going to be spending the money. We were 
successful in getting $50 million, with helium funding last 
year.
    I appreciate the fact that we have a path, an action spend 
plan, for that $50 million. But my concern is that there is 
still going to be a significant number of wells that will need 
to be attended to when that fund is exhausted.
    You have included $3.8 million in this budget for next 
year. I understand that this is a budget for this year. But we 
are still hoping to get an understanding as to how we intend to 
deal with all of the Federal Government's obligations to clean 
up these wells up on the North Slope. Because if you are 
suggesting that it is $3.8 million this year, and perhaps a 
like amount next year, I am told we are looking at 30, 40 years 
to clean up these wells, if that is the case.
    Do you have an estimate of the likely cost to finish this 
environmental cleanup project, in both money and time?
    Secretary Jewell. I will give you the information I do 
have, and we will get back to you on the record for what I do 
not have.
    There are 136 wells, these legacy wells. Fifty were 
identified in 2013 as requiring remediation.
    Senator Murkowski. I want to make sure that we are both 
clear on that, because I have heard that there is still some 
disagreement between the State of Alaska and Interior in terms 
of whether or not some of these wells require that level of 
remediation. I understand what you are saying, but I want to 
make sure that we are in alignment between State and the 
Federal Government on what the level of responsibility is.
    Secretary Jewell. Okay. I am not aware of that dispute, but 
I will say, because of the work that you did with the Helium 
Fund, we will have 29 left requiring work at the end of 2016. 
We will have three to five wells we can do with what is in the 
budget for 2017, the Wolf Creek cluster. I think because they 
are together, we will be able to address that.
    That still will leave somewhere on the order of the mid-20s 
that need to be cleaned up. What I do not have is the estimated 
cost to do that or the amount of time it would take.
    Of course, we would welcome the opportunity to work with 
you on a more permanent funding solution for this, just as we 
would on abandoned mines, and just as we would on school 
construction. It is very difficult putting small amounts of 
money toward a program each year that is much larger than what 
we can address in the regular budget cycle.
    Senator Murkowski. Understood. Absolutely. But I think this 
is one of those glaring examples where our Federal Government 
is being absolutely hypocritical when it comes to environmental 
standards. In this case, it is the Government that has drilled 
wells, and the Government that has walked away. The Government 
acknowledges that it left a mess, and yet the budget does not 
prioritize that.
    Part of the problem is, unlike perhaps abandoned mines in 
California where you have a lot of people who are wandering 
around and hiking, the North Slope is a long way away, and 
there are not that many people on that North Slope.
    You and I both agree that we have a responsibility to clean 
up that land. We have a responsibility to those subsistence 
hunters and fishers up there who are worried about the 
contamination. Our Federal Government left a mess, and they 
have an obligation to clean it up.
    I am going to continue my push on this, and we need to be 
working together.

                           CONTAMINATED LANDS

    I also want to raise the contaminated lands issues. These 
are lands that have been conveyed to Alaskan Natives under the 
Alaska Native Claims Settlement Act that are separate from the 
legacy wells the Federal Government drilled.
    Here we have a situation where lands have been conveyed 
that were already contaminated. These are Native lands, given 
to Natives as part of a settlement.
    We have done an inventory of these lands. We have asked 
that inventory be updated. At the budget hearing last year, you 
said the survey was nearing completion, and that it would be 
soon released.
    We are still sitting here a year later. It still is not 
public. I am told by BLM officials that it will be released 
soon. But we were told it was going to be released last year.
    Assuming that this inventory is completed and will soon be 
made publicly available, I would like to have an assurance 
that, along with legacy wells, there is going to be an action 
plan from the Department of the Interior to accelerate the 
cleanup of contamination on Native lands that the BIA, the BLM, 
the Fish and Wildlife Service, the National Park Service, or 
the Bureau of Mines actually caused.
    I also need to know that there is going to be some level of 
coordination in terms of how we are going to clean this up, 
because there are other Federal agencies, that have 
responsibilities, whether it is DOD or FAA.
    Understanding how we are going to meet our Federal 
responsibility for this cleanup is something that we are going 
to continue to knock on your door, bang on the drum, raise our 
voices, because it is a responsibility that we have.
    Can you give me any updates on when we might see the 
inventory, the updated inventory?
    Secretary Jewell. The information I have says next month. 
That is the best I can do. I do not know why it has taken so 
long, but that is the best information I have at this point.
    Senator Murkowski. And that information will be made 
public?
    Secretary Jewell. I do not know.
    Do you know?
    Ms. Sarri. I will get back to you on that one after I talk 
to BLM a little bit more about it.
    [The information follows:]
                       alaska contaminated lands
    The requested report on Contaminated Lands in Alaska has been 
drafted and is currently in the review stage. It will be transmitted to 
the Committee soon. The BLM plans to publicly release the Contaminated 
Lands Inventory database. With the Committee's permission, BLM would 
also like to make the report public by posting it on the BLM Web site.

    Senator Murkowski. The first inventory was completed at the 
request of my father in the 1990s. It had a timeline to be 
renewed and updated frequently and prioritized. So 
``frequently'' has now turned into almost a decade.
    It is not just this administration's fault. If for some 
reason it is not going to be released next month, I would 
certainly appreciate a very detailed explanation as to why it 
is not, because you can count on me to continue to make a big 
stink about this.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.

                     REPATRIATION OF SACRED OBJECTS

    Secretary Jewell, an issue of serious importance for tribes 
in New Mexico is the repatriation of sacred objects back to the 
tribes.
    First, I want to applaud your recent efforts to work with 
French authorities to seek cooperation in these efforts. As you 
know, these items are not pieces of art to be sold. They are 
sacred objects that are deeply important for tribal identity. 
What's more, it is illegal to traffic these items within the 
United States.
    I think we need to be doing more to crack down on the sales 
of these priceless cultural objects. One idea I have heard from 
the Pueblo of Acoma is to establish an antiquities unit within 
the BIA to investigate these kinds of cases.
    I want to work with you to ensure that BIA and other 
bureaus within the department have the ability to put a stop to 
these illegal trafficking efforts.
    Can you elaborate on the work of the department in terms of 
bringing awareness to this issue and preventing tribal objects 
from being trafficked? And are there specialized law 
enforcement resources within the department able to handle 
these repatriation cases?
    Secretary Jewell. Senator, this is a significant issue. 
When I was in Paris as part of the climate talks, I met with 
the Minister of Justice for France, and I also met with the 
individual that administers the auction houses in France.
    They typically produce a catalog with a number of these 
items that are exactly as you described. They are not works of 
art. They are critical artifacts that were removed from the 
tribes for whatever means many, many decades ago and have been 
circulating in the art market. They do not provide sufficient 
time for the tribes to even know they are there, let alone take 
the kind of action the French authorities say they need.
    I was met with a very sympathetic voice in the Minister of 
Justice. Unfortunately, she just quit, so we will have to start 
over again with the next minister.
    I do think there was a path forward that we learned about, 
about the repatriation of articles taken in Nazi Germany from 
families at that time. That may be a path we can use.
    On the international market, I would say the State 
Department is a critical ally in this effort. They have the 
people that work the legal systems there. I would say that to 
dedicate someone from BIA's law enforcement to this is 
something that would have to come out of another area of BIA's 
law enforcement, so it is a trade-off, given the law 
enforcement challenges we have in Indian country.
    But I do think the BLM has some capabilities in this area. 
I know the State Department, Interpol, the international 
organizations do. It is on our agenda to raise awareness 
internationally to see if we can actually address this.
    I will also say we are not without fault. Our auction 
houses in New York City, for example, do trade in artifacts. 
And they may be those that are inappropriate to trade, and then 
we do not find out about it until too late.
    This is very, very important. The New Mexico tribes are 
quite active in this, but so are the Alaska tribes as well. It 
is important. And thanks for raising visibility.
    Senator Udall. Thank you for your efforts on that.

               BUREAU OF INDIAN EDUCATION REORGANIZATION

    As you know, we have had extensive discussions, and I know 
the chairman has also been involved, on this reorganization of 
the Bureau of Indian Education. And I understand the department 
is now moving forward with the first phase of proposed 
reorganization of the BIE, including the establishment of new 
educational resource centers that your 2017 budget anticipates 
additional changes to the bureau.
    This subcommittee supports your efforts to improve 
education for Native students, and we recognize that you are 
tackling some of the very tough issues as you overall the 
bureau. But I want to make sure that the reorganization is done 
right and actually leads to concrete improvements in the 
classroom.
    I also want to make sure stakeholders at all levels, from 
tribal governments to educators and parents, understand clearly 
what to expect from these changes. As part of the first phase 
of the reorganization you have proposed a number of staffing 
changes, including changes to the regional office in 
Albuquerque to create these new centers to assist BIE and 
tribally controlled schools.
    What is your timeline for staffing up these centers? And 
what services can schools expect to receive starting in the 
fall? And what is your plan to ensure that all stakeholders, 
including BIE employees whose jobs may be affected, know what 
to expect during the reorganization?
    There are other questions there that I will submit for the 
record, but I want to get an answer from you on those.
    Secretary Jewell. Okay, I am happy to give you a quick 
update. I will also say that taking on reorganization of 
something as storied, and not necessarily in a good way, as the 
BIE is, from a business person's perspective, unbelievably 
difficult over a multiyear period of time and extraordinarily 
difficult in the timeframe I have left.
    The goal is to set a path forward so we continue to make 
progress on Indian education reform. It is not all going to be 
done in 1 year.
    We have had multiple meetings with all employees. Those 
were held in February, and we outlined the whole process. On 
February 22, so just a week or so ago, we announced 65 vacancy 
announcements across the BIE. Some of them are vacant. Some are 
new positions. People will apply. Those positions will close on 
March 11, and we will begin filling the jobs in April. So, it 
is really a fast timeline.
    I would say what you will see in terms of near-term 
improvements, we have been working now for more than a year on 
professional development of teachers aligned with Common Core. 
We have been providing training for effective school boards, 
financial accountability training for school leadership, and 
then training for certain tribes that have wanted alternative 
accountability standards like the Miccosukee and Navajo.
    There is a lot of work going on. I personally met with 
leadership of the BIE to see how it is going. We have a lot of 
work to do, but I would say people understand the importance of 
this. People are now a bit more reassured all their jobs are 
not in jeopardy. We are working toward a common end, which is 
better education for these students and self determination in 
education by tribal communities that want to take control of 
the schools.
    So we continue to have an open door to any suggestions you 
have in this regard, but we are well on our way.
    Senator Udall. Thank you very much, and thank you for your 
hard work on that.

                    LAND AND WATER CONSERVATION FUND

    Since Senator Murkowski mentioned her father, just as a 
closing comment here, when we were talking about the Land and 
Water Conservation Fund, and Senator Tester asked a question, 
as you know, my father worked in the 1960s when he was 
Secretary of Interior to start the Land and Water Conservation 
Fund. He worked with Congress. He went down and I believe met 
with a Congressman by the name of Wilbur Mills from Arkansas, 
and they came up with idea of taking offshore oil and gas, 
knowing that these resources are limited, taking some of it and 
dedicating it to permanent protection of land.
    The original idea I think came from a national commission, 
a blue ribbon panel, an incredible panel headed I think by 
Lawrence Rockefeller and others that said, what do we need to 
do in terms of parks? The suggestion was from this commission--
these were people outside of politics--you should spend $1 
billion a year and everybody should know you are going to spend 
that and split it up between the State program, as you talked 
about, and the Federal program. And the reason you do that is 
everybody can plan. All these city councils and States and 
Federal Government and its agencies can all plan and look to 
see that money is there.
    As Senator Tester pointed out, we have now reached the 
point where we have authorized it at that level. The money is 
over there in the fund. But somehow we do not dedicate the 
resources there.
    So we are all trying to figure out how we got to this 
place. I know President Obama and you have encouraged us now to 
move forward.
    I thank very much, Senator Murkowski, for working with me 
on the increase that happened in Land and Water Conservation 
Fund. That was a good step. But we are not anywhere near where 
we need to be in terms of the original idea behind the Land and 
Water Conservation Fund.
    But thank you very much. I know she was trying to get out 
of here. We are running over here a little bit.
    Senator Murkowski. Thank you, Senator Udall.
    Yet one more reason why this energy bill is a good energy 
bill that we are going to try to get moved through the Senate, 
because we do have the LWCF piece in there that allows for 
permanent reauthorization. It does have some reforms in terms 
of reminding us of the significance of State-side LWCF at the 
same time we have Federal.
    Secretary, I know that you have to go. I have just a couple 
more questions and hopefully your answers will be yes and no.

                         ALASKA LAND CONVEYANCE

    I mentioned the land conveyance and reductions that we have 
seen in the budget, a 20 percent reduction from last year. I 
have raised the issue of the methodology for the survey. There 
is a peer-review that is going on. BLM has agreed to that.
    Can you commit to me that BLM will not act unilaterally to 
implement their preferred method of survey, if the State of 
Alaska formally objects, once that peer-reviewed process is 
complete? I just want to know that the State has been heard on 
this.
    Secretary Jewell. We absolutely are working closely with 
the State. I hope it does not come down to a veto of what we 
want to do. We are working now with the National Society of 
Professional Surveyors at the State's request.
    Senator Murkowski. Yes.
    Secretary Jewell. We are providing them with all the needed 
information. I think it is our collective hope they will come 
to a meeting of the minds, and it does not come down to the 
State saying this is not acceptable. I hope they can find 
something that both agree is acceptable.
    Senator Murkowski. We are going through that peer review 
process, so I think that is important.

                             TRIBAL COURTS

    I will submit for the record several questions, one on 
tribal courts. We were successful in getting funding for Public 
Law 280 States for the first time last year in the amount of 
$10 million. The President's request cuts this by $8 million. I 
am very concerned about that.

                           EARTHQUAKE HAZARDS

    We just sent a letter to you, the Alaska delegation, on the 
USGS earthquake program. I mentioned that to you. I would like 
assurances that any future summits or meetings you are 
conducting regarding earthquake preparedness at least include 
Alaska. Additionally, the earthquake monitoring cost-benefit 
study is being formulated, and I would like to see the status 
of that report. Can you let me know when we might see some of 
the findings?

                           BOTTLED WATER BAN

    I also want to raise the bottle ban on bottled water in 
parks, not the ban but giving parks the option to eliminate the 
sale of bottled water on a park-by-park-basis. We have asked 
for a report within the omnibus about the justification for 
making this determination. The report was due February 16. We 
have not gotten it. I would hope that you can let us know when 
you are expecting that report.
    I still have some concerns. We can sell bottled sugar water 
in the parks, but we cannot sell good glacier water. We are 
actually drinking Alaskan Glacier water here at the committee.
    I was contacted by the COO of Alaska Glacier Products. He 
is worried that he is not going to be able to sell his Alaska 
product in the Alaska park units. This concerns me.
    I do not know whether or not, for instance, Denali National 
Park is opting not to sell bottled water.
    I understand we are trying to eliminate the waste, but you 
are still allowing the waste from pop in our parks as well. Not 
every parent is able to bring or remembers to bring water 
bottles.

                             ALASKA MAPPING

    The last thing that I am going to raise is where we are on 
Alaskan mapping, the Alaska Mapping Initiative, improving our 
topographic maps for the State.
    I was present at a celebration in Alaska last summer where 
we celebrated 55 percent completion of mapping the State. Where 
else in America would you celebrate being just a little over 
halfway?
    We have a way to go on this. I remain concerned that, as we 
look at our priorities, mapping, both terrestrial mapping and 
mapping our waters, is something where we are woefully behind.
    I have much more that I will submit to you all, and we 
would hope for timely responses. I appreciate you being here 
before the subcommittee, and I apologize that the subcommittee 
has gone over time.
    Thank you for your indulgence, and we look forward to your 
responses. Thank you very much.
    Secretary Jewell. Can I just say that I actually do have a 
response on the mapping.
    Senator Murkowski. Yes, please. Go ahead.
    Secretary Jewell. We were at 63 percent at the end of last 
year. By the end of 2017, we will be 70 percent complete. We 
should be fully complete by 2020.
    I do have personal vested interest. My son actually is a 
critical care flight nurse and does medevac flights.
    Senator Murkowski. He knows.
    Secretary Jewell. He knows. He does that in Alaska as well. 
So, we share the concern and also share the urgency of why this 
is so important for the State of Alaska.
    Thank you both very much. This is a little different in 
terms of tenor and tone than the session that I was at 
yesterday. I do appreciate the constructive nature and also the 
flexibility with which you ran the agenda to allow me time to 
answer after time had expired. So thank you both very much, and 
we look forward to working with you.
    Senator Murkowski. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Sally Jewell
             Questions Submitted by Senator Lisa Murkowski
    Question (1). Last year the Alaskan Village of Council Presidents 
(AVCP) was selected to participate in the Tiwahe d emonstration project 
and has received approximately $986,000 in base and Tiwahe funding. For 
those of you not familiar with the AVCP, it is a consortium of 56 
Alaska Native villages in western Alaska. The villages are remote and 
somewhat isolated over a 59,000 square mile area with a population of 
approximately 25,000. All travel to and from the villages is by small 
plane or boat. The AVCP administers programs, fund projects, and 
provides social services to the villages.
    The Tiwahe initiative is a 5-year pilot program that aims to help 
tribes develop a comprehensive approach for the delivery of services to 
communities through partnerships with the tribe, local communities and 
the State and Federal Government. The overall goals and objectives are, 
to improve screening and access to family and social services, to 
create alternatives to incarceration via solution focused sentencing, 
improving links to appropriate prevention, intervention and treatment 
opportunities.

    a.  I understand this is a 5-year pilot program, but I am 
interested in hearing more about how the program is structured for each 
tribe and how the funding for each pilot site is determined. Would you 
briefly explain how the sites are selected, how the pilot is designed, 
and how the funding is determined and delivered?

    Answer. Tiwahe sites were selected based on geographic diversity, 
governance structure diversity, unmet need, and capacity. Alaska's 
geographic diversity from the lower 48 tribes and level of Federal 
resources to support tribal families, combined with AVCP's 
administrative capacity and interest in developing wrap-around 
services, led to BIA's selection of AVCP as a pilot site.
    Tribes at the six pilot sites (four in fiscal year 2015 and two in 
fiscal year 2016) are required to develop plans to address their needs. 
Each site plan must address goals in the areas of social services, 
child welfare, employment and training, recidivism and/or tribal 
courts. BIA provided funding through a 50 percent increase to their 
Social Services Tribal Priority Allocation (TPA) and Indian Child 
Welfare Act (ICWA) fiscal year 2014 base level funding, and a pro rata 
increase in Job Placement and Training Funds. BIA delivered funding 
through either an Indian Self Determination and Education Assistance 
Act (ISDEAA) contract or compact. In addition to the funding received 
by the pilot sites, all tribes and BIA regions operating social 
services and ICWA programs received increases from their fiscal year 
2014 base levels as part of the Initiative.

    b.  The President's proposal for the initiative is $21 million over 
fiscal year 2016 enacted levels. What is the plan for this increase? 
Would you seek to expand the pilot to additional sites in Alaska and 
elsewhere?

    Answer. Of the $21.0 million Tiwahe Initiative increase in the 
fiscal year 2017 request, $18.4 million is for social/human services 
programs and $2.6 million is for the Public Safety and Justice's Tribal 
Courts program. Here is a summary of the funding breakdown:

  --+$12.3 million--Social Services (TPA)

    --$5.0 million: Provide expanded social services such as child 
            welfare and family and domestic services at five additional 
            Tiwahe sites;
    --$5.2 million: Focus on capacity building at specific tribal 
            sites, including the hiring of 30 additional social workers 
            in Indian Country;
    --$1.0 million: Support the continuation of the Research and 
            Evaluation contract which will assist tribes with goals and 
            performance measures;
    --$1.1 million: Support the continuation of the Center for 
            Excellence which gives tribes opportunities to continue 
            learning, cross training, and to conduct information 
            sharing in areas related to leadership, best practices, 
            research, support and training.

  --+$3.4 million--Indian Child Welfare Act (ICWA) TPA: Increase tribal 
        preventive services efforts in providing family assistance and 
        home improvement services, which should build stronger families 
        and decrease instances of child removal from the home.
  --+$1.7 million--Housing Improvement Program (HIP): Improve housing 
        conditions, and access to suitable housing, at the Tiwahe sites 
        with a focus on veterans and single family households.
  --+$1.0 million--Job Placement &Training Program (JPT): Support 
        employment and training activities at Tiwahe sites.
  --+2.6 million--Tribal Courts: Sustain the existing Tiwahe sites and 
        provide targeted base funding to five additional locations 
        under the Tiwahe Initiative. The resources will assist tribes 
        in creating stronger tribal court infrastructure to address 
        issues related to children and family services, as well as 
        develop special projects to reduce the rate of repeat offenders 
        and criminal recidivism.

    If funded at the President's request, BIA would add five additional 
Tiwahe sites in fiscal year 2017. These five would join the original 
four selected in fiscal year 2015, and the two selected in fiscal year 
2016 (bringing the total number of Tiwahe sites to eleven by the end of 
fiscal year 2017).
    Question (2). ANILCA is perhaps the largest conservation 
contribution in the world's history and certainly the Nation's. Alaska 
has more Conservation System Units (``CSUs'') than the entire Nation 
combined, yet we continue to see more and more land taken off the table 
for development. Land planning in Alaska is managed in a tenuous and 
never-ending process that specifically ignores ANILCA. The process 
results in outcomes that do not favor development. In addition, few 
people have the time, energy, and expertise to participate in these 
plans. For example: Bering Sea/Western Interior RMP contained 56 maps, 
1,200 pages, and 63GB of data. Furthermore, this plan and similar plans 
exclude multiple-use through ACECs, RNAs, and other proposed closures. 
What is being done to ensure the balance for conservation and economic 
opportunity intended by ANILCA is considered for future land management 
plans?
    Answer. The land use planning process in Alaska encourages 
collaboration and partnerships that assist the Bureau of Land 
Management (BLM) in determining how to balance the needs of adjacent 
communities with the management of public land resources. Recognizing 
the challenges associated with the timeliness of long term planning 
activities, BLM has recently developed the Planning 2.0 initiative that 
will improve the bureau's ability to respond to environmental, economic 
and social changes in a timely manner; strengthen opportunities for 
State and local governments, Indian Tribes, and the public to be 
involved in initial decisions leading to the development of land use 
plans; and improve the BLM's ability to address landscape-scale 
resource issues. In Alaska, the provisions of the Alaska National 
Interest Lands Conservation Act (ANILCA) and the Alaska Native Claims 
Settlement Act (ANCSA) are regularly incorporated into the planning 
process and when considering mitigation, provisions of FLPMA and ANILCA 
help identify significant resources and Conservation System Units that 
could be impacted by development. Early and frequent public engagement 
and a robust planning process that balance both conservation and 
resource use will continue to be the key to BLM's land use planning.
    Question (3). As you know, once covering 160 million acres, the 
Public Land Orders (``PLOs'') were put in place after 1971 to guarantee 
that Alaska Natives could select their ANCSA selections. The 
Department's own report in 2004 said there was no need for any more 
than 6.7 million acres to still be encumbered--and that number has 
since been further reduced over the past dozen years with the 
completion of revised Bureau of Land Management plans. Moreover, 
Natives have now filed all their selections.

    a.  Please provide specifically what actions your agency is taking 
to actively lift the remaining Public Land Orders (PLOs) reserving 
lands throughout the State of Alaska.

    Answer. Public Land Orders (PLOs) determine which lands are or are 
not available for selection by either an Alaska Native Claims 
Settlement Act (ANCSA) corporation or the State of Alaska. This 
authorizes the Secretary to classify and reclassify the lands withdrawn 
and to open the lands to appropriation in accordance with the 
Secretary's classification. The original PLOs state that any lands not 
conveyed to an ANCSA corporation would remain reserved for study and 
review for the purpose of classification or reclassification. The 
Bureau's land-use planning process satisfies the requirement for such 
study, review, and classification and is the appropriate mechanism for 
recommending a withdrawal be lifted. Over the decades, many of these 
PLOs were amended several times to allow for millions of acres to be 
made available for State selection and/or entry under the mining laws.
    The State currently has an estimated remaining entitlement of 5.2 
million acres, but an estimated 14.9 million acres selected. By 
contrast, the State has 6.5 million acres of ``top-filings'' (future 
selections that would ``attach'' if and when the pertinent withdrawal 
(PLO) is lifted). It should be noted that the State has a statutory 25 
percent limitation on its over selections. Based on its existing 
remaining entitlement, the State should have only 6.6 million acres of 
selections. The State is currently 8.3 million acres over its statutory 
limit on over-selections. Lifting any PLOs to make more lands available 
for the State to select would further increase its over-selection.
    Currently, lands selected by the State are not available for a 
rural subsistence priority. Accordingly, lifting PLOs to allow a State 
top-filing to attach and become a selection will reduce the acreage of 
lands available for rural subsistence priority. This is one of the 
reasons the BLM feels that the Bureau's land use planning process, 
which is open to public input and comment (including by the State) is 
the appropriate mechanism for recommending a withdrawal be lifted.

    b.  I would like your commitment to lift all the remaining PLOs as 
soon as possible, and please provide a timeline by which you commit to 
abide.

    Answer. The appropriate mechanism for recommending withdrawals is 
through the Bureau's land-use planning process. This process is open to 
public input (including the State of Alaska) and comment. Since 2007 in 
Alaska, four resource management plans have been completed where 
recommendations were made to lift withdrawals and currently there are 
three resource management plans ongoing where recommendations will be 
made upon completion.
    Question (4). On February 4, I sent you a letter with Chairman 
Cochran, Chairman Rogers, and Subcommittee Chairman Calvert regarding 
the Office of Surface Mining's Stream Buffer Zone Rule. The letter 
related to the directive in the fiscal year 2016 omnibus that required 
the Office of Surface Mining to provide States with information they 
requested related to the Stream Buffer Zone Rule, as well as to meet 
with States at their request.
    I am extremely concerned about the manner in which this rule has 
been written--primarily because 9 out of 10 of the States who entered 
the process as cooperating agencies decided to withdraw from the 
process because of a lack of meaningful consultation with OSM. This 
directive was meant to reverse course and ensure that OSM moves forward 
in a more cooperative manner.
    Shortly after my letter was sent, the State of Alaska sent the 
Department a letter related to the requirement that OSM provide States 
with relevant reports, data and analyses. As an initial step, the State 
of Alaska requested that OSM provide a summary of the documents. The 
letter indicated that Alaska would then request a subset of those 
documents and eventually, request a meeting with OSM.

    a.  Have you provided the State of Alaska with the summary of 
documents they requested? If not, when do you anticipate that such 
information will be provided?

    Answer. OSMRE made these documents available to all of the States 
on March 24, 2016, by uploading reference materials cited in the 
proposed rule on the Web site regulations.gov with the exception of 
reference materials protected by copyright law. OSMRE has also offered 
assistance through its librarian to those States that request such help 
to obtain copyright protected materials. The materials are available to 
the public. The Assistant Secretary and OSMRE officials are holding 
meetings with the State of Alaska on May 18-22, 2016.

    b.  In a recent budget hearing in the Senate Energy Committee, 
Deputy Director Connor said the documents specified in the report 
language would be ready for the States ``in a few weeks.'' What is your 
plan for meeting with States after they have had time to review the 
information you are required to provide them?

    Answer. OSMRE offered to dedicate its time at the Interstate Mining 
Compact Commission on April 18, 2016, to meet with the States. During 
these meetings, the Stream Protection Rule as well as other topics were 
discussed. In addition, OSMRE scheduled a series of technical meetings 
to further engage the States. Staff from 6 State regulatory authorities 
participated in the meeting on April 14, 2016 and 5 State regulatory 
authorities participated in the meeting on April 21, 2016.

    c.  Additionally, can you share the timing and process you envision 
for moving forward with the stream buffer zone rule? Given that the 
States will presumably be raising a number of new issues based on the 
information they receive in the technical documents, will you reopen 
the comment period so that the public has the opportunity to comment on 
that information as well?

    Answer. OSMRE has prepared a summary of the State meetings for the 
administrative record. No additional public comment period for the 
rulemaking is currently planned.
    Question (5). Within the Fish and Wildlife Service's Ecological 
Services budget, and specifically within the Endangered Species Listing 
program, the Department has proposed shifting a sizeable portion of the 
budget from ``critical habitat designations'' to ``petitions.'' I am 
concerned about this shift because I am still hearing concerns from 
members who opposed the Department's decision to enter into a multi-
species settlement agreement in 2011.
    I have heard from members that this effort, which required the 
Service to make listing determinations on more than 250 species was 
done without consultation of local governments or communities that are 
impacted by that settlement agreement. With the actions required in 
that settlement agreement coming to an end in 2016, I am concerned that 
the Service will see fit to enter into another similar agreement.
    How can I be certain that, if we decide to shift money from 
critical habitat designations to petitions, the Service will not be 
inclined to enter into a similar, closed-door settlement agreement?
    Answer. The Endangered Species Act establishes mandatory duties and 
timeframes for various listing duties including petition findings, 
listing determinations, and critical habitat designations. Failure to 
meet the statutory timeframes can lead to lawsuits. When it is in the 
best interest of the Government to do so, litigation can be resolved 
through settlement agreements; this typically occurs when the Service 
does not have a viable defense and a settlement is expected to achieve 
more favorable terms through negotiation. To avoid litigation, the 
Service strives to meet the ESA's deadlines and has requested the 
funding needed to do so.
    The requested amounts in the Listing subactivity reflect the 
anticipated fiscal year 2017 workload. In fiscal year 2017, the Service 
will need less funding than in fiscal year 2016 to address critical 
habitat designation for already listed species because there are fewer 
such critical habitat designations outstanding. In contrast, the 
anticipated workload for petition findings will be greater in fiscal 
year 2017 than in fiscal year 2016; thus, the budget includes funding 
under the subcap for the functional area to be increased. By having the 
subcaps reflect the distribution of the workload, the Service hopes to 
reduce litigation by working on all types of outstanding actions.
    Question (6). I have been concerned with the Department's actions 
related to the polar bear for a number of years. I disagree with the 
2008 listing determination and vehemently disagree with the designation 
of more than 187,000 square miles of land--an area larger than the 
State of California--as ``critical habitat'' for polar bears. When 
combined with the other hostile actions undertaken by the 
administration when it comes to developing our public lands, the 
listing and designation has the potential to devastate our State's 
economy.
    My concern has long been that the Department based its listing 
decision more on the expectation that climate change would decrease 
polar bear habitat and stocks in the future, than on fact that stocks 
are currently in decline. I have seen no data to show that polar bear 
stocks currently are in significant decline across northern Alaska (the 
issue of potential Russian poaching aside) and thus, the species does 
not warrant protections under the Endangered Species Act.
    Has the Department undertaken any recent efforts to consider new 
science related to polar bears in an effort to determine whether the 
species should be listed under the Endangered Species Act? If so, 
please provide me with the studies that you have considered. If not, 
please share with me the reason for not moving forward and whether 
there is a plan for moving forward.
    Answer. The Fish and Wildlife Service (Service) initiated a 5-year 
status review under the Endangered Species Act of 1973, as amended 
(ESA), for the polar bear (Ursus maritimus) on October 13, 2015. The 
purpose of this 5-year review is to ensure that the polar bear has the 
appropriate level of protection under the Act. The polar bear's 
``threatened'' status reflects the finding that it is not presently in 
danger of extinction, but is likely to become endangered in the 
foreseeable future. A 5-year review affords the opportunity to 
periodically take a comprehensive look at the full body of information 
available for a species and assess its progress toward recovery. These 
reviews assist the Service and its partners in identifying conservation 
needs, better targeting and prioritizing conservation efforts for the 
species, and determining whether a species may warrant downlisting, 
delisting, or uplisting.
    As a part of the 5-year review, the Service published its intent to 
collect the following data regarding the polar bear species: species 
biology, including but not limited to population trends, distribution, 
abundance, demographics, and genetics; habitat conditions, including 
but not limited to amount, distribution, and suitability; conservation 
measures that have benefited the species; threat status and trends; and 
other new information, data, or corrections, including but not limited 
to changes in taxonomy or nomenclature and identification of erroneous 
information contained in the List of Endangered and Threatened Wildlife 
and Plants.
    In addition to the 5-year review process, through the Service's 
participation in co-management arrangements via the U.S.-Russia 
Bilateral and Inuvialuit-Inupiat Agreements, the Service considers new 
science on an annual basis as it relates to sustainable harvest levels 
for the Chukchi and Southern Beaufort Sea subpopulations of the polar 
bear, which are harvested for subsistence. The Service does not have a 
recent population estimate for the Chukchi Sea subpopulation, but does 
have evidence that polar bear body size and condition remains stable 
despite the declines in habitat (sea ice). In the Southern Beaufort Sea 
subpopulation, multiple lines of evidence suggest that polar bears may 
be in decline due to decreased sea ice availability, including 
reductions in body size, body condition, and recruitment in recent 
decades (Regehr et al. 2006, Rode et al. 2010, 2014a). A recent 
publication (Bromaghin et al. 2015) indicates that polar bear numbers 
in the Southern Beaufort Sea subpopulation significantly declined from 
2004 to 2007 and survival of subadult bears declined throughout the 
entire period of 2001-2010.
Regehr et al. 2006:
    Regehr E.V., S.C. Amstrup, and I. Stirling. 2006. Polar bear 
population status in the southern Beaufort Sea. U.S. Geological Survey 
Open-File Report 2006-1337, U.S. Geological Survey, Alaska Science 
Center, Anchorage, AK, USA.
Rode et al. 2014:
    Rode, K.D., E.V. Regehr, D.C. Douglas, G. Durner, A.E. Derocher, 
G.W. Thiemann, and S.M. Budge. 2014. Variation in the response of an 
Arctic top predator experiencing habitat loss: feeding and reproductive 
ecology of two polar bear populations. Global Change Biology 20:76-88.
Rode et al. 2010:
    Rode K.D., S.C. Amstrup, and E.V. Regehr. 2010. Reduced body size 
and cub recruitment in polar bears associated with sea ice decline. 
Ecological Applications 20:768-782.
Bromaghin et al. 2015:
    Bromaghin, J. F., T. L. McDonald, I. Stirling, A. E. Derocher, E. 
S. Richardson, E. V. Regehr, D. C. Douglas, G. M. Durner, T. Atwood, 
and S. C. Amstrup. 2015. Polar bear population dynamics in the southern 
Beaufort Sea during a period of sea ice decline. Ecological 
Applications 25:634-651.
    Question (7). The Fish and Wildlife Service has requested the 
authority to seek compensation from responsible parties who damage or 
destroy National Wildlife Refuge System or other Service resources. 
This legislative language has been circulating for a number of years. 
In 2014, a hearing was held in the Environment and Public Works 
Committee a bill that was introduced by Senator Cardin. My 
understanding is that no legislation has been introduced in the current 
Congress and the Environment and Public Works Committee has not taken 
action on the matter.

    a.  Why has the Department only requested this authority for the 
Fish and Wildlife Service? I understand the National Park Service has 
similar authority already, but the Bureau of Land Management does not. 
Is there a reason that the request was made only for the Fish and 
Wildlife Service?

    Answer. The National Park Service (NPS) and Bureau of Land 
Management both have authorities to allow them to retain collections 
from damages for repair and restoration.
    The NPS authority provided by 54 U.S.C 100721-25 allows NPS to use 
response costs and damages recovered under the authority or amounts 
recovered under any statute as a result of damage (destruction, loss 
of, or injury) to any resource within a unit of the National Park 
System to be retained and used for response costs, damage assessments, 
restoration, and replacements.
    The Bureau of Land Management's annual appropriations language for 
Service Charges, Deposits and Forfeitures provides general Federal 
authority to collect fees for rehabilitation of damaged public lands. 
The BLM has specific requirements in the BLM Realty Trespass Abatement 
Handbook on the deposit and use of rehabilitation/stabilization funds. 
It states that funds received for rehabilitation/stabilization of 
damaged lands as result of trespass settlement or bond forfeiture are 
deposited into the Service Charges, Deposits and Forfeitures account 
and are available for in-State rehabilitation and stabilization work on 
lands damaged by trespass.

    b.  I have heard concerns that providing this authority will lead 
to additional prosecutions of individual because the Service will be 
incentivized by the prospect of additional revenue. What can you do to 
assure me that this will not happen?

    Answer. The Service has a responsibility to manage public resources 
for both current and future generations. In order to maintain these 
resources, the Service expects parties responsible for damaging them, 
not taxpayers, to pay restoration costs. The intent of this authority 
is to ensure that the Service, and the American people, will not have 
to pay for restoration activities and that those causing these impacts 
pay for their restoration. It is not intended to generate revenue for 
the Service.
    While this authority would be new for the Service, it is not a new 
authority for government agencies. The National Park Service (NPS), 
National Oceanic and Atmospheric Administration (NOAA), and the Bureau 
of Land Management (BLM) have similar authorities and we look to their 
models to implement this law, if enacted.
    Any funds collected to compensate for resource injuries will be 
used to rectify that specific injury alone. The legislation, if 
enacted, would deposit the recovered funds into the Department of the 
Interior Natural Resource Damage Assessment and Restoration Fund, as is 
done with natural resource damages recovered under the Comprehensive 
Environmental Response, Compensation, and Liability Act, the Oil 
Pollution Act, and the Park System Resource Protection Act (16 USC 
19jj). These funds would be maintained separately and used solely for 
cases handled under this authority.
    Question (8). The fiscal year 2016 Omnibus Appropriations bill 
contained a substantial increase for the Land and Water Conservation 
Fund (LWCF). The total discretionary appropriation was $450 million, an 
increase of $50 million over the President's fiscal year 2016 
discretionary total and $144 million over the fiscal year 2015 enacted 
level of $306 million. Congress was able to fund the President's 
proposed discretionary funding lists and increase the NPS State side 
program to $110 million. Given the funding pressures for the Interior 
bill this year it will be hard to meet the fiscal year 2016 
appropriated level; therefore, we need to carefully look at the 
projects the President has proposed in his budget submission to make 
sure they have been fully vetted and are ready to go.
    The explanatory statement on the fiscal year 2016 Omnibus stated 
that many of the projects the administration has proposed over the 
years lack sufficient information, and that requested projects should 
have identified properties, willing sellers, updated appraisals or 
market information, and the support of Federal, State, and local 
officials.
    Have all of the projects submitted in the fiscal year 2017 budget 
met all of these conditions?
    Answer. To the greatest extent possible, LWCF land acquisition 
projects proposed by the fiscal year 2017 budget meet the conditions 
laid out by the fiscal year 2016 Omnibus explanatory statement; 
however, the Department chooses to use discretion when it comes to 
disclosing certain details on the projects in the Greenbooks for a 
variety of reasons. Upon request from the Appropriations Committee, the 
bureaus may provide further details to cover the conditions, and both 
the bureaus and Department make a point to alert in a timely manner the 
Interior Appropriations Subcommittees if project details and/or status 
change.
    The bureaus included the following information in the Greenbook 
project data sheets, as well as briefing materials for Congress, for 
each proposed acquisition:

  --Full page profiles and maps of each acquisition, including 
        estimated cost, acres, and location. Should those details 
        change or be updated, the bureaus and Department relay that 
        information to the Appropriations Committee.
  --Contributors known to the bureaus' State and regional offices that 
        are partners or supporters of the proposal acquisition. These 
        identified contributors may include, but are not limited to, 
        the following: State, county or local governments or agencies; 
        national, State or local private non-profit organizations; 
        Federal Government partner agencies; charitable foundations; 
        land and battlefield trusts; and local and regional committees 
        or networks (including those representing ranchers, farmers, 
        hunters, anglers, and other outdoorsmen).

    The bureaus did not cite by name in the Greenbook project data 
sheets individual Federal, State, and local officials who support 
projects, choosing instead--where applicable--to cite the support of 
Federal, State, county, or local governments or agencies.
    Willing sellers are not identified in the budget for several 
reasons. Bureaus, working through their field and regional offices, 
identify land parcels in or adjacent to public lands for purchase, as 
well as potential willing sellers. Given that acquisition projects may 
take 2 to 3 years to complete, in the early stage of a budget request, 
bureaus may not have concrete willing sellers yet (only potential). 
Privacy issues may arise when landowners and potentially willing 
sellers do not want their neighbors to know that they are talking to 
the government about selling. Additionally, there is the value 
expectation. If a landowner sees his or her name listed along with a 
request number, the landowner comes to expect the entire amount, 
regardless of the actual appraised value.
    Details on each land acquisition project also reflect consideration 
of several additional criteria important to the bureaus and Department, 
including the ecological, economic, and cultural values the project 
conserves; contribution of leveraged funds; partner participation and 
support; and the urgency of project completion to protect natural areas 
and wildlife species habitats from development or other incompatible 
uses.
    In a continuing effort to provide user friendly data, the 
Department provides an interactive map of the properties it submitted 
for consideration to Congress for the 2017 budget at: https://
www.doi.gov/sites/doi.gov/files/uploads/LWCF_BIB_map_
FY2017.pdf.
    Question (9). The explanatory statement also expressed that the 
agencies should include the feasibility of phasing projects as well as 
a description of which parcels are being considered for conservation 
easements or fee simple acquisition.
    Discuss compliance with this guidance. What number or percent of 
the requested projects were identified as able to be accomplished in 
phases? What number or percent of the projects were identified as 
acquisitions for conservation easements versus fee simple acquisitions?
    Answer. For the BLM, several of the fiscal year 2017 projects could 
be phased--within discretionary funding 10 of the 14 projects (or 71 
percent) could be phased. Within BLM discretionary funding, 68 percent 
would be invested in fee acquisitions and 32 percent would be invested 
in easement acquisitions.
    The FWS discretionary request for fiscal year 2017 would purchase 
approximately 16,375 fee acres (39 percent) and 25,670 conservation 
easement acres (61 percent). Most of the FWS projects have already been 
phased; however, four of the projects, or 25 percent, can be further 
phased since they are comprised of multiple tracts.
    Of the 33 projects included in the NPS fiscal year 2017 budget for 
Federal land acquisition, four projects are parts of phased 
acquisitions:

    1.  Grand Teton NP(Discretionary): The State of Wyoming entered 
into an agreement with the United States for a phased conveyance of 
approximately 1,400 acres of State-owned land within Grand Teton 
National Park. The fiscal year 2017 budget includes $22.5 million which 
will be obligated to cover the Federal cost of a portion of that phased 
conveyance.
    2.  Hawaii Volcanoes NP (Discretionary): Funding requested ($6 
million) will be used to acquire half of the 16,467-acre Pohue Bay/Kau 
Coast property at the park.
    3.  Hawaii Volcanoes NP (Mandatory): Funding requested ($6 
million), if appropriated, will be used to acquire the second half of 
the Pohue Bay/Kau Coast property at the park.
    4.  Palo Alto NHP (Mandatory): The requested funds would commence a 
phased acquisition of a tract containing 1,353.84 acres of land (Total 
Estimated Value: $9,125,000) located within the national historic site.

    Of the 33 projects included in the NPS fiscal year 2017 budget 
request for Federal land acquisition, three projects are identified as 
easement or less-than-fee acquisitions (Death Valley NP, Katmai NP and 
Redwood NP), one project involves both fee and easement acquisitions 
(Martin Van Buren NHS), and two projects may involve either fee or 
easement acquisitions (Little River Canyon NPres and Nez Perce NHP). 
The possibility of acquiring a conservation easement varies, depending 
on the contemplated Federal use of the property and the willingness of 
the landowner to sell such easement.
    Question (10). The explanatory statement also included language to 
increase the transparency of the project selection and prioritization 
processes in the annual budget requests, particularly in regard to 
collaborative landscape projects. Over the years, there has been 
concern among many in the community and here in Congress about how the 
administration picks projects for the discretionary and mandatory 
lists. It appears that many of the projects have been geared toward the 
Western US and that geographic distribution of funds has not been a 
factor in your project selection. Typically Congress has funded the 
proposed lists in the order requested; however, with questions about 
the quality of projects and the process used to select projects 
Congress may need to revisit this approach.
    Given these questions about quality and process: What process does 
the Department use to compile the project lists, including for 
identifying collaborative areas? What considerations does the 
Department take into account when selecting and prioritizing projects? 
What is the geographic distribution of requested funds?
    Answer. The President's fiscal year 2017 budget includes 135 land 
acquisition projects across the Department of the Interior and the 
Department of Agriculture's four land management agencies in 41 States. 
The wide range of projects proposed for funding includes important 
wildlife habitat and migration corridors in Florida's Everglades, 
grassland and wetland habitats popular with hunters and anglers in 
eastern North Dakota and South Dakota, historic structures associated 
with the Wright brothers and the early development of the airplane at 
the Dayton Aviation Heritage National Historical Park in Ohio, 
permanent public access to the South Puget Sound Coastal Forest in 
Washington State, scenic vistas along the Appalachian Trail, and 
popular public recreation sites in national monuments in Arizona, Idaho 
and New Mexico. The attached map shows the location of each proposed 
land acquisition project, and demonstrates the geographic diversity of 
projects in fiscal year 2017.
    The National Park Service (NPS), Bureau of Land Management (BLM), 
and Fish and Wildlife Service (FWS) each has its own criteria that are 
used to evaluate and prioritize proposed land acquisitions.
    NPS utilizes a nationwide priority ranking system, the Land 
Acquisition Ranking System (LARS). The initial information for each 
project is provided by the park unit and reviewed by regional or field 
offices of the Land Acquisition Program. Land Acquisition staff in each 
office assists the Regional staff in ranking the requests received 
using guidelines provided by the Washington (WASO) Program Office. The 
LARS incorporates several criteria, including, but not limited to: the 
threat to and preservation of the resource; a commitment has been made 
to acquire; involvement of partners, non-profit group support or 
availability of matching funds; recreational opportunities; existence 
of legislative authority to acquire; and ability to obligate 
appropriated dollars.
    For BLM, submissions include a completed project narrative, fact 
sheet, questionnaire, representational map(s) and digital color 
images--and are limited to no more than 20 projects per State Office 
(SO). To be eligible projects must be:

    1.  Within or contiguous to, a unit of the National Landscape 
Conservation System (NLCS) (with the exception of Wilderness Study 
Areas), an Area of Critical Environmental Concern or a Special 
Recreation Management Area;
    2.  Comply with Section 205 (b) of the Federal Land Policy and 
Management Act (identified for acquisition within an approved land use 
plan); and
    3.  Be available for purchase from a willing seller owner.

    Submissions are then reviewed by the National Review Team (NRT). 
The NRT is a multi-disciplinary team consisting of representatives from 
different levels of the organization. The NRT recommends a prioritized 
list of project proposals to the Bureau of Land Management (BLM) 
leadership. The BLM Land and Water Conservation Fund (LWCF) Land 
Acquisition list reflects bureau and departmental priorities, potential 
sources and levels of funding, and the latest information on willing 
sellers.
    FWS's 2014 Strategic Growth Policy directs FWS to focus on 
acquiring lands and waters in fee, conservation easement, and/or 
donation that support three conservation priorities:

    1.  Recovery of threatened and endangered species;
    2.  Implementing the North American Waterfowl Management Plan; and
    3.  Conserving migratory birds of conservation concern.

    Based on these three priorities to evaluate proposed NWRS land 
acquisitions, FWS uses the Targeted Resource Acquisition Comparison 
Tool (TRACT). The TRACT provides a biological, science-based, and 
transparent process for ranking proposed NWRS land acquisitions.
    TRACT biological evaluation plays a role in LWCF budget 
formulation, but is not the only factor considered when making 
decisions about where to request LWCF funds for NWRS land acquisition. 
The LWCF project list submitted by FWS reflects additional 
considerations, such as bureau operational priorities, partner support, 
potential non-Federal funding sources, unique land acquisition 
opportunities, and the latest information on willing sellers. Land 
acquisition projects proposed for the fiscal year 2017 budget reflect 
additional important factors, including conservation partner 
participation, and urgency of project completion to protect natural 
areas from development or other incompatible uses.
    The Service considers the minimum interest necessary to reach 
management objectives. For example, conservation efforts for the 
greater sage grouse and central Florida ecosystem are compatible with 
traditional land use. Therefore the Service may choose to seek 
conservation easements or, to enhance public access and recreational 
opportunities, a combination of fee and conservation easements 
acquisition.
    The administration's strategic approach to using LWCF land 
acquisition funds in fiscal year 2017 includes funding for 
Collaborative Landscape Planning (CLP) projects. This interagency 
program brings the Departments of the Interior and Agriculture together 
with local stakeholders to identify large natural areas where LWCF 
funds can achieve the most important shared conservation and community 
goals in the highest priority landscapes. Conserving large-scale 
natural areas provides multiple resource and economic benefits to the 
public, including clean drinking water, recreational opportunities, 
protected habitat for at-risk and game species, and jobs generated on 
and off these lands. The Secretaries of the Interior and Agriculture 
follow a rigorous competitive and merit-based based evaluation process 
to select collaborative landscapes for investment. After evaluating and 
prioritizing multiple ecosystems, they selected seven landscapes for 
discretionary and mandatory funding in fiscal year 2017:

  --Island Forests at Risk (Hawaii)
  --High Divide (Idaho, Montana)
  --Rivers of the Chesapeake Collaborative (Maryland, Virginia, West 
        Virginia)
  --National Trails System (California, Georgia, Hawaii, Idaho, 
        Montana, New Mexico, Oregon, Pennsylvania, Tennessee)
  --Florida-Georgia Longleaf Pine Initiative (Florida)
  --Southern Blue Ridge (Georgia, North Carolina, Tennessee, Virginia)
  --Pathways to the Pacific (Oregon, Washington).

    Qualifying projects are submitted by bureaus which are evaluated 
and selected for inclusion within available budget resources.
    Question (11). According to the EPA, methane emissions from 
hydraulic fracturing at natural gas wells is down 83 percent since 2011 
and total methane emissions from natural gas production are down 38 
percent since 2005.

    a.  Is natural gas a key component of GHG reductions?

    Answer. Reducing natural gas emissions reduces waste of America's 
public resources and provides important greenhouse gas (GHG) emission 
reductions. Methane, the primary component of natural gas, is an 
especially powerful GHG. Its climate impact is roughly 25 times that of 
CO<INF>2</INF>, if measured over a 100-year period, or 86 times that of 
CO<INF>2</INF>, if measured over a 20-year period.\1\ Thus, measures to 
conserve such gas, avoid its waste, and reduce unnecessary releases 
significantly benefit local communities, public health, and the 
environment.
---------------------------------------------------------------------------
    \1\ See Intergovernmental Panel on Climate Change, Climate Change 
2013: The Physical Science Basis, Chapter 8, Anthropogenic and Natural 
Radiative Forcing, at 714 (Table 8.7), available at https://
www.ipcc.ch/pdf/assessment-report/ar5/wg1/WG1AR5_Chapter08_FINAL.
pdf.

---------------------------------------------------------------------------
    b.  Does the use of natural gas help drive down GHG emissions?

    Answer. The effect of use of natural gas on GHG emissions depends 
on both the energy source that would be used in lieu of the natural 
gas, and on the quantity of methane lost during the natural gas 
production process. Assuming limited methane losses, replacing coal or 
oil with natural gas can help drive down GHG emissions. Where natural 
gas replaces non-carbon energy sources, such as renewable or nuclear 
energy, however, the use of natural gas increases GHG emissions. Also, 
because methane is a far more potent GHG than CO<INF>2</INF>, methane 
lost during the natural gas production process can offset the benefits 
of using natural gas in place of other fossil fuels.

    c.  Does the administration want to see U.S. natural gas production 
continue to help bring down GHG emissions?

    Answer. The continued production and use of natural gas are 
consistent with the administration's goal of achieving a cleaner, more 
secure energy future, provided that gas losses are minimized. 
Consistent with this recognition and our overall climate goals, 
finalization of the recently proposed Methane and Waste Prevention rule 
will help curb waste of our Nation's natural gas supplies, reduce 
harmful methane emissions that worsen climate change, and provide a 
fair return on public resources for Federal taxpayers, tribes and 
States.
    Question (12). Over the course of the U.S. energy boom, according 
to the Energy Information Administration, marketed natural gas 
production has increased by 35 percent, over the 9-year period from 
2005 to 2013, from about 19 trillion cubic feet of gas per year to 
about 25 and a half trillion cubic feet of gas per year. Over this same 
period, EPA data show that methane emissions from hydraulically 
fractured natural gas wells decreased by about 80 percent, emissions 
from natural gas production decreased by about 38 percent and total 
methane emissions decreased by about 11 percent.

    a.  In view of this information, and in view of EPA's continued 
efforts to reduce methane emissions from industry sources, why has the 
BLM, under your authority, chosen to promulgate its own methane 
regulations?

    Answer. The proposed Methane and Waste Prevention Rule aims to 
reduce the waste of natural gas from BLM-administered mineral leases. 
This gas is lost during oil and gas production activities through 
flaring or venting of the gas, and equipment leaks. The BLM has an 
independent statutory responsibility to address this waste. 
Specifically, the Mineral Leasing Act of 1920 (MLA) requires the BLM to 
ensure that lessees ``use all reasonable precautions to prevent waste 
of oil or gas . . .'' (30 U.S.C. 225). While oil and gas production 
technology has advanced dramatically in recent years, the BLM's 
requirements to minimize waste of gas have not been updated in over 30 
years. The BLM believes there are economical, cost-effective, and 
reasonable measures that operators should take to minimize waste, which 
will enhance our Nation's natural gas supplies, boost royalty receipts 
for American taxpayers, tribes, and States, and reduce environmental 
damage from venting and flaring.
    EPA has finalized regulations under the Clean Air Act to reduce 
methane emissions from certain new, reconstructed, and modified oil and 
gas production activities. While these requirements will have the 
effect of reducing some losses of gas as well, the EPA requirements are 
not aimed directly at waste and would not fulfill the BLM's statutory 
responsibilities. For example, unlike the proposed BLM regulations, the 
proposed EPA regulations do not address gas losses through flaring, and 
do not address gas losses from existing sources, unless the existing 
source is modified or reconstructed (as defined by EPA).

    b.  Related to this question, can you describe the consultation 
that the BLM has undertaken with EPA, and with the State regulatory 
agencies with Clean Air Act authority in the states with operations on 
BLM lands?

    Answer. The BLM has engaged in substantial stakeholder outreach in 
the course of developing the proposal. In 2014 and 2016, the BLM 
conducted a series of forums to consult with tribal governments and 
solicit stakeholder views to inform the development of the proposed 
rule (2014) and to discuss the proposed rule after publication (2016). 
The outreach included tribal and public meetings (some of which were 
livestreamed) in Colorado (2014/2016), New Mexico (2014/2016), North 
Dakota (2014/2016), Washington, DC (2014), and Oklahoma City (2016).\2\ 
For each forum, BLM held a tribal outreach session in the morning and a 
public outreach session in the afternoon. The BLM also accepted 
informal comments generated as a result of the public/tribal outreach 
sessions (2014).
---------------------------------------------------------------------------
    \2\ Further information can be found at the BLM oil and gas 
program's outreach-events page: http://www.blm.gov/wo/st/en/prog/
energy/public_events_on_oil.html.
---------------------------------------------------------------------------
    The BLM also consulted State regulators (both oil and gas 
regulators and air quality regulators) both while developing the 
proposal and since its issuance. Specifically, the BLM held discussions 
with regulators from: North Dakota (2014/2016), Wyoming (2014/2016), 
Alaska (2014/2016), Colorado (2014/2016), Utah (2014/2016), and New 
Mexico (2014) to discuss the States' rules and practices, their 
effectiveness, the States' recommendations with respect to the BLM 
rulemaking, and their views on the proposal. The BLM is continuing to 
hold further discussions with States, is looking forward to receiving 
detailed written comments from State regulators, and will take those 
comments into careful consideration in developing the final rule.
    During the development of the proposed rule, the BLM and the EPA 
held regular discussions to share data and technical information, 
identify areas of potential overlap between the two regulatory efforts, 
consider ways to align the proposed rule requirements as much as 
practicable, and identify provisions where the BLM could exempt 
otherwise covered sources or activities because they are or are 
proposed to be subject to equally effective EPA requirements. Those 
meetings are continuing during development of the final EPA and BLM 
rules.
    Question (13). Over the last few years the United States has 
undergone an energy renaissance which has created thousands of new 
well-paying jobs, made the United States more energy secure and less 
reliant on evil powers across the globe as well as make U.S. energy 
more affordable--just look at the cost of gasoline today--all while 
methane and GHG emissions have dramatically declined. During this same 
time BLM's permitting process continues to lag which is not only a lost 
opportunity for the benefits I just described, but also to the 
detriment of potential revenues to the Federal Treasury and the States. 
Additionally, the BLM has put out a number of regulations and proposals 
including the Hydraulic Fracturing, updates to Onshore Orders 3, 4, and 
5, and the proposed venting and flaring rule. Each of these, separately 
and combined, could have real effects on U.S. energy production, jobs, 
revenues, etc. If the goal of the Climate Action plan is to decrease 
GHG emissions, does it make sense to propose a suite of regulations 
that will shut down U.S. natural gas production?
    Answer. The common-sense and cost-effective rules BLM has proposed 
or finalized in the last 2-plus years are an important component of its 
efforts to modernize its oil and gas program. These regulations--
including the proposed updates to Onshore Orders 3, 4, and 5, the 
Hydraulic Fracturing Rule, and the proposed Methane and Waste 
Prevention Rule--are all necessary updates to 30-year old regulatory 
requirements that no longer reflect modern technology or practices. The 
BLM expects that these regulatory efforts will increase production and 
royalty accountability, enhance the safety of operations, and conserve 
resources, without harming U.S. energy production.
    These rules often propose or adopt standards and practices 
developed by industry that are already being successfully employed by 
operators. Updating and clarifying the regulations will make them more 
effective, more transparent, and easier to understand and administer, 
which will benefit both industry and the public. The proposed and 
adopted changes will provide modern, effective regulation of oil and 
gas operations on BLM-administered leases, ensuring such development 
occurs in an environmentally responsible way that provides a fair 
return to taxpayers.
    Question (14). For several years, the EPA has been working on the 
development of new requirements for compliance with elements of the 
Clean Air Act for oil and gas production operations. The process of 
developing new regulations for emissions from new sources has 
involved--indeed required--highly technical discussions, and has been 
characterized by regular opportunities for substantive discussion 
between EPA and the regulated industry. Why is the BLM undertaking its 
own separate rulemaking process?

    a.  Did the BLM work with the EPA to make sure the two packages 
were not in conflict with one another? If so, why are there many 
examples of the two rules differing or the BLM requiring something the 
EPA determined was not necessary or cost prohibitive?

        For example: BLM's inclusion of liquids unloading requirements 
when EPA has determined there is not a single cost-effective method 
that can address this source. Additionally, there are differences 
between survey frequency based on number of leaks (BLM) versus percent 
of components (EPA).

    Answer. The BLM and the EPA have worked closely together throughout 
the rulemaking processes to ensure that the two regulatory packages are 
not in conflict with each other, as discussed in more detail in the 
response to Question 12a. In some cases the two rules are different 
because they are being adopted under different statutory authorities 
and they have different primary purposes.
    For example, our understanding is that section 111 of the Clean Air 
Act requires the EPA to base its standards on an identified ``best 
system of emission reduction.'' The EPA proposed that it could not 
identify a single best system of emission reduction that should apply 
in all situations to reduce emissions from liquids unloading. In 
contrast, the Mineral Leasing Act simply requires the BLM to ensure 
that lessees ``use all reasonable precautions to prevent waste of oil 
or gas . . .'' 30 U.S.C. 225. With respect to liquids unloading, the 
BLM has determined that there are multiple technologies and practices 
that would reduce gas losses from liquids unloading, depending upon the 
particular circumstances of the well. The BLM has not proposed to 
require operators to use specific technologies. Rather, the BLM has 
simply proposed a performance-based standard--to prohibit liquids 
unloading through manual well purging from new wells--allowing 
operators to choose the technologies or practices to apply to achieve 
this result.
    Question (15). What assurance do we have that the two agencies' 
efforts can be coordinated such that BLM's rulemaking will be informed 
by the EPA effort so that regulatory conflict is avoided?
    Answer. The BLM and the EPA fully understand the importance of 
coordinating their approaches, have coordinated closely throughout the 
rulemaking processes to date, and are committed to continuing to 
coordinate until both rulemakings are finalized. As a practical matter, 
the EPA's rulemaking was finalized before the BLM's rulemaking, which 
allows the BLM to take EPA's final rule fully into account before 
finalizing the BLM's rule.
    Question (16). How do these rules interact with the State's own 
efforts on methane? What consideration did you give the State programs? 
Is there a scenario where projects will need to comply with a State 
methane program and regime, a different BLM methane program and regime 
and a different EPA methane program and regime? Is that necessary and 
reasonable?
    Answer. As discussed in the response to Question 12b, the BLM has 
reached out to many States to gain an understanding of State 
regulations and the States' experiences with their regulations. In 
fact, many of the provisions in the proposed rule track elements of 
effective State programs.
    The BLM has also constructed its proposed rule to address concerns 
about the potential for multiple applicable regulations. To minimize 
any overlap with EPA regulations, the BLM proposed that sources meeting 
the EPA requirements would either be exempt from the BLM rules 
altogether, or be permitted to demonstrate compliance with the EPA 
requirements in lieu of meeting the BLM requirements, depending on the 
specific requirement. In addition, the BLM and the EPA proposed to 
align their requirements to a very significant degree and aim to 
further align the final rules, to the full extent consistent with legal 
authorities and with consideration of comments received.
    With respect to State rules, the BLM proposed specific provisions 
to allow variances from one or more BLM requirements where one or more 
State requirements are equally or more effective.
    Question (17). How does the cost-benefit analysis hold up when 
there are a lot of legacy producing wells that would cost more to 
comply with these proposals than the energy that is produced which 
would then result in production being shut-in? Would this mean that DOI 
loses in royalty revenue?
    Answer. The proposed rule includes several exceptions and 
alternative limits that would apply if implementing provisions of the 
rule would impose such costs as to cause the operator to cease 
production and abandon significant recoverable oil reserves under a 
lease. The Regulatory Impact Analysis for the proposed rule projects 
that the rule would produce modest increases in both gas production and 
royalties.
    Question (18). In January, a magnitude 7.1 earthquake hit Alaska. 
Though a handful of families lost their homes, damage was limited 
because the earthquake occurred away from populated areas. Alaska's 
history demonstrates clearly, however, that we are not always so 
fortunate.

    a.  In 2000, congress authorized the Advanced National Seismic 
System to ``establish and maintain an advanced infrastructure for 
seismic monitoring throughout the United States that operates with high 
performance standards . . .'' A decade and a half later, many of the 
baseline performance standards set by this program have not been 
achieved in Alaska. As other States with high earthquake hazard move on 
to advanced technologies, such as earthquake early warning, what is the 
Department doing to make sure Alaska has access to the instrumentation, 
technology, and funding needed to expand and modernize the seismic 
infrastructure?

    Answer. In the past 15 years, the USGS has invested in earthquake 
monitoring and reporting, seismic hazard assessment, and other 
earthquake loss reduction activities in Alaska, and collaborates with 
several groups in the State. The USGS supports the Alaska Earthquake 
Center and the University of Alaska--Fairbanks (UAF), our regional 
seismic network partner in the State, at about $600,000 per year. The 
USGS also supports the Anchorage Strong Motion Network, a collaborative 
effort among the USGS National Strong Motion Project, the Alaska 
Volcano Observatory (a joint center of the USGS, UAF, and Alaska 
Division of Geological & Geophysical Surveys). The network consists of 
more than 30 free-field stations, a borehole site, and several 
instrumented buildings and bridges. USGS monitoring investments in 
Alaska also include USGS National Network stations, and the services 
provided by the USGS National Earthquake Information Center.
    In recent years, the USGS invested in improvements to the Anchorage 
and Alaska regional seismic networks. For example, in 2010, USGS made 
an award to the UAF of $483,000 plus seismic equipment for upgrading 
these networks. The USGS has also invested in improving the Anchorage 
monitoring infrastructure. As a result of these improvements, high-
quality data on how shaking varied across the Anchorage urban area were 
successfully collected from the January 2016, magnitude-7.1 earthquake. 
The USGS has also supported the Delaney Park geotechnical array in 
Anchorage, operated by the University of California, which provides 
field observations of earthquake activity and uses these observations 
as control data for testing models and simulation techniques.

    b.  Language was included in the fiscal year 2016 omnibus for USGS 
to conduct a cost benefit study related to earthquake monitoring for 
Alaska. Please tell me what the status of that report is and when we 
may be able to expect to see some of the findings?

    Answer. A working group has been formed to conduct a cost-benefit 
study for monitoring improvements in Alaska: the study will be released 
in the fall of 2016 or before. The working group will evaluate the 
costs and benefits of seismic station adoptions, earthquake early 
warning, as well as improvements to existing monitoring operations. 
USGS will use the results of this study in its planning for future 
investment in seismic monitoring in Alaska.

    c.  President Obama's 2013 arctic strategy document emphasizes 
cooperative efforts with the State of Alaska to respond to natural and 
man-made disasters. In the last 2 years there have been significant 
swarms of earthquakes in the Bering Sea, Northwest Alaska and the 
Arctic National Wildlife Refuge. How does the Department intend to 
engage with the State of Alaska to develop earthquake mitigation 
strategies for the Arctic region?

    Answer. The USGS is a member of the four-agency National Earthquake 
Hazards Reduction Program (NEHRP) partnership, but developing 
earthquake mitigation strategies are primarily the responsibility of 
the National Institute of Standards and Technology and Federal 
Emergency Management Agency. As a member of the NEHRP, the USGS 
conducts and supports targeted geoscience research investigations on 
earthquake causes and effects; produces seismic hazard maps and 
assessments; monitors and reports on earthquakes and shaking 
intensities; works to improve public understanding of earthquake 
hazards; and coordinates post-earthquake reconnaissance carried out and 
supported by NEHRP agencies and other organizations.
    Question (19). The President's proposal includes an increase of 
$8.8 million for USGS activities related to the Arctic.

    a.  Could you provide more detail on the Department's Arctic 
priorities, particularly as they relate to the administration's 
``Implementation Plan for its National Strategy for the Arctic 
Region''?

    Answer. On May 10, 2013, the President issued the National Strategy 
for the Arctic Region (Strategy). The accompanying Implementation Plan 
set forth the methodology, process, and approach for executing the 
Strategy. The Implementation Plan follows the structure and objectives 
of the Strategy's three lines of effort:

  --Advance United States Security Interests
  --Pursue Responsible Arctic Region Stewardship
  --Strengthen International Cooperation

    The Implementation Plan reflects the reality of a changing Arctic 
environment and upholds national interests in safety, security, and 
environmental protection, and works with international partners to 
pursue global objectives of addressing climatic changes. The 
Implementation Plan complements and builds upon existing initiatives by 
Federal, State, local, and tribal authorities, the private sector, and 
international partners, and focuses efforts where opportunities exist 
and action is most needed.
    Under the Implementation Plan, the Department's priorities include:

  --Ensuring the safe and responsible exploration and development of 
        onshore and offshore Arctic non-renewable energy resources in 
        an environmentally sound manner;
  --Implementing Integrated Arctic Management and employing management 
        approaches, such as ecosystem-based management, to enhance good 
        governance to provide for sustainable economies in the region, 
        ensure long-lasting benefits of balanced ecosystems, and 
        preserve cultural activities of the people that depend on the 
        Arctic environment; and,
  --Coordinating and integrating terrestrial ecosystem research to 
        increase the understanding of geophysical and ecosystem 
        responses to a changing climate and to inform management 
        decisions and subsistence uses.

    The Department continues to study offshore environments, evaluate 
energy development and spill response capabilities, and to promote 
safety across all energy development activities. In cooperation with 
the State of Alaska and Alaska Native organizations, the Department is 
also encouraging use of Integrated Arctic Management, a science-based, 
whole-of-government approach for stewardship and planning, that 
integrates and balances environmental, economic, and cultural needs and 
objectives.
    The Department is also a member of the Interagency Arctic Research 
Policy Committee (IARPC) to advance research in areas of common 
interest to member agencies. The IARPC 2013-2017 research plan was 
drafted with contributions from all IARPC agencies with public 
involvement. The plan, which is currently being updated, intentionally 
builds on the strong intellectual accomplishments and ideas of the 
research community at the Federal, State, local, and tribal levels as 
well as inclusion of ideas from the academic community, non-
governmental organizations, and industry. As an IARPC member, the 
Department is engaged in answering key research questions such as 
determining the impact of diminishing permafrost on Arctic ecosystems 
and inhabitants.
    The 2017 budget request for the Department's activities in the 
Arctic is $160.6 million, an increase of $15.8 million above the 2016 
enacted level. The request for USGS includes increases totaling $9.8 
million, which includes $8.8 million in Arctic funding and a net 
addition of $1 million primarily for Alaska map modernization that will 
be applied to the Arctic. Across the USGS, these increases will be used 
to analyze the impacts of a changing climate, including changing 
distributions of fish and wildlife populations, the melting of glaciers 
and the resulting impact to fresh water resources; to analyze the risks 
posed by sea-level rise to coastal communities; and to develop 
predictive models.

    b.  Also, can you provide specific details about the type of 
research and activities that would be conducted if this funding were 
approved? For example, will these activities improve our understanding 
of the continental shelf offshore Alaska's north coast?

    Answer. With these increases, the USGS will support research and 
development efforts focused on the Arctic through a multidisciplinary 
approach designed to both individually understand and holistically 
evaluate ecosystem processes and interactions in the Arctic to provide 
the objective science needed for effective management of Arctic 
resources. Additionally, an increase of $1.5 million within the 
National Geospatial program for Alaska map modernization will be used 
in the Arctic region and a proposed decrease in the Mineral Resources 
program reduces Arctic spending by $500,000. Including the Alaska map 
modernization funding to be used in the Arctic, the President's budget 
request includes an increase of $9.8 million for USGS Arctic 
activities.
    The increase of $1.0 million in the Environments Program in the 
Ecosystems Mission Area will be used to analyze changes in fish and 
wildlife population distribution and habitats. Additionally, the 
program will use computer simulations to improve strategies for 
estimating polar bear populations from data gathered in Western Hudson 
Bay, the Chukchi Sea, and the Southern Beaufort Sea.
    The increase of $500,000 for the DOI Alaska Climate Science Center 
and other related programs will develop a process to estimate total 
glacier loss in Alaska and any changes in freshwater input. These and 
other forecasts will improve understanding of effects on river systems 
and ecosystem dynamics that affect economically and culturally 
important species such as salmon and caribou. The funding would build 
upon other research investments in interior Alaska to better understand 
the potential for larger scale and more frequent effects of ecological 
drought in the region.
    Additionally, the increase of $1.9 million in the Climate and Land 
Use Change Mission Area's Land Remote Sensing Program is to develop 
predictive models for permafrost melt. Using remote sensing data from 
satellites and airborne systems, in combination with field-based 
studies, this work will prepare Arctic communities for the effects of 
the thawing land beneath them and improve global climate modeling.
    The increase of $3.5 million in the Coastal and Marine Geology 
program within the Natural Hazards Mission Area accelerates work for 
underserved communities dealing with impacts of sea level rise, severe 
storms and melting permafrost on their coastal communities and 
economies. The cost of field studies in these large and remote areas, 
the lack of baseline data, and the poorly understood dynamics of ice-
bound and permafrost coasts limits the availability of coastal change 
tools to benefit Alaskan communities. The increase will accelerate 
bringing Artic communities the tools available to open-ocean coastal 
regions of the coterminous United States. The investment will improve 
coastal change models for forecasting and assessing vulnerability over 
the next 10-25 years.
    The increase of $2.0 million for the Water Resources Water 
Availability and Use Science Program will address interactions among 
water-mediated processes in a warming Arctic and assess system 
feedbacks (e.g., effects of warming on hydrology and biogeochemical 
cycling, which subsequently affects climate and hydrology). The program 
will investigate methods that allow extrapolation from monitored to 
unmonitored locations and expand monitoring of sentinels of change, 
including permafrost temperature, streamflow, and materials exported 
from watersheds.
    Within base funding, continued analyses of geologic data resulting 
from the joint USGS-NOAA-Department of State effort to define the 
limits of the Extended Continental Shelf will result in enhanced 
understanding of the continental shelf, slope, and Arctic Ocean basin. 
Analyses of these data, and data from surveys supported by USGS-DOE 
investigations of methane gas hydrates, will enhance our understanding 
of the stability of the continental shelf and slope and the potential 
for and consequences of hydrate release in response to changing 
oceanographic conditions.

    c.  Will the research improve our understanding of the resource 
potential for new oil and gas discoveries, as well help us understand 
how to minimize the risks of utilizing those resources?

    Answer. The USGS Energy Resources Program conducts oil and gas 
resource assessments across the Nation. The program has several active 
projects in the Arctic, including research on unconventional oil and 
gas (UOG), which will continue with base program funds. These continued 
studies of shales and other tight formations on the Alaskan North Slope 
will help underpin more accurate resource assessments and reduce the 
uncertainty associated with resource development.
    The 2017 President's budget proposes several increases for 
unconventional oil and gas research across the Nation, including $1.0 
million for the USGS Energy Resources Program, a portion of which will 
support field research in Alaska to assess undiscovered UOG resources 
on the North Slope of Alaska. This additional funding will provide for 
field research in Alaska on an annual basis instead of the current 
research cycle of every other year, allowing more comprehensive data 
collection and accelerating assessments.
    The proposed increase for the program's unconventional oil and gas 
research will better characterize environmental and operational risks 
posed by oil and gas development (e.g., the mitigation of produced 
waters derived by oil and gas production), and the increase supports 
research and field work activities to lessen the statistical 
uncertainty associated with resource potential estimates, allowing 
efficient, environmentally responsible development. The increase for 
unconventional oil and gas continues leveraging capabilities with the 
Alaska Department of Natural Resources in support of these field 
studies.
    The USGS Coastal and Marine Geology Program will conduct studies to 
provide actionable science to respond to changes along the Arctic 
shoreline, and help inform decisions with respect to infrastructure and 
development associated with development of energy resources.
    Question (20). The Federal Government and the State are joint 
partners in the Alaska Mapping Initiative, with the goal of improving 
the topographic maps for the State. Some of the maps are over 50 years 
old and vital to aviation safety, land use planning, and research. The 
President's fiscal year 2017 budget proposes to increase funding for 
this program by $1.5 million.

    a.  If the President's proposed increase of $1.5 million is 
included in the fiscal year 2017 appropriations bill, that would bring 
this initiative to a total program funding level of $6.7 million. At 
that rate, how long would it take to complete the maps?

    Answer. Alaska has many broad mapping needs, including topographic 
maps. The $1.5 million proposed increase relates to topographic mapping 
supported/implemented by the USGS National Geospatial Program (NGP). 
With the proposed increase and continued funding from our Federal 
partners, we estimate that it would take 5 years (2021) to complete 
statewide coverage of ifsar elevation data and 6 years (2022) to 
complete the statewide topographic maps for Alaska.

    b.  What percentage of the State now has updated maps and what 
areas pose the most challenges for mapping?

    Answer. As of March 2016, 15.6 percent of Alaska has published 
topographic maps. The NGP's most challenging areas for collecting and 
assembling high-quality elevation map data for Alaska include low-lying 
coastal deltas with complex lake and river systems, the Aleutian 
Islands and other remote islands in the Bering Sea. Other challenges 
include expensive aircraft mobilization costs, limited time over the 
acquisition targets, and severe weather conditions.

    c.  Will these maps be available in digital form and how accurate 
will they be compared to topographic maps in the Lower 48?

    Answer. All Alaska topographic maps are available online in digital 
format (geoPDF). The data are free and the public can easily use this 
file type across multiple platforms (desktop, Web, and mobile). Anyone 
can upload the data into digital mapping/spatial analysis software to 
build new applications for research, education, or industry.
    USGS follows the same procedures used for map production for the 
lower 48 in compiling new maps for Alaska. The elevation data accuracy 
for the Alaska topographic maps (produced at a scale of 1:25,000) is 
the same for topographic maps for the lower 48 States which follow 
USGS' National Map Accuracy standards for 1:24,000 scale mapping. With 
current funding, USGS corrects major errors for the majority of Alaska 
map production and we have updated approximately 10 percent of the 
State hydrography to meet higher specifications, where State funding 
contributions have supported these efforts.
    Question (21). The United States Geological Survey operates the 
Alaska Volcano Observatory, a joint entity with the University of 
Alaska. USGS operates five such observatories in the Western United 
States. The observatory maintains a series of seismic monitors on 
volcanoes in Alaska, largely on the Alaska Peninsula and the Aleutian 
Chain, near the air corridor for flights to America from Asia. Ash from 
eruptions is particularly dangerous to such flights as shown by the 
near crash of a jumbo jet years ago.

    a.  The President's fiscal year 2017 budget proposes a very small 
increase for the Volcano Hazards Program, $117,000 for fixed costs, 
even though the entire USGS budget request is an increase of 10 
percent. I understand there has been some progress made on the repair 
and monitoring systems on Alaska Volcanoes and I appreciate the good 
work that is being done there, but I am afraid we are not doing enough. 
It was also brought to our attention that the good work we are doing 
now to repair these systems may not be in compliance with the changing 
Federal Communications Commission (FCC) regulations over radio 
frequency spectrum allocations.

    Answer. USGS radio telemetry networks fall under the jurisdiction 
of the National Telecommunications and Information Administration 
(NTIA) for spectrum allocation. Telemetry networks at most Very High 
Threat volcanoes in Alaska (Spurr, Redoubt, Augustine, and Makushin) 
are nearly compliant with NTIA spectrum allocation regulations. The 
Alaska Volcano Observatory (AVO), operated by the USGS in partnership 
with the University of Alaska and the Alaska Division of Geological and 
Geophysical Surveys, is focused on achieving full network compliance at 
these volcanoes as soon as possible. As part of ongoing maintenance and 
repairs, the USGS typically converts six to eight stations per year 
from analog to digital.
    To address near-term public safety concerns, the USGS used funding 
received in 2015 to bring defunct and severely impaired networks back 
on line. This required maintenance of existing analog telemetry links 
that USGS cannot use past 2020.

    b.  Are you familiar with the FCC spectrum allocation issue? Are 
the systems we are repairing in compliance with the FCC regulations or 
are we repairing a system that will need to be converted to digital in 
the next few years?

    Answer. USGS radio telemetry networks fall under the jurisdiction 
of the National Telecommunications and Information Administration 
(NTIA) for spectrum allocation. Changes to the spectrum guidelines and 
allocations made USGS analog telemetry networks for volcano monitoring 
in Alaska non-compliant. NTIA authorization permits USGS to use the 
deprecated frequencies until 2020, which provides time to bring the 
system into compliance by transitioning the networks to new digital 
technology operating on an authorized spectrum.
    As part of ongoing repair and maintenance, the USGS makes analog to 
digital conversions when possible. This typically results in converting 
six to eight stations per year. To address public safety concerns, the 
USGS used fiscal year 2015 funding to bring defunct and severely 
impaired networks back on line. Bringing the networks back on line 
required maintenance of existing analog telemetry links that the USGS 
cannot use past 2020.

    c.  Could you provide this committee with the current gaps in the 
monitoring infrastructure at the Alaska Volcano Observatory and the 
estimated costs to complete the monitoring system?

    Answer. The USGS has identified five Very High Threat and 27 High 
Threat volcanoes in Alaska. None of these 32 volcanoes have complete 
monitoring networks by the USGS standards for the National Volcano 
Early Warning System (NVEWS) and none of the existing networks are 
compliant with National Telecommunications and Information 
Administration (NTIA) regulation and guidelines for spectrum 
allocation.
    The USGS has until 2020 to achieve compliance with the NTIA 
regulations. Telemetry networks at most Very High Threat volcanoes are 
nearly compliant. The estimated cost of upgrading to a NTIA-compliant 
system is $18.5 million over 4 years over current funding levels. 
Completing the conversion in 3 years, instead of four, would increase 
the cost to $20.2 million, with the increase necessary to fund 
additional staff to complete the work at the accelerated pace.
    Additionally, to fully reach the USGS standards for NVEWS for the 
32 Very High Threat and High Threat volcanoes in Alaska, the USGS 
estimates 237 additional monitoring instruments (e.g., seismometers, 
GPS receivers, and remote cameras) are required. The chart below 
describes the current monitoring capabilities of the USGS in Alaska. 
The average cost of deploying an instrument on an Alaskan volcano is 
approximately $90,000. The total estimated cost to bring Alaska's 
volcano monitoring networks up to NVEWS standards is $21.3 million 
($4.4 million for the five Very High Threat volcanoes and $16.9 million 
for the 27 High Threat volcanoes). This includes all aspects of 
installation, including instrument procurement, logistics, power 
systems, data telemetry, instrument housing, and permitting, but does 
not include the cost associated with the telemetry upgrades needed for 
NTIA compliance. The telemetry upgrades are necessary to support the 
new instrumentation. In most cases, NVEWS-guided augmentation with 
additional instruments would proceed in tandem with the analog-to-
digital conversion work.
    Upgrading the monitoring system to NTIA compliance and completing 
the monitoring system to NVEWS standards would cost an estimated $39.8 
to $41.5 million in total.


----------------------------------------------------------------------------------------------------------------
                                                                                          Number of Volcanoes
                                                                                     ---------------------------
      Current Monitoring Level            Current Monitoring Level Capabilities         Very High
                                                                                         Threat      High Threat
----------------------------------------------------------------------------------------------------------------
None...............................  Eruptions detected after the fact by satellite             0             4
                                      or direct observation. Eruption forecasting is
                                      not possible. No research potential.
Minimal............................  Significant eruptions likely detected, but                 0             5
                                      small events missed. Eruption forecasting is
                                      not possible. Little if any research
                                      potential.
Limited............................  Most eruptions detected. Forecasting possible              1            17
                                      under ideal circumstances. Sensor data of
                                      limited usefulness for research.
Basic..............................  Nearly all eruptions detected and some                     4             1
                                      successfully forecast. Sensor data have
                                      research potential.
Complete...........................  All eruptions detected and most successfully               0             0
                                      forecast. Sensor data have excellent research
                                      value.
----------------------------------------------------------------------------------------------------------------
      Totals........................................................................            5            27
----------------------------------------------------------------------------------------------------------------


    Question (22). In 2014, Congress passed the BLM Permit Processing 
Improvement Act of 2014.

    a.  How has the passage of the legislation impacted permit 
timelines?

    Answer. The higher application for permit to drill (APD) fee of 
$9,500 and associated allocations to the particular BLM offices went 
into effect on October 1, 2015. The increased fee has the ability to 
generate additional revenue, and therefore provide increased resources 
for processing permits, all other things being equal. However, because 
of market forces beyond the BLM's control, most notably the recent 
steep drops in the price of natural gas and oil, there has been a 
significant drop in the number of APDs submitted, which has reduced 
revenues coming to BLM for APD processing. Based on the past 6 month's 
observation, the BLM has not seen any overall impacts to the permitting 
timeline as a result of the Act. That said, over the past 4 years, the 
BLM has made significant progress in reducing the time to process an 
APD--permit times have dropped from an average of 307 days in 2011 to 
an average of 220 days in 2015.

    b.  The reauthorization also required BLM to report to Congress by 
February 1 each fiscal year the allocation of funds to each office and 
the accomplishments of each office. Where is that report?

    Answer. The BLM has prepared a draft report for fiscal year 2015. 
This report is in the Department of the Interior review process and 
will be submitted as soon as that process has been completed.
    Question (23). Over the last several years the Department of the 
Interior has proposed or finalized a number of offshore and onshore 
rules and regulations including the BLM hydraulic fracturing rule, 
updates to BLM Onshore Order 3, 4, and 5, the BLM venting and flaring 
proposal, the release of BLM Land Use Plan Amendments that limit areas 
where oil and natural gas development can take place, changes to ONRR's 
civil penalty regulations, additional regulations to Arctic OCS 
operations as well as the proposed Well Control Rule, potential changes 
to onshore royalties, bonus bids, etc. Interior is also expected to 
propose updates to offshore air regulations and there are also a number 
of additional items included in the Unified Agenda that have not been 
proposed. All of this regulatory activity is taking place at a time 
when investment on Federal land oil and natural gas production 
continues to fall. Each of these items on their own may have a chilling 
effect on future investment and interest in Federal production of oil 
and gas and taken together, the cumulative impacts could potentially 
alter not only production on Federal lands but also government revenue 
as a result.

    a.  Are you analyzing and considering the cumulative effect of each 
regulation on an individual basis as well as combined with the entire 
suite of regulations? How do you ensure that the Department adheres to 
its multiple-use mandate and continues to place great value on the oil 
and gas production on Federal lands and the important revenues that 
come to the Treasury as a result?

    Answer. The regulations being updated have not been revised for 
decades, and it is long past time to modernize them to reflect recent 
technological advances in oil and gas production, health and safety 
protection, and waste prevention. Reflecting reasonable and common-
sense revisions to existing requirements, these regulatory updates 
incorporate modern industry practices and technology, and we therefore 
do not expect them to pose an undue burden on industry.
    Consistent with Federal requirements, the Department has conducted 
analyses of the economic effects of the rules and presented those 
findings in the Regulatory Impact Analysis for each rule. These 
analyses evaluate each rule individually, because there is so much 
geographic and operational variability in where and when the rules will 
apply, and whether and how they will impact operators. That said, a 
number of the new standards reflect existing industry best practices, 
with which many operators are already in partial or full compliance. 
Moreover, some of the measures will actually save producers money. 
Finally, many of the rules incorporate grandfathering or other 
provisions that are specifically designed to take account of operators' 
concerns about the rules' impacts, including impacts on lower-producing 
wells.
    Question (24). The decision by DOI to pull the Arctic lease sales 
in the 2012-2017 Five Year Program as well as the denial of lease term 
extensions was shortsighted and without justification. Access to oil 
and natural gas resources in the Alaska OCS is essential to the 
Nation's economy and energy security and predictable leasing and 
workable regulations are necessary to take advantage of this vast 
resource. The Arctic contains the world's largest remaining 
conventional undiscovered oil and natural gas. Given the resource 
potential and long timelines required to bring Arctic resources to 
market, decisions made today will have an impact on industry's ability 
to provide the U.S. oil production of the future.

    a.  How does the Department view the importance of Arctic resources 
and our need to continue exploration and development in the Arctic, 
especially as other nations continue to reap the benefits of Arctic 
development?

    Answer. Alaska continues to be an important part of the Nation's 
energy strategy. BOEM estimates that there are more than 23 billion 
barrels of undiscovered technically recoverable oil in the Chukchi Sea 
and Beaufort Sea planning areas, including multiple geologic plays. 
This is based on information gathered from over 30 exploration wells 
drilled in the Arctic, seismic data, and analogous reservoir analysis.
    Significant acreage in the Chukchi and Beaufort Seas is already 
under lease, including some of the best prospects. As of April 2016, 
there were 434 existing leases in the Chukchi Sea and 77 in the 
Beaufort Sea. In addition to the Liberty project that is currently 
under review, should DOI receive any exploration and development 
proposals from industry, we will review them to ensure safe and careful 
exploration and development in the Arctic.
    Recognizing the significant oil and gas potential in the Arctic OCS 
region, industry interest, and the views of the State of Alaska, the 
2017-2022 Proposed Program, published on March 18, 2016, schedules 
three potential sales offshore Alaska, one in each of the Beaufort Sea, 
Chukchi Sea, and Cook Inlet. The Department is soliciting comments on 
this proposal through June 16, 2016. In March, Director Hopper traveled 
to the North Slope of Alaska to get input on the proposed Five Year 
Program and the bureau will continue its outreach to encourage 
stakeholder and partner feedback from Alaskan communities. Comments 
received will inform the Proposed Final Program, scheduled to be 
published in late 2016.
    In advance of any potential lease sale offshore Alaska, BOEM will 
continue to use scientific information and stakeholder and partner 
feedback to proactively determine which specific areas offer the 
greatest resource potential while minimizing potential conflicts 
associated with the environment, subsistence activities, and multiple 
use concerns.

    b.  Does the Department's lack of regulatory uncertainty, which 
only becomes greater with the proposed Arctic rule and the proposed 
Well Control rule, play a part in the unsuccessful project last year?

    Answer. Over the course of two different offshore drilling seasons, 
the Department has been transparent and consistent about what it will 
require to ensure drilling operations conducted in the Arctic are 
conducted in a safe and environmentally responsible manner. On 
September 28, 2015, Shell announced in a press release that it ``found 
indications of oil and gas. . . . but these were not sufficient to 
warrant further exploration.'' This followed the 2015 drilling season, 
during which BSEE and BOEM approvals were conditioned on requirements 
consistent with many of the provisions contained in the proposed Arctic 
Rule. These requirements were similar to a number of the requirements 
that BSEE and BOEM imposed on Shell during 2012.
    Question (25). I am very concerned with the BOEM-BSEE proposed 
Arctic rule because it imposes prescriptive requirements, including the 
requirement for a same-season relief well, assuming that one solution 
universally applies to any given Arctic location. Instead, the rule 
should look to using performance-based rule which allow an operator to 
minimize risks by designing a well program specific to the landscape, 
ecosystem, ice conditions, water depths and weather of that particular 
well. The rule should focus on prevention and consider fit-for-purpose 
response planning alternatives to respond to potential loss of well 
control.

    a.  What is the likely timing of the final Arctic rule? Do you 
believe that you have an opportunity to step back and take time to 
assess the Arctic rules package and examine the NPC report before 
putting out a final rule since you've closed the door on leasing in 
this current Five Year program?

    Answer. BSEE and BOEM have closely considered the National 
Petroleum Council (NPC) Arctic Potential Study, as well as many other 
studies and resources. Representatives from BSEE were involved in the 
NPC Study and were aware of many of the technical discussions and 
analysis that occurred prior to publication. The Department is in the 
process of finalizing its Arctic drilling rule, which would apply to 
exploratory drilling operations in the U.S. Arctic. The Department is 
carefully considering all comments received on the Proposed Rule as it 
works to complete the rulemaking process. We intend to publish a Final 
Rule later this year.

    b.  How will this timing match with the BSEE well control rule, 
which as you know will also apply in the Arctic? Would it make more 
sense to hold the Arctic rule's final release until after the well 
control rule is final and allow for comments to inform how both set of 
rules will affect the Arctic before finalizing and implementing?

    Answer. The Department promulgated the Well Control Rule on April 
29, 2016 (see 81 FR 25887). BSEE has carefully considered comments on 
each Rule and the potential overlaps between the two Rules.

    c.  Has DOI taken a hard look at the NPC report and made agency 
adjustments or taken counsel from it?

    Answer. Yes, the Department has reviewed the NPC Arctic Potential 
Study carefully, along with many other studies and analyses. Many of 
the findings are consistent with BOEM and BSEE's assessment of 
operations in the Arctic.
    For example, the NPC study recommends that BSEE ``[e]ncourage 
innovation by providing for the incorporation of technological 
advancements'' (NPC Study, Executive Summary, p. 51). BSEE regulations 
specifically allow for approval of innovative technologies that provide 
equal or greater protection to personnel and the environment (30 CFR 
Sec. 250.141). The proposed Arctic regulations clarify that this 
provision can be utilized to approve equipment for use in Arctic 
drilling operations.
    Additionally, Chapter 10, entitled ``The Human Environment,'' 
presents a detailed assessment of the effects of oil and gas activities 
in the Arctic on human health, economic development, and culture. BSEE 
agrees with the NPC's recommendations that industry, government, and 
stakeholders should work to preserve cultural sustainability, ensure 
food security, optimize consultation and community engagement, develop 
traditional knowledge studies, standardize socioeconomic impact 
assessment processes, and evaluate collaboration frameworks.
    In some areas, BSEE does not agree with the study. Chapter 8 of the 
study, entitled ``Arctic Offshore Oil Spill Prevention, Control, and 
Response,'' stressed the importance of prevention ``as the primary 
defense against loss of well control.'' The chapter identifies a number 
of controls and barriers that should be in place to prevent oil spills 
in the Arctic. BSEE agrees that the identified barriers and controls 
are crucial to operators' prevention efforts. BSEE does not, however, 
agree that the implementation of prudent prevention measures should 
eliminate the need to have available equipment and/or a rig to respond 
to a loss of well control.
    There are many other aspects of the NPC Study--both the findings 
and the recommendations--that are consistent with both the proposed 
Arctic offshore drilling regulations and with BSEE's overall approach 
to oversight of offshore drilling operations on the Arctic OCS.
    Question (26). The increased domestic oil and gas production we 
have been witnessing is occurring almost entirely on private and State 
lands where the Federal Government does not have control. This is 
because it can still take from 240 to as much as 300 days to get a 
permit to drill on BLM managed lands, and where it can take as much as 
10 years to complete an environmental review. The Department has taken 
steps to expedite the permit process for projects on Federal lands that 
involve renewables, or the infrastructure for renewables, but in the 
case of oil and gas resources the Department has increased permitting 
burdens.

    a.  Can you explain the apparent discrepancy between how the 
Department treats permitting for renewable energy projects, and 
projects for the exploration and production of natural gas and crude 
oil?

    Answer. Since 2008, oil production is up 108 percent on lands where 
drilling requires a BLM permit. This doubling of production is greater 
than the 88 percent increase in oil production that occurred on all 
lands nationwide during the same time period. In fiscal year 2015, the 
BLM approved over 4,228 Applications for Permit to Drill (APDs) on 
Federal and Indian lands, yet industry only drilled 1,927 wells. The 
BLM also continued to make significant progress in reducing the time to 
process an APD--permit times have dropped from an average of 307 days 
in 2011 to an average of 220 days in 2015. The BLM also continued to 
make significant progress in fiscal year 2015 at reducing the number of 
pending APDs. As of the end of the year, the BLM had roughly 7,500 
approved APDs that have not yet been drilled, more than ever before. 
These APDs are ready for immediate use by industry without further 
action by the BLM.
    To further build upon these improvements, the BLM continues to make 
strategic investments in technology to streamline the permit review 
process. Most notably, BLM recently completed the bureau-wide 
deployment of the update to its permit processing system, AFMSS II. 
That update will help streamline the review process and will allow BLM 
and applicants to better track the progress of individual applications. 
The BLM is committed to building on this progress and continuing to 
improve the APD review and approval process.
    It should also be noted with respect to the BLM's treatment of 
permitting requests for renewable energy relative to oil and gas that 
much of the expedited process currently used for renewable energy 
projects is patterned directly on efficiencies developed in the oil and 
gas permitting context.
    Based on its experience in the oil and gas program, the BLM took 
the following actions with respect to the Renewable Energy Management 
program:

  --Established special permitting offices (Renewable Energy 
        Coordination Offices),
  --Improved early coordination with State and other Federal agencies, 
        and
  --Identified important energy zones and then completed comprehensive 
        environmental analyses (i.e. Solar PEIS, Wind PEIS and the 
        Geothermal PEIS), in order to provide additional upfront 
        analysis that could then be used to simplify the project-
        specific NEPA required for permitting individual development 
        projects.

    All of these processes were first developed and utilized for oil 
and gas. The processes used for both energy sources are largely driven 
by the same or similar land and environmental laws and procedures. The 
most expedited solar project approval occurred in the Dry Lake Solar 
Energy Zone in Nevada; utilizing these steps, the BLM took 300 days 
from lease sale to project approval.
    Question (27). On lands administered by the BLM there are thousands 
of older wells, many producing less than 15 barrels of oil per day. 
However, in the aggregate, this so-called ``stripper production'' 
represents several percent of America's domestic crude oil production. 
In the past year, BLM has introduced four rulemakings (site security 
and commingling, measurement of crude oil, measurement of natural gas, 
venting and flaring) that taken together could significantly increase 
costs of operation on these older leases, possibly resulting in 
shutting in production.

    a.  Is an agency like BLM that already struggles to issue permits 
to drill from companies holding BLM leases within 300 days, staffed and 
equipped to manage the expansion of its regulatory mandate?

    Answer. The BLM has an obligation to ensure that operators 
accurately measure, properly report, and account for all oil and gas 
production, and reduce waste associated with that production. Yet the 
BLM's rules governing oil and gas measurements and waste reduction have 
not been updated in over 25 years. As a result, the Government 
Accountability Office (GAO), the Office of the Inspector General, and 
the Department of the Interior Royalty Policy Committee have all 
concluded that these existing rules provide no assurance that 
production is being accurately measured, that all of the royalties due 
are paid, and that waste is minimized. The proposed rules also address 
the many new technologies that have been developed and adopted by 
industry since the current regulations were put in place.
    That said, the BLM also recognizes that the royalty risk (i.e., the 
risk posed by inaccurate measurement from a particular well) at a given 
well is a function of its overall production level and that low level 
wells pose less of a risk than higher level wells. It is precisely this 
recognition that led the BLM to include in the proposed onshore orders 
thresholds that reduced the requirements applicable to lower volume 
wells. In some cases these proposed changes reduced the compliance 
burdens on low volume properties relative to existing requirements. 
Based on the comments received, the BLM is carefully evaluating those 
thresholds to see if further refinements are necessary to ensure that 
the burden imposed on any given facility by the new measurement rules 
is comparable to the royalty risk presented by that facility.
    In addition, the Methane and Waste Prevention Rule includes some 
provisions to streamline implementation for both industry and the BLM. 
For example, the flaring provisions would reduce regulatory burden by 
eliminating the existing requirement to submit a sundry notice for each 
request to flare gas.

    b.  Why is the focus of the Department and BLM on adding permit 
obligations for oil and gas operations when on the contrary the 
Department's focus is on expediting permitting for renewable energy?

    Answer. As part of the administration's All-of-the Above Energy 
Policy, the BLM manages the public lands for both conventional and 
renewable energy. The BLM has a statutory obligation to balance this 
energy development with other use of the public lands and to ensure 
that the development occurs in an environmentally sound manner and 
provides a fair return to the taxpayers for use of those lands and 
mineral resources.
    With respect to the permitting requirements for conventional energy 
development, the BLM is not adding permit obligations, but rather is 
proposing commonsense updates to its existing rules designed to ensure 
that operators accurately measure, properly report, and account for all 
production from Federal and Indian lands. The existing rules do not 
reflect modern technology or practices, and therefore, in some 
instances, require the review, submittal, and processing of unwarranted 
variance requests. These circumstances will be addressed by the final 
rule.
    Question (28). Not long ago, the Social Security Administration 
engaged in an aggressive program to obtain a new custom designed 
computer system to deal with disability claims. After spending over 
$300 million, they had a very little to show for it. They had a program 
racked with delays and mismanagement, but no new working custom system. 
Likewise, the U.S. Citizenship and Immigration Services spent more than 
$1 billion trying to replace its approach to managing immigration 
documents with digital online forms, and as of this fall it had only a 
single online form, the form to replace a lost green card online.
    You're probably wondering what does this have to do with the 
Federal land management agencies. But right now, as I understand the 
situation, those agencies are working to refurbish the Federal 
Government's campsite booking Web site, Recreation.gov, which hosts 
virtually all online booking for not only the National Park Service but 
also the U.S. Fish and Wildlife Service, the Bureau of Reclamation in 
addition to Forest Service campgrounds, and even many of the Army Corps 
of Engineers facilities. Many people use this online system every year, 
and if things go bad it could be a very big black eye for these land 
management agencies that could have broader impacts to the recreation 
fee program in general, particularly as we approach the Park Service 
Centennial.
    I am asking for an assurance from you that you are going to do 
everything possible to make sure that any improvements to the online 
reservation system doesn't risk ending up with missed deadlines, and 
rollout delays caused by mismanagement and untested products or custom 
created software, like I mentioned. I hope you will work to ensure that 
the system will be dependable, time tested, secure and cost effective 
for the United States.

    a.  Will you examine the situation and make sure that we are not 
headed down a pathway like those I mentioned?

    Answer. The Recreation.gov contract is funded entirely by revenues 
generated from the recreation fees and reservation fees charged to 
visitors who make reservations. The current contract that provides the 
reservation and trip planning service for Recreation.gov is nearing the 
end of the period of performance and will be extended as needed to 
ensure that there is no disruption of service.
    In this digital age, software solutions should be designed not by 
software engineers writing code but by the people who will be using the 
system so that the final product truly serves the needs of the 
government and the people. It is also critical to ensure that the 
solution is nimble enough to adapt to emerging technologies throughout 
the life of the contract. The Recreation One-Stop (R1S) program has 
been conducting market research for over 2 years in order to identify 
emerging technologies and additional vendors who can provide the kind 
of service that meets modern customer expectations.
    The R1S program has adopted the tenets laid out in the US Digital 
Services Playbook in which we will employ `Agile' software development 
principles and processes. Agile development is the new norm in the 
private sector and, by following its best practices, we aim to provide 
a superior service and pleasant customer experience. This will entail 
face-to-face meetings with the contractor's program management and 
software development teams. We intend to work in short `sprints' to 
write, test, and deploy usable code that will provide all of the tools 
for trip planning, reservations, financial processing, reporting, 
design, and customer service. As sprints are completed, we will test 
each portion of the code to ensure that it meets the government's needs 
and public expectations. Code that does not pass testing will be 
immediately identified for correction. By using this method, the R1S 
program will be involved at every step to ensure that we do not end up 
with an unusable product when it is time to transition. The public and 
many other stakeholders will be involved in the development and testing 
throughout this process to ensure that we are able to deliver what the 
public wants. The contract requirements include the highest levels of 
information security, privacy protection, secure financial processing, 
and compliance with all applicable laws and regulations pertaining to 
government IT services.

    b.  As a way to ensure data security indeed does meet the highest 
standard, will you be using people who are Payment Card Industry Data 
Security Standard (PCI) compliant?

    Answer. Payment Card Industry Data Security Standard (PCI) 
compliance is an absolute requirement in the new (and current) 
contract. With the number of credit card transactions processed, the 
contractor's system is required to meet the highest level of PCI 
compliance.
    The contractor must also deliver security that ensures compliance 
with the Federal Risk and Authorization Program (FedRAMP), Federal 
Information Processing Standards (FIPS), Federal Information Security 
Management Act (FISMA), and the Privacy Act.
    Question (29). While many land management agency units are 
available as part of Recreation.gov, we know there are additional units 
that could take benefit from additional exposure. What are you doing to 
make sure more of your units are able to be part of the recreation.gov 
system and timeframes for bringing them online?
    Answer. Recreation.gov currently hosts reservation services for 
over 3,200 locations which include campgrounds, picnic shelters, 
cabins, lookouts, yurts, tour ticketing, event lotteries, and a variety 
of wilderness permits. More locations continue to be added every year. 
When the system was launched in 2006, the primary focus was to provide 
reservations for basic front country campgrounds. Since that time, the 
R1S program recognized the need to expand the service to cover many 
different types of facilities and activities. This was one of the 
driving factors in moving to a more agile approach that affords the 
agencies the flexibility to use the platform for a wide variety of 
facilities and activities.
    The R1S program expects that, upon launch of a new contract, the 
service will be able to support many more operations; this should 
facilitate the incorporation of reservation services more broadly. The 
new contract also requires that the contractor proactively `market' the 
service to all agencies where it is appropriate. This includes offering 
Web services which can improve the efficiency and effectiveness of 
local operations.
    Question (30). What, if any, human resources planning has OSMRE 
done in preparation for or in advance of the proposed Stream Protection 
Rule?
    Answer. OSMRE typically makes human resource planning decisions 
based upon on the overall workload for the entirety of its regulatory 
and oversight program. The actual staff number may change depending on 
the program areas, the presence or absence of problems, input from the 
public, and the terms of the performance agreements in each State. The 
estimated annual hours for Federal oversight of the proposed Stream 
Protection Rule does not warrant any additional human resource 
planning.
    Question (31). Which, if any, employment assignments or employee 
deployments have been made as a consequence of the Stream Protection 
Rule?
    Answer. OSMRE has not found it necessary to make new assignments or 
employee deployment changes as a consequence of the Stream Protection 
Rule.
    Question (32). Does OSMRE employ any ``hydrogeologists''?
    Answer. OSMRE currently has about 15 highly qualified technical 
staff classified under the ``hydrologist'' title. All have formal 
education, experience, and technical credentials in the area of surface 
and groundwater hydrogeology.
    Question (33). What, if any, human resources planning has BLM done 
to satisfy mitigation measures, both those created by the Presidential 
Memorandum and the Department's own mitigation manual and efforts?
    Answer. In the fall of 2013, Secretary Jewell released Secretarial 
Order 3330, Improving Mitigation Policies and Practices of the 
Department of the Interior. Secretary Jewell directed the Department 
and each of its bureaus to follow a common set of principles for its 
mitigation programs while using a landscape-scale approach building on 
and expanding concepts pioneered in the BLM's 2013 interim mitigation 
policy. Consistent with Secretarial Order 3330 and incorporating key 
lessons learned since release of the interim mitigation policy, the BLM 
is working to revise and finalize its mitigation policy to ensure it is 
responsive to emerging best practices and compatible with similar 
policies being developed by sister agencies and States.
    Secretarial Order 3330 and the BLM's interim mitigation policy 
address concepts that broadly apply to mitigation--including principles 
of additionality, durability, and transparency--without prescribing the 
amount of mitigation that might be required for any given project. In 
general, the BLM will continue to identify appropriate mitigation 
measures by evaluating the specific impacts of each project proposal, 
in light of applicable BLM land use plans and in compliance with the 
National Environmental Policy Act (NEPA).
    Mitigation broadly refers to a set of tools that allows the BLM to 
permit projects while responding to the concerns of local communities 
and meeting our mission of multiple use and sustained yield. For many 
years, the BLM has recognized a need to bring greater consistency to 
the use of these tools and to increase their availability to solve 
resource challenges like supporting development while planning for the 
recovery of the Greater sage grouse. Accordingly, the BLM has sought to 
better plan and train staff to help support the implementation of 
mitigation policies that will allow for more streamlined permitting, 
more consistent application of mitigation across offices, and better 
outcomes for resources. This includes identifying a national mitigation 
lead in the Washington Office as part of the agency's resource planning 
and decision support staff to ensure greater consistency and 
identifying State mitigation leads in each State Office to provide 
expertise as well as a consistent point of contact for State 
governments seeking to coordinate with the BLM on mitigation efforts. 
Already, State governments across the West are working with the BLM and 
our Federal partner agencies to establish and deploy some of these 
innovative tools. The BLM seeks to further support these collaborative 
efforts.
    Question (34). Which, if any, employment assignments or employee 
deployments have been made as a consequence of the new mitigation 
efforts? If the answer is that mitigation efforts have had no human 
resource planning or employment consequences, please explain why that 
is the case.
    Answer. As noted above, the BLM has identified a national 
mitigation lead to bring greater consistency to our efforts and has 
identified State mitigation leads to provide stronger State-level 
expertise and coordination with State governments. The BLM has long 
considered mitigation through the agency's routine resource management 
planning process and through individual project reviews as appropriate, 
and that will continue to be the case.
    Question (35). What vacancies does the Department currently have, 
and what are the Department's plans or intentions to fill those 
vacancies?
    Answer. The BLM has not increased staffing levels to address 
mitigation efforts. However, staffing has been reorganized to meet the 
requirements of the Presidential Memorandum and the Department's 
mitigation work. This reorganization includes identifying one position 
on the Washington Office staff for the role of national mitigation 
lead. This position is currently being advertised on USAJOBS. At the 
State level, mitigation leads are assigned as a collateral duty and 
these are not new positions. At the field level, mitigation functions 
are generally performed by BLM's existing planning or project 
management specialists.
    Question (36). The BLM's draft updated planning rule, known as 
Planning 2.0, seeks to updated the agency's planning process.

    a.  One of the frustrations frequently expressed by public lands 
communities regarding the planning process is that the BLM takes their 
comments, but does not truly consider the needs of the area, 
particularly when it comes to projects that potentially provide 
opportunities for economic development. How will the new rule improve 
BLM's coordination with State, county, and local governments? Will 
there be certainty for the manner in which BLM will consider the needs 
of State, county, and local governments.

    Answer. The proposed rule would improve coordination with State, 
county, and local governments by requiring communication and 
coordination early in the planning process. Two new steps would include 
(1) input into the development of the planning assessment and (2) 
review of the preliminary alternatives, rationale for alternatives and 
basis for analysis prior to issuance of the draft plan.
    During the planning assessment the BLM would coordinate with State 
and local governments to identify the best available data for the 
planning area. BLM frequently hears from our State and local partners 
that they often have the best data for a resource and they want to 
ensure that BLM uses this data. This proposed step would respond to 
these requests and ensure early coordination on data and information 
sharing. During this step the BLM would also coordinate with State and 
local governments to identify existing State and local land use plans 
to begin to seek consistency between local land use plans and BLM's 
Resource Management Plans (RMPs).
    Once BLM has developed a preliminary range of alternatives, the BLM 
will make these preliminary alternatives and rationale available to 
State and local partners for review. This new coordination step will 
allow State and local governments to provide early feedback to the BLM 
on the alternatives and whether the range of alternatives adequately 
considers the needs of State and local governments. The BLM will use 
this feedback to revise the alternatives and develop a draft resource 
management plan that is more responsive to the needs of State, county, 
and local governments.
    Question (37). One of the goals of Planning 2.0 is to ``improve the 
BLM's adaptability to respond to social and environmental changes.'' 
What types of social change does the BLM need a new rule in order to 
adapt to? Also, what types of environmental change require the new 
rule?
    Answer. The proposed rule would provide the BLM the tools necessary 
to respond to both social and environmental change in an efficient and 
effective manner. Examples of social change that affect the public 
lands include the increased demand for recreation on public lands, 
changes in the composition and needs of local communities, or new 
emerging markets such as the increasing demand for renewable energy 
development on public lands. Examples of environmental change that 
affect the public lands include severe drought, catastrophic wildfire, 
or changes in plant community composition due to invasive species or 
pest infestations.
    Question (38). I've made no secret about my concerns with this 
administration's practices relating to mitigation. The President's 
Memorandum entitled, Mitigating Impacts on Natural Resources from 
Development and Encouraging Related Private Investment, coupled with 
your Secretarial Order 3330 on mitigation have only served to further 
my initial apprehension.
    The President's Memorandum mandated that, ``[w]ithin 1 year of the 
date of this memorandum, the Department of the Interior will develop 
program guidance regarding the use of mitigation projects and measures 
on lands administered by bureaus or offices of the Department through a 
land-use authorization, cooperative agreement, or other appropriate 
mechanism that would authorize a project proponent to conduct actions, 
or otherwise secure conservation benefits, for the purpose of 
mitigating impacts elsewhere.''

    a.  Is there a status update as to where the DOI and its relevant 
agencies are in the development of program guidance?

    Answer. The Department is working diligently on the policies 
required by the Presidential Memorandum (PM), including the guidance 
document identified above. The primary work by the Bureau of Land 
Management (BLM) and the Department since the publication of the PM has 
been to finalize BLM's forthcoming mitigation handbook and manual.
    Question (39). I understand mitigation can be a great tool for land 
managers, but what authority does the Department have to require 
mitigation for projects on public lands under the Department's 
jurisdiction? And, to that end, what authority is there to require that 
mitigation meet a standard of benefit for natural resource damage?
    Answer. The Department's authority to seek a net benefit in 
recommended or required mitigation actions is derived from the 
underlying statutory authority mandating the management of the impacted 
resource. Under these authorizations, the bureaus and offices of the 
Department are responsible for managing different resources and for 
different purposes.
    For example, the Federal Land Policy and Management Act (FLMPA) 
mandates management of resources in accordance with the principle of 
sustained yield, which is defined as the ``maintenance in perpetuity of 
a high annual or regular periodic output'' of such resources. Where, 
for example, past practices have degraded resources so as to reduce 
their annual or regular periodic output to low levels, requiring that 
mitigation achieve a net benefit is consistent with the statutory 
mandate to achieve and maintain a high periodic output by restoring 
such resources to pre-degradation levels.
    Question (40). Along the same lines, given that much of the 
framework from the Presidential Memorandum reflects your own mitigation 
efforts stemming from your Secretarial Order 3330, please explain in 
detail what you hoped to achieve through your own mitigation efforts?

    a.  How will those efforts would be implemented across your 
Department and with other Department sub-agencies and among sister 
agencies where mitigation efforts and/or natural resource impacts 
straddle multiple jurisdictions.

    Answer. A stated goal of the Council on Environmental Quality and 
the Department in establishing new mitigation policies is the 
transparency, efficiency, and consistency such guidance will bring to 
permitting processes. Although a multitude of factors play a role in 
successful permitting and project development, mitigation principles 
espoused by these policies, such as efforts to produce better avoidance 
and the consideration of mitigation measures early in the permitting 
process, are intended to reduce permit times and create better outcomes 
for impacted resources.
    To ensure the Department's ability to achieve these objectives 
consistently, bureaus and offices of the Department have established 
common frameworks to apply the mitigation hierarchy in the development 
of mitigation recommendations and requirements. The frameworks create 
consistency in how bureaus and offices implement mitigation in a number 
of important ways, including the use of a compensatory mitigation goal; 
a clear and stated preference when selecting between compensatory 
mitigation providers; use of standardized definitions and terms; and 
adherence to a consistent set of standards to ensure equivalency among 
compensatory mitigation providers, among others.
    Question (41). The Bureau of Land Management briefed the Senate on 
the Presidential Memorandum, and admitted to not having a rigorous 
understanding of impacts to subsistence use. Nevertheless, the 
Department assigned an $8 million impact in the National Petroleum 
Reserve--Alaska (NPR-A). What metrics are used generally to determine 
dollar values associated with anticipated natural resource damage(s), 
and specifically, what metrics were relied upon to arrive at the $8 
million dollar cost in the NPR-A?
    Answer. The Record of Decision for the Greater Mooses Tooth One 
Project included a voluntary contribution by ConocoPhillips Alaska, 
Inc. (CPAI) of $8 million to a compensatory mitigation fund to address 
impacts to subsistence uses that were not sufficiently avoided or 
minimized in the decision--in particular, encroachment of the project 
footprint into the established setbacks for Fish Creek and the 
Ublutuoch River. The Alaska National Interest Lands Conservation Act 
directs the BLM to specifically consider subsistence uses when 
reviewing projects and prohibits the BLM from approving projects with 
significant impacts that have not been adequately addressed (16 USC 
3120 section 810). This contribution represents less than 1 percent of 
the cost estimate cited by CPAI for development of the project.
    Question (42). The Department's Budget Brief for 2017 notes 
``(r)esource management plans provide the basis for every BLM 
management action and are necessitated by changes in resource use and 
demands . . .'' (emphasis added)

    a.  What, specifically, are the changes in resource uses and 
demands that necessitate potential management of:

     -- 715,000 acres of the Fortymile and Mosquito Flats Area of 
            Critical Environmental Concern (ACECs) in the Eastern 
            Interior Management Plan;

    Answer. Based on public comment on the Eastern Interior Draft 
Resource Management Plan (EIRMP)/Environmental Impact Statement (EIS), 
the BLM considered changing the boundary of the proposed Fortymile Area 
of Critical Environmental Concern (ACEC) and designating a new ACEC on 
the Mosquito Flats, also in the Fortymile region.
    The Fortymile ACEC (685,000 acres) is proposed for the purpose of 
protecting caribou calving and post calving habitat for the Fortymile 
caribou herd, and Dall sheep habitat. The Fortymile caribou herd is 
both a highly important subsistence resource in east central Alaska and 
an international resource, with a considerable portion of its historic 
range occurring in Canada. BLM-managed lands in the Fortymile region 
are used by Fortymile caribou for calving, post-calving, and winter 
range. The population and range of the herd is currently depressed 
compared to its historical extent. The herd was estimated at more than 
500,000 animals in 1920, but currently numbers 50,000 animals. A 
cooperative planning effort, involving diverse interests in Canada and 
the United States, focuses on the recovery of the herd in numbers and 
into historic range. Calving and post-calving habitats were identified 
as the most sensitive habitats by the Fortymile Recovery Planning Team. 
Additionally, the planning area is predicted to become warmer and drier 
with a likely rise in tree line. These changes will increase the 
importance of alpine and subalpine habitats for calving and year-round 
habitat. Focusing on limiting impacts to the most critical habitat 
areas is the most efficient strategy for maintaining this important 
resource.
    The Mosquito Flats ACEC (30,000 acres) was proposed to protect a 
unique high elevation wetland. This wetland is atypical; the Mosquito 
Fork River flows over continuous sand beds that are 
uncharacteristically clean, light colored, well-sorted, and low in 
organics, suggesting the origin of the sand is likely from a past 
depositional environment, possibly related to eolian deposits of 
Pleistocene or later age. These wetlands are an important moose calving 
area and support BLM sensitive species, including nesting trumpeter 
swans and short-eared owls.

  --Nearly 700,000 acres in the Sheefish Bering Sea-Western Interior 
        Plan;

    Answer. While developing the Bering Sea-Western Interior (BSWI) 
RMP, the BLM received a number of public comments and nominations from 
tribes, advisory councils, and individuals regarding the increased 
importance of non-Salmon species due to the crash of the salmon 
population. Sheefish is one of the species specifically mentioned.
    Sheefish were mentioned as being a culturally significant fish 
species along the Kuskokwim River. They are harvested for subsistence 
use by many, especially in the middle and upper river. Sheefish are 
often caught before salmon in the spring, and offer an opportunity for 
fresh fish early in the season. In recent years, salmon have been in 
decline and there has been an even greater shift in harvest patterns 
away from salmon and more toward whitefish and other salmon species. 
Sheefish spawning grounds have very specific needs and occur in small 
numbers on the Kuskokwim River. Sheefish spawn in relatively small and 
specific locations, and a section of the Big River located south of 
McGrath has been identified as a well-known spawning area for sheefish. 
Local residents depend on the fish and wildlife resources of this 
drainage. The local Athabascan name for the river is ``Zidlaghe 
Zighashno'' which translates as ``Sheefish Spearing (Harvest) River'' 
and the river has been expressed as very important to local people.
    A November 2012 ADF&G report on sheefish spawning grounds on the 
Kuskokwim River provides detailed information about documented spawning 
areas. The report shows three spawning locations on the Kuskokwim River 
for sheefish, located on the Tonzona, Middle Fork and Big River, all 
located in the upper Kuskokwim River area. Of these locations, there 
are BLM-managed lands near the Big River. The sheefish that populate 
the entire Kuskokwim River spawn in very discrete areas or, smaller 
tributaries of the main Kuskokwim River. Eighty percent of the sheefish 
spawning in the Kuskokwim River spawn in a 15.5 mile section of the Big 
River (Stuby, 2012, Alaska Department of Fish & Game (ADF&G) Report).
    As a result of the local importance expressed in public comment and 
after review of the ADF&G studies, the BLM found there were relevant 
and important values and proposed the Sheefish ACEC to protect the 
sheefish spawning areas.

  --Any of the over 6 million proposed acres in the Central Yukon 
        Management Plan; and

    Answer. The BLM is in the early stages of planning for the Central 
Yukon RMP and does not anticipate a final decision until 2019. There 
are approximately 1.8 million acres of existing ACECs in the Central 
Yukon Planning Area. These were designated in 1986 by the Central Yukon 
RMP and in 1991 by the Utility Corridor RMP. During scoping and public 
outreach in 2013-2014, the BLM received numerous nominations for new 
ACECs (approximately 3.7 million acres) and expansions of existing 
ACECs (approximately 1 million acres). Many of the nominations identify 
habitats of important subsistence species such as caribou, Dall sheep, 
and salmon. The Central Yukon interdisciplinary team members reviewed 
all ACEC nominations and BLM-managed lands in the planning area to 
determine whether any areas should be considered for designation as an 
ACEC. Team members also reviewed all existing ACECs and research 
natural areas (RNAs) to determine if the designations were still 
relevant. The interdisciplinary team determined that approximately 5.2 
million acres met the relevance and importance criteria. These findings 
are published in the Central Yukon RMP Web site at: http://www.blm.gov/
ak/cyrmp.
    To date, the BLM has only made determinations on relevance and 
importance criteria and not special management attention. If needed, 
the special management approach is determined by the resource at risk 
and the BLM implements the least restrictive management needed to 
protect the resource. These restrictions could be seasonal restrictions 
on an activity, or additional stipulations on permitted activities, or 
limiting off highway vehicle use to designated trails. While the 
special management needed could be a recommendation to close the area 
to mineral entry, this would only be the recommendation if a closure is 
necessary to protect the relevant and important resource at risk.
    The BLM will further analyze potential ACECs during development of 
draft alternatives and in the Draft RMP/EIS. The BLM will allow for 
public comment on both the preliminary alternatives and the Draft RMP/
EIS when reaching those stages of the planning process.

  --Some of the proposed ACECs would result in the closure of the 
        public lands to mining or other activities. Please articulate 
        how the Department would satisfy its multiple-use, sustained 
        yield mandate in the Federal Land Policy and Management Act if 
        any of the ACECs proposals that contemplate a form of closure 
        are finalized.

    Answer. Areas of Critical Environmental Concern (ACECs) are 
specifically defined in the Federal Land Policy and Management Act 
(FLPMA) as ``areas within the public lands where special management 
attention is required . . . to protect and prevent irreparable damage 
to important historic, cultural, or scenic values, fish and wildlife 
resources or other natural systems or processes, or to protect life and 
safety from natural hazards.'' In FLPMA, Congress also directed that, 
``In the development and revision of land use plans, the Secretary 
shall . . . give priority to the designation and protection of areas of 
critical environmental concern . . .'' in addition to the broader 
considerations of multiple use and sustained yield.
    In addition to the specific discussion of ACECs, FLPMA sets a 
policy that the public lands be managed ``in a manner that will protect 
the quality of scientific, scenic, historical, ecological, 
environmental, air and atmospheric, water resource, and archeological 
values; that, where appropriate, will preserve and protect certain 
public lands in their natural condition; that will provide food and 
habitat for fish and wildlife and domestic animals; and that will 
provide for outdoor public recreation and human occupancy and use. . . 
.''
    FLPMA defines the term multiple use as ``making the most judicious 
use of the land for some or all of these resources or related services 
over areas large enough to provide sufficient latitude for periodic 
adjustments in use to conform to changing needs and conditions; the use 
of some land for less than all of the resources; a combination of 
balanced and diverse resource uses that takes into account the long-
term needs of future generations for renewable and nonrenewable 
resources, including, but not limited to, recreation, range, timber, 
minerals, watershed, wildlife and fish, and natural scenic, scientific 
and historical values; and harmonious and coordinated management of the 
various resources without permanent impairment of the productivity of 
the land and the quality of the environment with consideration being 
given to the relative values of the resources and not necessarily to 
the combination of uses that will give the greatest economic return or 
the greatest unit output.''
    FLPMA defines sustained yield as ``achievement and maintenance in 
perpetuity of a high-level annual or regular periodic output of the 
various renewable resources of the public lands consistent with 
multiple use.''
    In the event that some ACECs are closed to the mining laws, the BLM 
will meet FLPMA's multiple use mandate by allowing mining on lands 
outside of the those ACECs. For example, in the Eastern Interior RMP 
Fortymile Subunit, the agency preferred alternative recommends mining 
be allowed on more than half (70 percent) of the BLM-managed lands in 
the planning subunit. Should this alternative become the final 
decision, the BLM will meet the sustained yield mandate for caribou by 
designating ACECs for calving and post calving habitat.

    b.  Please tell me what efforts the Department has made to apprise 
Alaskans, and specifically Fortymile placer miners, of developing 
management plans, individual obligations and new enforcement 
approaches?

    Answer. The BLM uses a variety of methods to notify and engage the 
public in planning efforts and changes to policy and practices, 
depending on the issue and the scope of the impact. For many planning 
efforts, the BLM is required to publish notices to the Federal 
Register. However, the BLM generally creates many more opportunities 
for public outreach than the Federal Register and is currently revising 
its planning regulations to include more robust public outreach and 
collaboration.
    Other types of BLM actions require different levels of public 
involvement. Of recent concern was the development and implementation 
of the ``mining IMs'' in Alaska. These Instructional Memoranda (IMs) on 
mining reclamation and bonding are direction to staff on how to 
interpret the current mining regulations in 43 CFR 3809 in a consistent 
way. These IMs provide consistency in how the BLM evaluates reclamation 
performance and will provide miners with consistent methods for 
measuring reclamation success. The regulations that define reclamation 
standards have been in place since 2001.
    In 2013 and 2014, BLM staff began discussions with miners and 
mining organizations on current practices that were not meeting 
reclamation performance standards. There have been many advances in the 
last 15 years since the regulations were developed and many of the past 
practices for rehabilitating fish, wildlife, and riparian habitat after 
placer mining have, in many cases, failed to meet a number of 
reclamation performance standards required by regulation. The BLM was 
also concerned about whether there were adequate financial guarantees 
to cover all of the Federal mining operations in the State.
    After the issuing IMs, the BLM sent a letter with associated 
information to every Federal miner in Alaska and met with individual 
miners to go over the regulations and how BLM would be measuring 
reclamation. The BLM also provided presentations on reclamation and a 
short course on revegetation with the Alaska Miner Association (AMA) 
and Alaska Minerals Commission in the Fall of 2015. In the summer 2015, 
the BLM implemented the Jack Wade Demonstration project in the 
Fortymile Wild and Scenic River Corridor to test new reclamation 
techniques for placer mined streams in Alaska. The project is designed 
to accelerate the recovery of in-stream and riparian habitats in a 
historically mined area. The ultimate goal was to find new approaches 
to reclamation and to help miners meet the reclamation standards more 
quickly. If the techniques are successful it will help miners to plan 
and implement their own reclamation work and assist them in meeting the 
reclamation performance standards required by regulation. Several 
Fortymile miners attended a workshop in Chicken to discuss reclamation 
evaluations and view the demonstration project. One of the successes 
from the workshop is that one of the area miners has asked BLM to help 
develop another demonstration project in 2016 on his mine site.
    In April 2016, the BLM plans to give presentations on reclamation 
and a short course on revegetation at the AMA conference in Fairbanks. 
The BLM will also organize field workshops and demonstrations for 
miners in Chicken, Central and Coldfoot in the summer of 2016 and 
develop booklets and videos describing reclamation techniques.

    c.  And please elaborate on what the Department's policy is in the 
interim while new policies, enforcement approaches, management plans 
and the like are being developed. For example, is it the Department's 
position to continue operating under existing policies while a new 
policy is being drafted?

    Answer. Existing operations are not affected until new policy, 
plans or regulations are finalized. In some instances, operations are 
``grandfathered in'' and follow the old regulations. For example, some 
mining operations are covered by the 1980 version of the CFR while 
others are covered by the 2001 version. However both versions require 
revegetation and the rehabilitation of fisheries and wildlife habitat. 
The mining IMs outline ways to measure the effectiveness of the 
reclamation and assure that it meets either version of the regulations.
    When the new Resource Management Plan is completed, the 
stipulations in the plan will only affect new or modified mining plans 
of operation. Existing plans of operation, or those with only minor 
modifications, are not affected.
    Question (43). The administration has been vague on the details 
surrounding your proposed $10.25/barrel ``fee,'' as you call it.

    a.  Has the Interior Department performed any analysis of how a 
$10.25/barrel fee would impact energy production on Federal lands? If 
not, why not?

    Answer. The proposed oil fee, which would be gradually phased in 
over 5 years, is an important part of the administration's effort to 
address the challenges of our outdated transportation system. The fee 
would raise the funding necessary to make these new investments, while 
also providing for the long-term solvency of the Highway Trust Fund to 
ensure we maintain the infrastructure we have. By placing a fee on oil, 
the President's plan creates a clear incentive for private sector 
innovation to reduce our reliance on oil and at the same time invest in 
clean energy technologies that will power our future.
    The proposed fee is not a wellhead tax and is not specific to oil 
production from Federal lands. Therefore, BLM has no reason to believe 
that energy production from Federal lands would be disproportionately 
impacted--either positively or negatively--by the fee and has not 
performed an analysis on its impact. The Department understands that 
the administration has indicated a desire to work with Congress on how 
to optimize collection of the fee. However, the Department would not 
have a direct role in developing or implementing the details of this 
fee proposal. Further questions about this proposal should be directed 
to the Department of the Treasury.

    b.  In 2013, a report commissioned by the Department of the 
Interior concluded that raising royalty rates on onshore oil and gas 
production on public lands would discourage investment and bring less 
money to the treasury, and consequently was not warranted. With oil 
prices drastically lower than in 2013 and the literally thousands of 
pages of new regulations that have come out of your Department to 
regulate industry over the last few months, has your Department 
analyzed what the cumulative impact of all of these actions will be on 
production on Federal lands and revenue to the treasury?

    Answer. Consistent with Federal requirements, the Department has 
analyzed the economic effects of each rule. These analyses evaluate the 
rules individually, because there is so much geographic and operational 
variability in where and when the rules will apply and whether and how 
they will impact operators. That said, a number of the new standards 
reflect existing industry best practices, with which many operators are 
already in partial or full compliance, and some of the measures will 
actually save producers money. Additionally, many of the rules 
incorporate grandfathering or other provisions that are specifically 
designed to take account of operators' concerns about the rules' 
impacts, including impacts on lower-producing wells.

    c.  In light of these news regulations and fees, can you tell me 
that your actions are designed to increase production on public lands, 
or are you ready to concede that we have different policy objectives 
when it comes to energy development on Federal lands?

    Answer. With respect to onshore production, the Department has a 
unique and broad mission to manage public lands on behalf of the 
American people under the dual framework of multiple use and sustained 
yield. This means we manage these lands for a broad range of uses 
including renewable and conventional energy development, livestock 
grazing, timber production, hunting, fishing, recreation, and 
conservation. These rules are part of a broad regulatory framework 
designed to balance oil and gas production on the public lands with the 
many other uses of those lands and assure development of the public's 
oil and gas resources occurs safely, responsibly, and in the right 
places.
    Question (44). The fiscal year 2015 Omnibus included a requirement 
for a comprehensive inventory of contaminated sites conveyed through 
ANCSA and a detailed plan on how the Department intends to complete 
cleanup of each contaminated site within 180 days of enactment.

    a.  When will the report be completed and made public?

    Answer. The report is complete and in the midst of a final review. 
It should be available this summer.

    b.  Does the Department have any plans to accelerate the cleanup of 
contamination on Native lands, either the lands that BIA, BLM, FWS, 
NPS, or Bureau of Mines actually caused, and do you have any plans to 
coordinate a cleanup among the other Federal agencies: DOD, FAA, the 
National Weather Service and the Forest Service since as Secretary you 
do have a trust responsibility to Alaska Natives?

    Answer. The BLM developed a database with the most comprehensive 
inventory to date of known contaminated sites on lands conveyed to 
Alaska Native Corporations through the Alaska Native Claims Settlement 
Act (ANCSA). The database contains current information about each 
site's land and regulatory status, including (1) the entity to which 
the BLM conveyed the property; (2) the precise coordinates, if known, 
for where the contaminated site is located; (3) the current 
understanding of the site's type and amount of contaminants, if known; 
and (4) any data gaps. Before it can be considered final, the inventory 
needs to be refined with further regulatory and site characteristics, 
when that information is identified. Additionally, further outreach 
needs to be completed to those Alaska Native Corporations that did not 
respond during the BLM's facilitated meetings with stakeholder groups. 
Once finalized, the inventory will provide Alaska Native entities and 
the appropriate Federal and State regulators with a powerful tool to 
help address these contaminated sites.
    It is important to stress that, once non-Department of Defense 
lands pass from Federal ownership, former land-managing agencies no 
longer have authority under CERCLA and Executive Order 12580 
(Superfund) to compel or conduct clean up, although the United States 
may remain liable for pre-conveyance contamination. The Department of 
Defense is the only Federal agency besides the Environmental Protection 
Agency (EPA) authorized to execute or compel cleanup of contaminated 
lands no longer under its ownership per 10 USC 2701(c)(1)(B). The BLM 
and DOI have no authority over other entities that may be identified as 
parties responsible for existing contamination on lands conveyed to 
ANCSA corporations. With the completion of this comprehensive database, 
the BLM has worked to the full extent of its authority in fulfilling 
its responsibilities under the Consolidated and Further Continuing 
Appropriations Act, 2014 (Public Law 113-235).
    Among the sites known to be in need of cleanup, the Alaska 
Department of Environmental Conservation (ADEC) has identified a 
responsible party or parties for almost all sites. For the vast 
majority of parcels, the BLM was not managing the lands when they 
became contaminated and ADEC has identified other agencies as the 
responsible party. Once responsible parties have been documented for 
the sites identified in the completed inventory, the final phase of 
work will be directed by the appropriate regulatory agency. Within 
Alaska, this authority lies with ADEC and EPA for sites not on 
federally managed lands. For sites where a Federal agency has been 
identified as the responsible party, funds for cleanup will require 
budgetary planning and prioritization.

    c.  Does the Department have any estimates or intend to develop 
estimates for exactly what it will cost to clean up the lands so they 
are usable by Natives to generate the benefits that were intended when 
the Native Claims Settlement Act passed 45 years ago?

    Answer. The sites not currently in a clean-up program vary in 
levels of confirmation with regard to the extent of the contamination. 
Without the details related to a verification of a release, extent of 
hazardous material, and other site characteristics that would support 
estimates for cleanup, it is difficult to predict cleanup costs.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question (1). I'm very pleased that this subcommittee was able to 
provide an 85 percent increase for Indian school construction and 
improvements in the 2016 omnibus. That amount includes funds to finish 
the schools on the 2004 school construction priority list. It also 
provides a down payment for to begin work on new schools--that BIE is 
in the process of selecting.
    Selecting five new schools for priority construction is only the 
beginning of the investment we need to make in tribal schools--and I 
believe we won't get there unless we develop some kind of ``Marshall 
Plan'' for Native youth that fully funds infrastructure needs. We 
included language in the 2016 omnibus urging the Department to follow 
the lead of the Defense Department--and develop a comprehensive plan to 
modernize and improve all BIE schools. DOD produced a plan to modernize 
its education facilities needs in 2009--and has been able to make 
significant progress towards fixing its schools as a result. There's no 
reason that the administration and Congress can't work together to do 
the same for tribal schools.

    a.  Secretary Jewell, can you share what steps the Department is 
taking to develop a comprehensive plan to improve all Indian schools?

    Answer. Indian Affairs and the Department have directed the Office 
of Facilities, Property, and Safety Management, through its Division of 
Facilities Management and Construction to work with a contractor to 
develop a ``Poor-to-Good'' 5-year plan to identify the approach and 
resource requirements necessary to modernize our school facilities. The 
results of the assessment will be ready for internal review and further 
strategic planning development in May 2016.

    b.  Is there any reason that the Department can't move forward with 
preparing a comprehensive needs assessment--and plan to address the 
needs identified by such an assessment--this fiscal year?

    Answer. As described above, the Office of Facilities, Property, and 
Safety Management, through its Division of Facilities Management and 
Constructions is engaged in developing such a plan. The results of the 
assessment will be ready for internal review and further strategic 
planning development in May 2016.
    Question (2). I understand that the Department is now moving 
forward with the first phase of the proposed reorganization of the 
Bureau of Indian Education--including the establishment of new 
Educational Resource Centers--and that your 2017 budget anticipates 
additional changes to the Bureau. As part of the first phase of the 
reorganization, you have proposed a number of staffing changes, 
including changes to the regional office in Albuquerque, to create 
these new centers to assist BIE and tribally controlled schools.

    a.  What is your timeline for staffing up these centers, and what 
services can schools expect to receive starting in the fall?

    Answer. Staff hiring is planned to be completed by the end of June 
2016 in time for the new school year 2016-2017.
    The Education Resource Centers are geographically positioned close 
to schools and will be staffed with School Solutions Teams. These Teams 
will ensure that principals and teachers have the resources and support 
they need to operate high achieving schools. These Teams will assist 
schools in their improvement efforts by providing data-supported best 
practice models in such areas as school management and climate, 
professional development, curriculum, and instruction. These Teams will 
not micromanage or direct reforms in schools; rather, they will listen 
to principals and teachers and then provide the support that is 
requested.

    b.  I am still hearing from tribes in New Mexico that they don't 
feel fully informed about changes to expect from the reorganization. 
What is your plan to ensure that all stakeholders--including BIE 
employees whose jobs may be affected--know what to expect during the 
reorganization?

    Answer. The BIE has sought to inform Tribes about the expected 
changes to the BIE reorganization through consultation and outreach. In 
2015, the BIE held 12 regional and individual consultations along with 
six national consultations. The BIE welcomes further questions or 
comments.
    In terms of informing BIE employees, the BIE Office of Human 
Resources (HR) has held an open house, as well as encouraged BIE 
employees to stop by the office to discuss the reorganization and 
positions. All employees were notified by email that HR was available 
for private meetings to discuss the reorganization and the potential 
impact on them individually; approximately 110 individual counseling 
sessions were held in person or via telephone. Since February 22, 2016, 
the BIE has issued vacancy announcements for available positions under 
the new structure. The Acting HR Director and his staff have sent email 
updates as the vacancy announcements have been made and provided 
letters to all staff affected by the reorganization. In addition, 
information is posted on the HR Web site and distributed by the BIE 
newsletter and flyers. HR has also provided Webinars that can be 
accessed at any time by staff explaining how to access USAJobs and how 
to apply for jobs using USAJobs.

    c.  Your budget request provides $8 million dollars in new funds to 
implement more changes to the Bureau to ``increase capacity'' and 
provide additional services to BIE-funded schools, but it doesn't 
provide much more detail. What specific changes are you proposing to 
make, and what additional capacity will BIE build with these funds? 
Will these funds be used to address shortfalls in facilities 
management, contracting and other services provided to schools, as 
identified by the Governmental Accountability Office?

    Answer. The additional $8 million is required to stand up the new 
Schools Operations Division within the Bureau of Indian Education. The 
School Operations Division will include the following functions: 
Facilities (school construction, repair and maintenance, school safety 
and school property); Human Resources; Educational Technology; 
Acquisitions; Budget and Finance; and Communications. The redesign and 
restructuring of the Schools Operations Division will address the 
Government Accountability Office recommendations related to 
accountability and management of funds, school safety issues, 
shortfalls in facilities management, and the planning and execution of 
acquisitions. These issues are addressed in several ways under the 
restructuring of the BIE as follows: (1) dedicated, additional 
staffing; (2) establishment of new offices with new responsibilities 
(e.g., auditing, technical assistance, policy development); (3) new 
reporting chains to ensure oversight of functional experts; (4) new 
business processes that support school needs, and (5) consolidation of 
functions to eliminate duplication.
    Question (3). Secretary Jewell, I am pleased to see your 2017 
budget includes a $350,000 increase to expand the Manhattan Project 
National Historical Park, for a total budget of $691,000. I know that 
the Park Service is still working with the Department of Energy to 
develop its plan for the park.
    Could you please provide an update on what we can expect to happen 
with the park in 2016, particularly in Los Alamos? What activities do 
you plan to fund with your requested increase?
    Answer. If appropriated, funding would provide for adequate initial 
staffing of all three park locations, including Los Alamos. A 
Superintendent, a site manager at each location, and some interpretive 
staff are planned based on the proposed budget for fiscal year 2017.
    If funding is appropriated, the Los Alamos site will hire a site 
manager in 2017 and will expand interpretive staff. The Department of 
Energy is working to have the first buildings open to the public in 
late calendar year 2017.
    In the meantime, the park has developed a brochure showing the 
Manhattan Project resources visitors can see in town, and will be 
hosting regular ranger talks and tours by summer 2016. NPS anticipates 
expanding the interpretive presence in 2017 with the additional funding 
as well as continuing to develop partnerships with the local community.
    Question (4). Secretary Jewell, I am very pleased that my 
colleagues and I were able to provide the BLM National Conservation 
Lands line item with its first increase since fiscal year 2012. As you 
know, we recently established two new national monuments in New 
Mexico--the Organ Mountains-Desert Peaks National Monument in the 
southern border area of the State, and the Rio Grande del Norte 
National Monument in the north near Taos. Tourism at these monuments 
creates critical economic opportunities for the people in surrounding 
communities--and they are also places that New Mexicans enjoy visiting 
ourselves. The President's budget once again proposes a significant 
increase of $13.8 million dollars for monuments throughout the country.

    a.  Can you tell us what BLM's plans are for utilizing the new 
funds we provided in fiscal year 2016-- particularly to support the 
monuments in New Mexico?

    Answer. The BLM's National Monuments and National Conservation 
Areas (NM&NCA) program received a $5.0 million increase in fiscal year 
2016. The increase brings the program's total appropriation to $36.8 
million, which is used to administer 46 areas covering about 12.2 
million acres (as of April 1, 2016). New Mexico has received $1.3 
million, or 26 percent, of the increase because of several new NM&NCA 
designations. This brings the State's total NM&NCA program funding to 
$2.5 million--a 110 percent increase from fiscal year 2015.
    These funds will support all NM&NCAs in New Mexico, including newer 
national monuments. Specific direction includes funding managers, 
critical staff, signage, and educational materials, among other things. 
Funding is also directed for New Mexico's critical maintenance needs, 
to inventory and protect the resources, objects, and values for which 
units were designated, to reduce staffing vacancies, provide education 
and interpretation to the public, hire youth and veterans, and provide 
safe and legal public access.

    b.  With the increased funding included in the 2017 Budget for 
national monuments, what will you be working on? What are the needs 
that should be addressed?

    Answer. The BLM plans to use the proposed $13.8 million increase to 
the NM&NCA program as described in the fiscal year 2017 President's 
budget. Specifically, the program will use the increase to fill 
critical management and staff vacancies, conduct vital inventories, 
provide safe and legal public access, perform basic maintenance on 
infrastructure, protect wildlife habitat and irreplaceable historical 
resources, and provide opportunities for recreation, volunteering, 
youth and veteran engagement, and scientific research.

    c.  Since the budget was delivered, the President has designated 
new monuments in California, and I understand there is still the 
potential for additional designations. Will the funding needs for those 
areas be covered by the increases you've proposed? If not, how will you 
fund them without impacting other states like New Mexico?

    Answer. The 2017 budget was formulated prior to these most recent 
designations. BLM base funding has been used to manage these acres 
prior to their designation as national monuments. Decisions on 
allocation of the requested increase have yet to be made. The BLM will 
have a better idea of 2017 funding needs for the new monuments in the 
coming months, and will be able to reprioritize estimated NM/NCA State 
allocations at that time.
    Question (5). The budget proposes $1.7 million dollars to implement 
a Departmental Southwest Border Radio Initiative--in partnership with 
the Forest Service--to improve communications infrastructure amongst 
the various land management agencies, based on some issues the 
Inspector General uncovered.

    a.  Can you talk about how this funding specifically addresses the 
concerns raised by the Inspector General? Will this initiative improve 
Interior's ability to communicate with Border Patrol and State and 
local law enforcement as well?

    Answer. The funding proposed for the fiscal year 2017 Bureau of 
Land Management Deferred Maintenance budget will allow the Department 
of the Interior to complete the first pilot projects aimed at resolving 
deficiencies in the land mobile radio program in an area with a 
critical need for improved communications. Projects to be completed 
with these funds will focus on resolving concerns over safety of DOI 
personnel using and maintaining land mobile radio facilities. In 
addition, land mobile radio infrastructure will be consolidated, 
removing redundant facilities and upgrading equipment on remaining 
sites. The priorities for work will be accomplished in collaboration 
with other DOI Bureaus in the region including the National Park 
Service (NPS), Fish and Wildlife Service, Bureau of Indian Affairs, the 
Bureau of Reclamation and the U.S. Forest Service. There may be as many 
as 32 sites in the region which could be eliminated through this 
consolidation.
    When completed this project will lead to reduced infrastructure 
costs since there will be fewer sites to maintain and the condition of 
the remaining sites will be much improved. A key aspect of this project 
is the cross Bureau cooperation within DOI and the inclusion of the 
USFS as a full partner. Safety and effectiveness will also be enhanced 
with upgraded replacement communication hardware and operational 
support for the infrastructure will be shared.
    Radio coverage and reliability will be enhanced which should lead 
to better communications with other partners including the U.S. Border 
Patrol. The work to be done is not focused on correcting 
interoperability issues. These issues have been addressed through MOUs 
and exchange of radio frequencies and encryption keys. On the Southwest 
Border, the DOI and USFS Law Enforcement have been successfully 
interoperable with the Department of Homeland Security since 2008, in 
some cases much earlier. Our Officers communicate on these shared 
frequencies and infrastructure every day.

    b.  Can you tell us why BLM was chosen as the lead agency and why 
the Park Service and Fish and Wildlife Service do not have similar 
increases proposed for this project?

    Answer. BLM currently administers and operates a regional 
interagency dispatch center in Phoenix and has been a leader in 
managing land mobile radio communications in the region. The Arizona 
BLM State Directors Office and staff have collaborated with other DOI 
Bureaus and the USFS to identify priority actions needed to address 
field communications issues and has entered into a partnership with the 
NPS, FWS, and the USFS in the border region of New Mexico and Arizona. 
Radio communications are a common operational activity and BLM has 
agreed to manage the requested funds to address needs across all 
Bureaus and the USFS. The funding will be used to consolidate existing 
infrastructure, removing towers that provide overlapping service and 
upgrading the towers that will remain and serve all the participating 
agencies. The specific sites to be worked on will be identified based 
on technical information gathered through a collaborative effort with 
the partners involved.

    c.  What are the tangible impacts we will see on the ground in New 
Mexico if this program is funded?

    Answer. When project work is completed there should be fewer land 
mobile radio communication sites in New Mexico since sites that provide 
overlapping service will be removed. This will reduce environmental 
impacts and maintenance costs for unneeded sites. Maintenance visits to 
the sites will no longer be required reducing disturbance to sensitive 
species and removal of equipment and associated infrastructure will 
allow for restoration of previously impacted sites.
    Improvements at remaining communication sites will increase radio 
coverage and reliability for DOI Bureaus and the USFS and should make 
these sites viable for colocation use by the New Mexico FirstNet Public 
Safety Broadband Network, counties, cities, and other Federal agencies.
    Question (6). I am the lead cosponsor of legislation with Senator 
Wyden that would require the Department to collect royalties for coal 
mined on Federal lands based on the actual market value of coal. The 
bill also increases transparency within the Federal coal program by 
making it a requirement to calculate and publish the going market rate 
for coal and coal transportation.
    I know that you have called for a comprehensive review of the coal 
program. What is the status of that review, and the expected timetable 
for completion? Will the reforms proposed in our bill be evaluated as 
part of your review? Please provide a comprehensive list of the issues 
that you expect to investigate or address as part of the review.
    Answer. On January 15, 2016, the Secretary of the Interior issued 
Order No. 3338 directing the BLM to conduct a broad, programmatic 
review of the Federal coal program it administers through preparation 
of a Programmatic EIS under NEPA. The Order was issued in response to a 
range of concerns raised about the Federal coal program, including, in 
particular, concerns about whether American taxpayers are receiving a 
fair return from the development of these publicly owned resources; 
concerns about market conditions, which have resulted in dramatic drops 
in coal demand and production in recent years, with consequences for 
coal-dependent communities; and concerns about whether the leasing and 
production of large quantities of coal under the Federal coal program 
is consistent with the Nation's goals to reduce greenhouse gas 
emissions to mitigate climate change. In light of these issues, the 
coal Programmatic EIS will identify and evaluate a full range of 
potential reforms to the Federal coal program, including those related 
to ensuring a fair return to the taxpayer.
    On March, 30, 2016, the Department of the Interior published a 
Notice of Intent (NOI) to prepare a programmatic EIS to review the 
Federal coal program and conduct public scoping meetings [Pages 17720-
17728 [FR DOC # 2016-07138]]. Scoping meetings are scheduled for May 
and June 2016. The BLM will invite interested agencies, States, 
American Indian tribes, local governments, industry, organizations and 
members of the public to submit comments or suggestions to assist in 
identifying significant issues and in determining the scope of this 
Programmatic EIS. All comments and recommendations submitted during the 
scoping process will be collected for consideration. The estimated 
completion time for the program review is 3 years.
    Question (7). Secretary Jewell, the demand for ivory and rhino 
horns has skyrocketed. The Congressional Research Service reports that 
a rhino horn is worth more than $50,000 per kilogram--more than even 
gold and platinum. The profit incentive is just staggering--so it's no 
surprise that terrorist networks such as al-Shabab and the Lord's 
Resistance Army are turning to poaching to support their operations.
    The fiscal year 2016 Omnibus included $8 million dollars, a 12 
percent boost, to the Fish and Wildlife Service's efforts to combat 
wildlife trafficking. The budget request for fiscal year 2017 would 
maintain that increased effort.
    What progress is the Service making on hiring the planned 45 new 
specialists and agents, and how quickly will they get into the field? 
What other steps is the Service planning to take with the new funds, 
both in 2016 and 2017?
    Answer. The fiscal year 2016 Omnibus included an $8 million dollar 
increase for the U.S. Fish and Wildlife Service's Office of Law 
Enforcement to combat wildlife trafficking. These funds are being used 
to strengthen the Service's capacity to combat trafficking by hiring 
additional international special agent attaches, digital forensic 
specialists, intelligence analysts, and special agents.
    International attaches are experts on investigating wildlife 
trafficking and breaking up smuggling networks. They are stationed 
around the world in strategic international locations to strengthen 
ongoing international partnerships to protect the world's wildlife from 
poaching and illegal trade. In August 2015, three additional attaches 
were stationed at U.S. embassies in Dar es Salaam, Tanzania; Gaborone, 
Botswana; and Lima, Peru. The Service continues to work with the State 
Department to place a fifth attache in Beijing, China in May 2016. In 
2016, the Service plans to deploy an additional four international 
attaches in areas of the world that have been determined to be 
strategically important in the fight to combat illegal wildlife 
trafficking. The Service is in final discussions with the State 
Department concerning the placement of four additional attaches. The 
Service anticipates advertising the positions before July 2016, with 
selections for the positions to be made in August 2016.
    Digital forensic specialists support agents in case development and 
execution by providing forensic results concerning computers, cell 
phones, and other digital technologies. The Service is currently 
reviewing applications for the five new special agent positions funded 
in the fiscal year 2016 budget. The Service aims to place the new 
agents at the Digital Evidence and Recovery Computer Forensics Lab by 
June 2016.
    Intelligence analysts support special agents and wildlife 
inspectors working in the field in numerous ways, including providing 
information concerning trends in wildlife trafficking, researching 
information on smuggling syndicates, performing criminal history 
checks, and producing and distributing intelligence bulletins. The 
Service is on track to select a new Special Agent in Charge of the 
expanded Intelligence Unit in June 2016, with plans to bring the 
remaining agents on board shortly thereafter.
    The Service has also hired 43 special agents to ensure its ability 
to enforce the Nation's wildlife laws and safeguard protected species. 
The additional special agents will address the current staffing level 
shortfall that has limited the Service's ability to perform ongoing 
investigations. A portion of the new agents have completed initial 
training and are already working at field locations. Final training 
will take place in June 2016 at the Federal Law Enforcement Training 
Center in Glynco, Georgia. After completion of all training, new agents 
will be deployed to the field for direct interdiction of illegal 
commercial exploitation by organized crime elements.
    Through increased staff in these vital areas of expertise, the 
Service will strengthen our own and our global partners' capacity to 
prosecute and deter criminals that engage in the poaching and smuggling 
of wildlife and plants.
    Question (8). Secretary Jewell, the Fish and Wildlife Service's 
efforts to reintroduce the Mexican gray wolf in New Mexico and Arizona 
has had a promising start. They were virtually eliminated from the wild 
by the 1970s, but thanks to the program, the population reached 110 
wolves in 2014.
    Unfortunately, the 2015 count brought some troubling news--the 
Mexican gray wolf population dropped to 97. I also understand that two 
wolves passed away during or right after being darted and tagged by the 
Fish and Wildlife Service. Wild populations can naturally ebb and flow, 
but we know that these wolves are at risk for a number of factors. It's 
critical that we investigate closely.

    a.  Do your scientists have a theory for why the population is 
trending downward? Are there plans underway to help support a rebound?

    Answer. The drop in numbers from 2014 to 2015 represents 1 year and 
does not yet indicate a trend. The population decline in 2015 was due 
to a combination of factors. There were 13 Mexican wolf mortalities (5 
illegal, 2 natural, 1 capture complication, 5 awaiting necropsy) 
compared to 11 in 2014. Ten additional wolves are considered fate 
unknown compared to three in 2014. Finally, a significantly lower 
proportion of pups survived to December, relative to last year: 55 
percent survival in 2015 compared to 86 percent in 2014. In the 2014 
Environmental Impact Statement for the revised regulations for the 
Mexican wolf experimental population, the Service anticipated an 
average annual population growth of 10 percent. In 2014, Mexican wolves 
had higher than usual pup survival and a population growth of 30 
percent. The Service maintains that the strategy for the experimental 
population continues to be viable. The Service and its partners remain 
focused and committed to making this population genetically healthy and 
robust so that it can contribute to the recovery of the Mexican wolf.

    b.  Why did the two wolves die during the count and capture 
operation? Has the Fish & Wildlife Service done a full review of their 
policies and procedures to prevent similar accidents?

    Answer. The Service conducted preliminary investigations 
immediately following the two deaths during the 2015 count and capture 
operation. Both wolves are undergoing necropsies at the Service's 
Forensics Laboratory in Ashland, Oregon, to determine cause of death. 
We have requested that the lab specifically determine if either wolf 
experienced capture myopathy and if there was any other contributing 
underlying health issue. The techniques, protocol, and drugs used were 
the same as those used throughout this year's and last year's count and 
capture operations. This year, 13 additional wolves were successfully 
darted, processed, collared, and released back into the wild. Based on 
the outcome of the necropsies, the Service will determine if any 
changes to protocol are needed.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
    Question (1). Could you please provide a comparison of the revenues 
returned in the last several fiscal years from oil, gas, and coal 
leases, versus any revenue brought in from solar energy. Please include 
in the report what the revenue is generated from, such as rents. 
Further, please identify where there this money is accounted for in the 
Interior budget. It does not appear to be documented in Interior's 
Office of Natural Resources Revenue which lists revenues from other 
sources.
    Answer. A comparison of the revenues generated for oil, gas, coal 
and solar energy are provided in the tables below.
    Revenues from oil, gas, and coal leases: Data with respect to 
revenue generated by the production of Federal oil, gas, and coal is 
maintained by ONRR on its Statistical Information Web page (http://
statistics.onrr.gov/ReportTool.aspx). Information made available is 
broken down into information on Revenue Type (reported royalties, 
rents, bonus, and other revenues), Commodity (leased solid and fluid 
minerals), and the total Revenue collected. Definitions for these 
categories are provided by ONRR on its Web site.
    The tables below present the total revenue collected from Federal 
oil, gas, and coal production on both an annual and aggregate basis 
from fiscal year 2010 through fiscal year 2015.

                                                                   OIL AND GAS REVENUE
                                                                  Fiscal Year 2010-2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year
                       Type                               2010             2011             2012             2013             2014             2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
Gas (mcf).........................................   $1,444,790,640   $1,360,191,600     $976,195,024   $1,008,066,360   $1,161,006,314     $915,071,846
NGL (gal).........................................     $210,688,138     $253,774,439     $298,372,582     $284,957,168     $279,379,284     $154,241,725
Oil (bbl).........................................     $870,739,500   $1,110,883,193   $1,275,117,598   $1,459,973,589   $1,634,903,295   $1,269,596,134
                                                   -----------------------------------------------------------------------------------------------------
      Total Royalties.............................   $2,526,218,278   $2,724,849,233   $2,549,685,203   $2,752,997,117   $3,075,288,892   $2,338,909,704
 
Oil & Gas Rents...................................      $48,800,065      $45,002,896      $43,758,281      $41,036,833      $36,684,823      $30,886,105
Oil & Gas Bonuses.................................     $201,872,509     $233,467,555     $283,051,994     $188,982,219     $161,936,505     $112,651,284
                                                   -----------------------------------------------------------------------------------------------------
      Total Royalty, Rent and Bonus...............   $2,776,890,852   $3,003,319,684   $2,876,495,478   $2,983,016,170   $3,273,910,220   $2,482,447,094
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                   COAL LEASE REVENUE
                                                                  Fiscal Year 2010-2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                      Total Fiscal Year
  Fiscal Year 2010      Fiscal Year 2011      Fiscal Year 2012      Fiscal Year 2013      Fiscal Year 2014      Fiscal Year 2015          2010-2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
     $856,793,241          $956,018,290        $1,364,744,116        $1,165,066,525        $1,161,706,509        $1,137,450,911        $6,641,809,592
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Revenues from Solar Energy: ONRR does not collect renewable 
resource revenue information. Renewable energy revenue is reported by 
the BLM in the Public Land Statistics. Since 2010, the BLM has 
authorized 35 solar projects. As of April 2016, there are 6 projects 
that have been built and are providing power to the grid. The following 
table summarizes renewable energy revenues that BLM has collected over 
the past several years.
    The table below reflects annual payments that the BLM collects for 
solar and wind energy development. It does not include revenues 
collected through competitive bidding for development parcels at an 
auction since there has only been one auction held to date, in 2014, 
which resulted in over $5.8 million in bids. This is an amount that the 
BLM collected in addition to the amounts reported in the table below. 
All revenues, including bid monies, are sent to the General Fund at the 
Treasury.

                                          SOLAR AND WIND ENERGY REVENUE
                                              Fiscal Year 2010-2015
----------------------------------------------------------------------------------------------------------------
                        Year                                 Solar               Wind          Fiscal Year Total
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2010....................................           $3,911.76       $3,115,480.25       $3,119,392.01
Fiscal Year 2011....................................       $6,230,982.09       $3,713,338.16       $9,944,320.25
Fiscal Year 2012....................................       $5,199,338.42       $4,354,260.32       $9,553,598.74
Fiscal Year 2013....................................       $6,343,817.72       $4,315,856.99      $10,659,674.71
Fiscal Year 2014....................................       $7,307,687.93       $5,402,276.42      $12,709,964.35
Fiscal Year 2015....................................      $10,686,757.63       $4,538,337.65      $15,225,095.28
                                                     -----------------------------------------------------------
      Totals........................................      $35,772,495.55      $25,439,549.79      $61,212,045.34
----------------------------------------------------------------------------------------------------------------

    Question (2). Given that your department has concluded that a PEIS 
for the coal leasing program is necessary, will you commit to 
refraining from other major modifications to the coal program while 
this analysis is being conducted?
    Answer. The intent of the discretionary Programmatic EIS is to 
analyze potential leasing and management reforms to the current Federal 
coal program in response to concerns raised by the Government 
Accountability Office, the Interior Department's Office of Inspector 
General, Members of Congress, interested stakeholders and the public. 
Any potential reforms or changes to the Federal coal program will be 
identified in the scoping process.
    Question (3). You have indicated that a number of coal leases that 
have received record of decisions will be grandfathered. Are you firmly 
committed to allowing those lease sales to move forward as planned?
    Answer. The Secretarial Order states that applications having 
records of decisions or decision records issued by either the surface 
management agency or the bureau at the time of the order will be 
processed and not affected by the pause.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question (1). The Consolidated Appropriations Act of 2016 (Public 
Law 114-113) included a directive to require the Office of Surface 
Mining Reclamation and Enforcement (OSMRE) to provide States with 
technical reports, data, analyses, comments received, and documents 
related to the environmental review and environmental impact statements 
for the agency's proposed stream buffer zone regulation. To date, what 
has OSMRE done in conjunction with the Department of Interior to comply 
with Congress' directive?
    Answer. OSMRE made these documents available to all of the States 
on March 24, 2016. Reference materials cited in the proposed rule were 
uploaded on the Web site regulations.gov with the exception of 
reference materials protected by copyright law.
    Question (2). The Office of Surface Mining and Enforcement (OSMRE) 
claims that States have been reluctant to work with the agency despite 
their outreach efforts on the proposed stream buffer zone regulation. 
The Energy and Environment Cabinet in Kentucky sent a letter to your 
agency on February 8, 2016, indicating that the State agency would be 
interested in receiving the information directed by Congress in the 
Consolidated Appropriations Act of 2016 (Public Law 114-113) to see how 
those studies and assessment documents compare with their own findings 
and reviews. Where is your agency in the process of responding to this 
request? What steps will your agency take to ensure that the newly 
elected and appointed officials in the commonwealth of Kentucky are 
brought up to speed with the proposed rule and reviews and findings 
associated with it? What sort of engagement can the Kentucky Energy and 
Environment Cabinet expect from your agency before the stream buffer 
zone rule is finalized?
    Answer. OSMRE has and will continue to honor its commitment to 
provide the State of Kentucky as well as all other States the 
information directed by Congress. In this regard, OSMRE scheduled a 
series of technical meetings to provide answers to questions the States 
might have with any of the documents provided. The State of Kentucky 
was invited to participate in these meetings held on April 14, 2016 and 
on April 21, 2016.
                                 ______
                                 
              Questions Submitted by Senator Bill Cassidy
    Question (1). In 1996 Congress passed the National Technology 
Transfer and Advancement Act (NTTAA). The law prohibits the use of 
technical standards unique to the Federal government in lieu of 
voluntary consensus standards as they relate to agency rule making. 
However, the Blowout Preventer Systems and Well Control final rule, RIN 
1014-AA11 violates the NTTAA by using government unique technical 
standards. This violation makes it impossible to implement numerous 
portions of the rule while remaining compliant with existing law. In 
its formulation of the rule BSEE also infringes upon OMB Circular A-
119. The circular requires the publishing of a NTTAA ``statement'' in 
its Notice of Proposed Rulemaking (NPRM) detailing why government 
unique technical standards were necessary in lieu of consensus 
standards if exceptional reasons existed.

    a.  Why did BSEE not include a NTTAA statement in its original 
NPRM?

    Answer. BSEE's Blowout Preventer Systems and Well Control final 
rule is consistent with the NTTAA's requirement that agencies use 
technical standards that are developed or adopted by voluntary 
consensus standards bodies rather than government-unique standards. The 
final rule expressly incorporates the following voluntary consensus 
technical standards as required by the NTTAA:

  --American Petroleum Institute (API) Standard 53 (``Blowout 
        Prevention Equipment Systems for Drilling Wells'');
  --ANSI/API Specification (Spec.) 11D1 (Packers and Bridge Plugs,
  --ANSI/API Spec. 16A (Drill-through Equipment);
  --API Spec. 16C (Choke and Kill Systems);
  --API Spec. 16D (Control Systems for Drilling Well Control Equipment 
        and Control Systems for Diverter Equipment);
  --ANSI/API Spec. 17D (Design and Operation of Subsea Production 
        Systems--Subsea Wellhead and Tree Equipment); and
  --ANSI/API RP 17H (Remotely Operated Vehicle Interfaces on Subsea 
        Production Systems).

    The final rule does not use government-unique standards in lieu of 
voluntary consensus standards. As a result, BSEE is not required to 
provide a statement that identifies government-unique standards and 
explain why using voluntary consensus standards would be inconsistent 
with law or otherwise impractical.

    b.  How does BSEE plan to implement all of rule RIN1014-AA11 if key 
provisions violate existing statues?

    Answer. BSEE does not believe that any provisions of the rule 
violate existing statutes. As BSEE described in the preamble to the 
proposed rule, pursuant to the Outer Continental Shelf Lands Act 
(OCSLA), Congress authorized BSEE to promulgate regulations concerning 
natural resources of the Outer Continental Shelf.\3\ BSEE relied on 
this legal authority as its basis for developing and issuing the final 
Blowout Preventer Systems and Well Control rule. The final rule is 
consistent with OCSLA and other existing statutes described in the 
rulemaking record.
---------------------------------------------------------------------------
    \3\ 80 Fed. Reg. 21505 (April 17, 2015); 43 U.S.C. 1334.

    c.  Does the Department plan to publish a NTTAA statement and 
---------------------------------------------------------------------------
reopen the public comment period?

    Answer. As the Blowout Preventer Systems and Well control rule 
complies with the requirements of the NTTAA and the guidance in OMB 
Circular A-119 concerning the Bureau's identification of voluntary 
consensus standards used in the rule, the Department does not plan to 
reopen the public comment period.
    Question (2). The NTTAA does allow for exceptions from the 
voluntary consensus standards mandate when their use ``is inconsistent 
with applicable law or otherwise impractical'' and requires agencies to 
``transmits to the Office of Management and Budget an explanation of 
the reasons for using such standards.'' In accordance with 15 U.S.C. 
Sec. 272.

    a.  Please explain the Department's process for justifying a NTTAA 
exemption when BSEE was actively involved in creating and approving the 
consensus standards at issue.

    Answer. BSEE's promulgation of the final Blowout Preventer Systems 
and Well Control rule is consistent with the NTTAA's requirement that 
agencies use technical standards that are developed or adopted by 
voluntary consensus standards bodies, rather than government-unique 
standards, when such technical standards are consistent with the law 
and practical (e.g., when the technical standards would serve the 
agency's program needs and would not be ineffectual, inefficient or 
inconsistent with the agency's mission). The final rule does not rely 
on an exemption from the NTTAA.

    b.  Please explain the justification that voluntary consensus 
standards are ``impractical'', especially taking into account that 
government-unique standards lack a technical basis and create potential 
safety risks.

    Answer. Each departure from voluntary consensus standards is 
founded on a sound technical basis, generally accepted engineering best 
practices, and BSEE's determination that the relevant consensus 
standard, or a specific provision of the standard, does not provide an 
acceptable level of risk, risk management, or due care. For example, 
API Standard 53 contains a provision that allows an operator to opt out 
of a requirement to have dual shear rams on a subsea blowout preventer. 
The final version of the Blowout Preventer Systems and Well Control 
rule incorporates API Standard 53, but does not incorporate the ``opt-
out'' provision as the Bureau determined that full incorporation of 
Standard 53 cannot provide the same level of safety as an absolute 
requirement to have dual shear rams. In instances such as this, where 
the Bureau decided that a departure from consensus standards was 
appropriate, BSEE exercised its authority carefully with an eye toward 
establishing an acceptable level of protection while also balancing 
risks, costs, and the availability of alternative approaches in 
establishing regulatory requirements.
    Question (3). In its NPRM BSEE claims the proposed rule is not a 
``significant energy action'' triggering the need for a Statement of 
Energy Effects under the Outer Continental Shelf Lands Act (``OCSLA'') 
and procedural requirements under Executive Order 13211 (May 18, 2001) 
requiring a ``Statement of Energy Effects.'' However, based on comments 
received from the public it is unreasonable for BSEE and the Department 
to continue this claim. BSEE has acknowledged that the proposed rule in 
total ``represents one of the most substantial rulemakings in the 
history of the BSEE and its predecessor organizations.'' While 
simultaneously and inconsistently claiming that the proposed rule is 
not a significant energy action under E.O. 13211, BSEE has not met the 
mandate under OCSLA for a reasoned analysis of the rule.
    Given the obvious and BSEE acknowledged impact this rule will have; 
will the Department renew its analysis and prepare the requisite 
Statement of Energy Effects and submit the Statement for public 
comment, as required by law?
    Answer. The rule represents one of the most substantial rulemakings 
in BSEE history because it codifies significant improvements to the 
safety of well control operations, not because of any possible energy 
effects. The Bureau's analysis of the final rule indicates that it will 
not have a significant adverse effect on energy supply, distribution, 
or use because its estimated impacts will not exceed the thresholds 
established by OMB.\4\
---------------------------------------------------------------------------
    \4\ OMB Memoranda 01-27 (Guidance for Implementing E.O. 13211) 
(2001).
---------------------------------------------------------------------------
    Question (4). BOEM has stated that offshore sources have not been 
demonstrated to impact onshore air quality. At the same time, BOEM is 
currently undergoing air modeling studies to inform its air quality 
rulemaking and these studies are not expected to conclude until 2017. 
However it appears the agency is on the cusp of proposing an entirely 
new regulatory program for offshore operators.

    a.  Is the agency going to move forward with a proposed rule before 
receiving the results of the air modeling studies that are intended to 
inform the rule for which it has commissioned nearly $4 million? What 
assurance can you provide today that the agency will issue a draft 
report of the studies for public review and comment prior to finalizing 
the report or incorporating its conclusions into any revised regulatory 
requirements?

    Answer. The proposed regulations continue the framework of the 
current BOEM air quality regulations. The framework, a construct in 
place since 1980 when the Department of the Interior first issued air 
quality regulations, was designed to meet the Department's statutory 
mandate to ensure that offshore oil and gas activities do not exceed 
onshore national ambient air quality standards (NAAQS).
    Given today's landscape, we acknowledge the need to update the 36 
year-old regulations to reflect current science and technology and 
recent determinations about pollutant levels that are potentially 
harmful to human health and the environment. The existing regulations 
reflect outdated air quality standards that the Environmental 
Protection Agency (EPA) has since revised to better reflect current 
science.
    The proposed regulations will more effectively protect public 
health and the welfare of affected States. In addition, BOEM's current 
regulations do not take into account air quality impacts over State 
coastal waters, which BOEM believes would more accurately meet its 
statutory responsibility. Finally, revisions are also needed to address 
BOEM's responsibility to assess air quality impacts in the Arctic, as 
required by The Consolidated Appropriations Act, 2012 (Public Law 112-
74).
    The proposed regulations are designed to allow advances in science 
and assessment of air quality impacts to be flexibly and efficiently 
incorporated into BOEM's air quality rules, including results of the 
modeling studies currently underway. The modeling studies are intended 
to inform air quality requirements within the framework of the proposed 
regulations, not the framework itself. Consistent with BOEM's practice 
for scientific standards, the studies will be peer-reviewed and made 
public once final. Also, as BOEM's proposed regulation provides, any 
changes in the current emission exemption thresholds, which the models 
are designed to inform, would not occur until the studies are 
completed, and would not occur before BOEM gives notice in the Federal 
Register that it intends to revise the thresholds and provide an 
opportunity for public comment.
    Conclusions about the environmental impact of OCS air emissions 
depend on the focus of review and the most recent science. Those 
assessments are determined when BOEM reviews site-specific plans of 
operations. In that context, it is possible for emissions to exceed 
significant impact levels or lead to deterioration of State air 
quality. Accordingly, it is necessary for BOEM to conduct a broad 
cumulative impact analysis, as well as a site-specific review of plans.

    b.  What justification does the agency have for moving forward 
without the results of the studies when your agency, through its 
environmental impact assessments, has repeatedly concluded that 
offshore sources do not impact onshore air quality?

    Answer. The proposed regulations continue the framework of the 
current BOEM air quality regulations. The framework, a construct in 
place since 1980 when the Department of the Interior first issued air 
quality regulations, was designed to meet the Department's statutory 
mandate to ensure that offshore oil and gas activities do not exceed 
onshore national ambient air quality standards (NAAQS).
    Given today's landscape, we acknowledge the need to update the 36 
year-old regulations to reflect current science and technology and 
recent determinations about pollutant levels that are potentially 
harmful to human health and the environment. The existing regulations 
reflect outdated air quality standards that the Environmental 
Protection Agency (EPA) has since revised to better reflect current 
science.
    The proposed regulations will more effectively protect public 
health and the welfare of affected States. In addition, BOEM's current 
regulations do not take into account air quality impacts over State 
coastal waters, which BOEM believes would more accurately meet its 
statutory responsibility. Finally, revisions are also needed to address 
BOEM's responsibility to assess air quality impacts in the Arctic, as 
required by The Consolidated Appropriations Act, 2012 (Public Law 112-
74).
    The proposed regulations are designed to allow advances in science 
and assessment of air quality impacts to be flexibly and efficiently 
incorporated into BOEM's air quality rules, including results of the 
modeling studies currently underway. The modeling studies are intended 
to inform air quality requirements within the framework of the proposed 
regulations, not the framework itself. Consistent with BOEM's practice 
for scientific standards, the studies will be peer-reviewed and made 
public once final. Also, as BOEM's proposed regulation provides, any 
changes in the current emission exemption thresholds, which the models 
are designed to inform, would not occur until the studies are 
completed, and would not occur before BOEM gives notice in the Federal 
Register that it intends to revise the thresholds and provide an 
opportunity for public comment.
    Conclusions about the environmental impact of OCS air emissions 
depend on the focus of review and the most recent science. Those 
assessments are determined when BOEM reviews site-specific plans of 
operations. In that context, it is possible for emissions to exceed 
significant impact levels or lead to deterioration of State air 
quality. Accordingly, it is necessary for BOEM to conduct a broad 
cumulative impact analysis, as well as a site-specific review of plans.

    c.  What reassurance can you provide that the agency will not rush, 
in order to meet an artificial deadline, the regulated community's 
ability to comment on the proposed rule and allow the agency time to 
engage with stakeholders as you analyze and digest those comments in 
order to incorporate any appropriate revisions into the final rule?

    Answer. BOEM is proceeding with the rulemaking in a deliberative 
manner with ample opportunity for public comment. For instance, while 
drafting the Air Quality proposed rule, BOEM held a number of meetings 
and listening sessions with other government entities, and 
environmental and industry stakeholders. The proposed rulemaking 
provides 60 days for public comment following its publication on April 
5, 2016 in the Federal Register. Additionally, the proposal was posted 
on BOEM's Web site on March 17, 2016, providing the public an 
additional 19 days to review the proposed rule. BOEM will carefully 
review the comments it receives on the proposed rule as it develops a 
final rule.
    Question (5). BSEE is currently working to finalize its BOP/Well 
Control Rule which as proposed may actually decrease safety and 
increase risk. Will the final rule make offshore operations less safe 
and increase risk like the proposal did?
    Answer. The Department announced the final rule on April 14, 2016, 
and the final rule was published in the Federal Register on April 29, 
2016. The Bureau's analysis of the administrative record, including the 
many recommendations associated with the Deepwater Horizon blowout and 
explosion investigations and the public comments indicates that the 
final rule will reduce the risk of an offshore oil or gas blowout that 
could result in the loss of life, serious injuries, or substantial harm 
to the environment. Accordingly, the final rule represents one of the 
most significant safety and environmental protection reforms the 
Interior Department has undertaken since Deepwater Horizon, and builds 
upon a number of reforms instituted over the last 6 years to strengthen 
and modernize offshore energy standards and oversight.

    a.  Prior to the rule's proposal last year did DOI thoroughly 
examine all of the safety improvements made since 2010 and identify the 
existing gaps to determine what this rule needed to address?

    Answer. Following the Deepwater Horizon tragedy, several immediate 
actions were taken to address specific offshore safety concerns 
involving drilling operations. The regulations that were issued in 2010 
and 2012 provided new standards for well design, casing and cementing, 
and third-party certification of designs. These rules represented an 
important first step in addressing regulatory gaps in the offshore 
program, but did not address the full cadre of regulatory deficiencies 
identified after Deepwater Horizon.
    The Blowout Preventer Systems and Well Control rule represents the 
next step in the process of creating a robust regulatory program that 
is responsive to all of the recommendations received from the several 
investigations of the Deepwater Horizon incident. BSEE employed a 
number of strategies to ensure that regulatory gaps were identified and 
addressed, including, but not limited to, involving industry and other 
stakeholders in the development of the proposed rule and in the final 
rulemaking process.

    b.  DOI received significant comments and feedback on a number of 
safety concerns with the proposed rule. A recent Wall Street Journal 
article, which may have been written as a result of a DOI leak of the 
final rule, suggests that changes have been made to the proposal. What 
changes have been made to enhance safety?

    Answer. The Blowout Preventer Systems and Well Control rule 
codifies many important improvements to offshore drilling. The final 
rule addresses key recommendations made after the Deepwater Horizon 
tragedy and closes gaps in existing regulations and updates BSEE 
regulations to reflect industry best practices. Parts of the final rule 
that were modified after the public comment period on the proposed rule 
include the safe drilling margin requirement, real-time monitoring, 
blowout preventer (BOP) inspection requirements, and BOP accumulator 
capacities.
    As to the drilling margin requirement, text was added to clarify 
the acceptability of risk-based justifications for specifying an 
alternative drilling margin, which clearly provides the flexibility 
requested in numerous industry comments. With regards to the real-time 
monitoring provisions, language was revised to clarify the Bureau's 
intent and to address misperceptions reflected in the comments. The new 
provision reflects the Bureau's intent to allow maximum flexibility in 
complying with real-time monitoring requirements.
    In addition to enhancing safety and flexibility, many of the 
changes reflected in the final rule will result in substantial cost-
savings for offshore operators. For example, the final rule modifies 
the 5-year BOP inspection requirement, allowing inspections to occur in 
phases, provided every component is inspected once every 5 years. 
Compliance dates were also extended for several important requirements, 
including the extension of the requirement to use BSEE-Approved 
Verification Organizations (BAVOs) to perform certifications from 90 
days to no later than 1 year from the date when BSEE publishes the list 
of BAVOs. In response to industry comments, the requirement to use 
``hydraulically operated locks'' on surface BOPs was modified to allow 
the use of remote-controlled locks and the effective date of that 
requirement was extended to 3 years after the date of publication. 
These are just a few instances where comments and other feedback BSEE 
received were reflected in changes to the final rule.

    c.  A number of us in Congress have real concerns with the proposal 
all centered on safety and as a result the DOI needed to undertake a 
more robust analysis and engage in real dialogue to make sure the 
unintended consequences were addressed and the rule actually made 
offshore operations safer. As a result, the fiscal year 2016 omnibus 
spending bill expressed the need for more robust analysis and that 
further examination needed to take place prior to the finalization of 
the rule. Did DOI heed to the call of the Congress prior to finalizing 
and sending the rule to OMB? Why or why not?

    Answer. Yes. BSEE conducted extensive stakeholder engagement after 
publication of the proposed rule and during the extended comment 
period. BSEE participated in numerous meetings with industry and other 
stakeholders before and after publication of the proposed rule on 
subject matter related to the Blowout Preventer Systems and Well 
Control rule, a number of which dealt specifically with clarifying 
stakeholders' written comments on the rule. BSEE also attended 
listening sessions arranged by the Office of Management and Budget 
(OMB) during the E.O. 12866 review period for the draft final rule, 
most of which were requested by members of industry. BSEE staff 
carefully considered all stakeholder comments and input.
    The Bureau's comprehensive and transparent outreach was critical to 
the development of the final rule. The final rule does not represent a 
``one-size-fits-all'' approach. Rather, the final rule incorporates 
sufficient flexibility to allow operators to focus on the ultimate goal 
of increasing safety and reducing risk offshore. The final rule also 
allows for the development and deployment of new technologies that lead 
to safer operations. Additionally, the final rule employs a phased 
implementation approach for some of its more complex provisions that 
gives industry sufficient time to come into compliance with new 
technological requirements.

    d.  Does the final rule address and fix all of the safety concerns 
stakeholders and Congress had with the proposal? Does the final rule 
enhance safety?

    Answer. The final Blowout Preventer Systems and Well Control rule 
combines prescriptive and performance-based approaches to regulation to 
ensure that oil and gas companies and offshore rig operators are 
cultivating a greater culture of safety with a focus on risk reduction. 
Based on the extensive technical comments received during the 
rulemaking process, several adjustments were made to provisions of the 
proposed rule that are reflected in the final rule. The final rule 
provides a level of flexibility sufficient to ensure that regulatory 
oversight keeps pace with technological advancement, provided future 
innovations can meet the rule's standards for safety performance. The 
key concerns of industry based on the proposed rule are addressed in 
the final rule including, but not limited to safe drilling margins, 
accumulator capacity, BOP inspection intervals, and real-time 
monitoring requirements. The Bureau firmly believes that the regulatory 
process has resulted in a final rule that will raise the bar for 
offshore safety, both in United States Federal waters and 
internationally.

                          SUBCOMMITTEE RECESS

    [Whereupon, at 12:08 p.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
